<html>
<title> - ADDRESSING VETERAN HOMELESSNESS: CURRENT POSITION; FUTURE COURSE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    ADDRESSING VETERAN HOMELESSNESS: CURRENT POSITION; FUTURE COURSE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                               JOINT WITH

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       THURSDAY, JANUARY 18, 2018

                               __________

                           Serial No. 115-45

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-373                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8afae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>                    
                    
                  
                    COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                     BRAD WENSTRUP, Ohio, Chairman

GUS BILIRAKIS, Florida               JULIA BROWNLEY, California, 
AMATA RADEWAGEN, American Samoa          Ranking Member
NEAL DUNN, Florida                   MARK TAKANO, California
JOHN RUTHERFORD, Florida             ANN MCLANE KUSTER, New Hampshire
CLAY HIGGINS, Louisiana              BETO O'ROURKE, Texas
JENNIFER GONZALEZ-COLON, Puerto      LUIS CORREA, California
    Rico

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                       Thursday, January 18, 2018

                                                                   Page

Addressing Veteran Homelessness: Current Position; Future Course.     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman, Subcommittee on Economic 
  Opportunity....................................................     1
Honorable Julia Brownley, Ranking Member, Subcommittee on Health.     2
Honorable Beto O'Rourke, Ranking Member, Subcommittee on Economic 
  Opportunity....................................................     3

                               WITNESSES

John F. Clancy, President and Chief Executive Officer, Tristate, 
  Veterans Community Alliance....................................     4
    Prepared Statement...........................................    57
Angela F. Williams, President and Chief Executive Officer, 
  Easterseals, Inc...............................................     6
    Prepared Statement...........................................    59
Stephen Peck, President and Chief Executive Officer, U.S. VETS...     8
    Prepared Statement...........................................    66
John W. Martin, Development Director, The Opportunity Center.....    10
    Prepared Statement...........................................    70
Kathryn Monet, Chief Executive Officer, National Coalition for 
  Homeless Veterans..............................................    11
    Prepared Statement...........................................    75
Matt Miller, Deputy Assistant Secretary, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    36
    Prepared Statement...........................................    77
Dominique Blom, General Deputy Assistant Secretary, Office of 
  Public and Indian Housing, U.S. Department of Housing and Urban 
  Development....................................................    38
    Prepared Statement...........................................    81
Thomas Lynch M.D., Deputy Under Secretary for Health for Clinical 
  Operations, Veterans Health Administration, U.S. Department of 
  Veterans Affairs...............................................    39
    Prepared Statement...........................................    84

        Accompanied by:

    Keith W. Harris Ph.D., Director of Clinical Operations, 
        Homeless Programs Office, Veterans Health Administration, 
        U.S. Department of Veterans Affairs

                       STATEMENTS FOR THE RECORD

Disabled American Veterans.......................................    88
Mile High Behavioral Healthcare..................................    91
Paralyzed Veterans of America (PVA)..............................    94
The American Legion..............................................    96
Veterans of Foreign Wars of the United States (VFW)..............   100
Veterans Village of San Diego (VVSD).............................   103
Vets Advocacy....................................................   104

                        QUESTIONS FOR THE RECORD

HVAC to HUD......................................................   106
From VA to Miami VA Healthcare System, Paul M. Russo.............   107
HVAC to VA.......................................................   107
From Tim Walz to U.S. Department of Housing and Urban Development   109
From Tim Walz to U.S. Department of Veterans Affairs.............   110
From Mark Takano to NCH..........................................   111

 
    ADDRESSING VETERAN HOMELESSNESS: CURRENT POSITION; FUTURE COURSE

                              ----------                              


                        Thursday, July 18, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                  Subcommittee on Oversight
                                        and Investigations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Committee] presiding.
    Present: Representatives Arrington, Wenstrup, Bilirakis, 
Radewagen, Higgins, Banks, Coffman, Roe, Brownley, O'Rourke, 
Takano, Kuster, and Correa.
    Also present: Representative Peters.

OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN, SUBCOMMITTEE ON 
                      ECONOMIC OPPORTUNITY

    Mr. Arrington. The Subcommittee will come to order. Good 
morning, everyone. Thank you for being here. It is my pleasure 
to welcome you to today's Subcommittee, joint Subcommittee on 
Health and Subcommittee on Economic Opportunity Oversight 
hearing on veteran homelessness.
    I want to apologize first for being a little late. I had 
another obligation in my responsibility on the Budget Committee 
and my colleague, Brad Wenstrup, chair of the Health 
Subcommittee, will not be able to make it and so I am going to 
preside. We have the VHA Subcommittee chair Julia Brownley and 
her capable leadership. Thanks for being here. And then my 
friend from Texas and Ranking Member on the Subcommittee for 
Economic Opportunity, Beto O'Rourke is joining me, as well.
    We have our Chairman who is joining us, so thank you, Dr. 
Roe for coming. I want begin also by asking for unanimous 
consent for Congressman Mike Coffman, Congressman Scott Peters, 
and I guess that is it, so sit in on the dais and participate 
in today's hearing. I don't hear any objection and so ordered.
    I am going to cut through my remarks here and break from my 
customary reading of script and just say that this is a subject 
that is heartbreaking and when you look at the statistics on 
veteran homelessness and the underlying issues that our 
veterans struggle with, many and maybe mostly on account of the 
burden that they bore for us and for our country and for our 
freedom, it just--it is just gut- wrenching and we--there is 
not an issue, I don't believe that is, you know, more important 
than to find ways to help and serve this segment of the veteran 
population.
    As I read and studied up and prepaid on background, I 
noticed that there has been an exponential increase in funding 
in this area and there is some 20-plus programs across the 
various agencies. With respect to the VA, most of this is at 
the VHA, but that is a lot of programs and that is a tremendous 
increase in funding.
    Here is my deal. Is it working? What is working? What is 
not working? How do we measure the success of these programs? 
Because it is only because of the generosity of the taxpayer 
that we have this opportunity. And so I have a number of 
questions. I think it is encouraging to see a significant 
decline in homelessness over the course of the last several 
years on account of, I think, the commitment from a secretary 
and administration in the past and as somebody once told me, if 
you throw enough money at something, you are going to see the 
needle move. But are we spending it wisely, effectively? And 
then how do we focus these resources where they can have the 
greatest return, A, to help the veteran, B, to assure our 
taxpayers that their money is going--is being productively 
spent.
    With that, I think we just--let's just get this hearing 
started. And, again, I apologize because I was not going to 
open this up, but let's go ahead and introduce our panelists. 
Okay. I am going to defer to you, Madam, Ranking Member 
Brownley, and ask that you provide any opening comments.

     OPENING STATEMENT OF JULIA BROWNLEY, RANKING MEMBER, 
                     SUBCOMMITTEE ON HEALTH

    Ms. Brownley. Thank you, Mr. Chairman, and I just would 
like to say that I concur with everything that you have said in 
your remarks and I would add that in 2009, former Secretary 
Shinseki pledged a commitment to ending homelessness among 
veterans. In 2014, former Secretary McDonald also committed to 
this pledge to end homelessness among veterans. Between 2009 
and 2016, veteran homelessness was reduced by 47 percent. In 
2017, Secretary Shulkin shared his top five priorities for the 
VA and as many may be aware, ending veterans homelessness was 
not included in that list of priorities.
    I fear, based on the actions of this administration thus 
far, that in the coming years, we will continue to lose ground 
in our fight against veteran homelessness. In 2017, HUD's 
annual survey found that veteran homelessness increased by 1.5 
percent; however, when you drill down into these numbers and 
look at specific communities, the picture is much more 
alarming. Los Angeles County, which I represent a part of, saw 
a 57 percent increase in the number of homeless veterans just 
in the past year.
    I would like to enter into the record, a letter from the LA 
County Board of Supervisors, the mayor, United Way, and the Los 
Angeles Homeless Service Authority that outlines the challenges 
ahead to end veteran homelessness.
    Mr. Arrington. Yes.
    Ms. Brownley. Thank you very much. These local partners are 
committed to working together with the VA and other Federal 
agencies to ensure all veterans have access to safe and 
affordable housing. There is no doubt, combatting veteran 
homelessness must be an inter-agency effort.
    In 2014, when we last held a hearing on this issue and is 
why I wanted to hold this hearing because it has been several 
years since we have gotten an update, John Downing, CEO of 
Soldier On, said based on his experience that 100 percent of 
homeless female veterans encountered and have survived military 
sexual trauma. Without the VA, HUD would not know how to treat 
the underlying trauma and injuries that MST can lead to. 
Without HUD, the VA would not have the housing assistance and 
expertise necessary to ensuring that veterans receive permanent 
housing as part of their treatment. And finally, without the 
Department of Labor, that veteran would be hard-pressed to 
overcome the barriers faced by many, if not all, transitioning 
veterans seeking employment in the civilian market.
    This is the same for many veterans, whether they are 
survivors of sexual assault, struggling with addiction, or 
managing mental health conditions. These veterans are complex. 
Their issues are complex. The solution is complex. But by 
working together, we can build on the gains we made over the 
last seven years which saw three states and 57 communities 
eliminate veteran homelessness altogether. The progress made 
during those seven years was quite frankly incredible and it 
was in large part, due to the hard work of the case managers, 
social workers, health care personnel, counselors, volunteers, 
and veterans themselves.
    I commend the hard work of our ``boots on the ground'' 
organizations and the commitment of agency officials during 
this full time, some of whom are testifying today. And I 
question why this administration would backtrack on that 
solution and risk the lives of homeless veterans nationwide.
    I hope the President's budget this year reflects a newfound 
commitment to ending veteran homelessness through an allocation 
of funding that supports both, the housing and wraparound 
services necessary to heal and house these veterans.
    Mr. Chairman, I thank you, and I thank you for your 
commitment to this issue and I look forward to our discussion 
ahead.
    Mr. Arrington. Thank you, Ranking Member Brownley, I now 
yield five minutes for opening remarks for Ranking Member 
O'Rourke from the great state of Texas.

      OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER, 
              SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

    Mr. O'Rourke. That is right. Mr. Chairman, Ranking Member 
Brownley, I want to thank you and the staffs that work with you 
and the staffs that work on the Economic Opportunity 
Subcommittee for the work that has gone into preparing for this 
hearing. This is why I love serving on this Committee, the fact 
that Chairman Roe is here, the fact that Members who are not 
even on the Committees of jurisdiction have asked to have the 
privilege of sitting here and being helpful as we try to 
address this issue of veteran homelessness, which is not 
provocative. It is not sensational. It doesn't grab headlines. 
It is not one of those things that people are on late night TV 
screaming at each other about, but it could not be more 
important. And the fact that we are able to cross party lines, 
working together, and do what is important, much the way that 
we have addressed access to mental health and meeting the 
crisis of veteran suicide head-on, making progress in that very 
important, underserved area. I feel that we will be able to do 
the same thing here.
    And the only thing, Mr. Chairman, that I could add to your 
comments, you say that it is because of the generosity of the 
taxpayer that we have the opportunity to do this work, it is 
also thanks to the service of those veterans whose service we 
are honoring by our commitment to make sure that none of them 
are homeless. That we get that down to zero in every single one 
of our communities, whether that is functional zero or real 
zero, and that may be part of the conversation today.
    We need to make sure it is both, the resources, and to your 
point, the oversight, the accountability, the follow-through, 
to make sure that these programs are working. And I am just so 
pleased that we have such an important panel before us; those 
who understand and work on that issue directly, who are going 
to be able to inform the policy that we make here and improve 
our level of oversight and the accountability from the VA and 
the Federal government.
    And lastly, I just want to thank Mr. John Martin, from The 
Opportunity Center in El Paso, as someone who makes this flight 
every single week. I know how hard it is to get from El Paso to 
Washington, D.C. and I know that you almost didn't make it due 
to some problems with some of those connections. And so the 
fact that you take some time out of what you are doing, the 
important work in serving veterans in El Paso to be here and 
help us, just know that we are grateful and I extend that 
gratitude to everyone on this panel.
    I yield back, Mr. Chairman.
    Mr. Arrington. Thank you, Mr. O'Rourke.
    And now we will get to our first panel. I would like to 
welcome you guys again this morning. Thank you for making time 
for this very important issue and we are honored to have you 
here. Let's start with John F. Clancy, the President and Chief 
Executive Officer of the Tristate Veterans Community Alliance, 
which is located in Cincinnati, Ohio. Mr. Clancy, thanks for 
being here today and representing the Ohioans you serve.
    Angela F. Williams is next. She is President and Chief 
Executive Officer of Easterseals, Inc.
    Stephen Peck, the President and Chief Executive Officer of 
U.S. VETS.
    John W. Martin, the Development Director for The 
Opportunity Center.
    And finally, Kathryn Monet, the Chief Executive Officer of 
the National Coalition for Homeless Veterans.
    Thank you, guys, again, for being here. Mr. Clancy, we will 
start with you. We now recognize you for five minutes.

                  STATEMENT OF JOHN F. CLANCY

    Mr. Clancy. Good morning, ladies and gentlemen. My name is 
John Clancy. I am an Air Force veteran. I serve as the 
president and CEO of the Tristate Veteran Community Alliance, 
or TVCA, in Cincinnati, Ohio.
    Thank you for inviting me to testify today at this 
important hearing regarding support for our veterans in need. 
As an independent veteran-led, nonprofit organization focused 
on improving the access to and the quality of services offered 
to veterans and their families, we appreciate the opportunity 
to share our perspective and provide recommendations to address 
the needs of veterans in distress.
    The TVCA was created four years ago to serve as a backbone 
organization responsible for aligning veteran support in our 
region. We partner with over 150 local organizations and 
operate a veteran in-processing center that has meaningfully 
serviced and met the needs of more than 11,050 veterans since 
opening 28 months ago.
    In addition, we have piloted programs that fill gaps in our 
community not currently filled by our partner organizations, 
such as an accelerated career training and placement program 
for mid-level non-commissioned officers and an educational 
storytelling event for veterans to share their journey with 
local citizens.
    With ensure success within our workgroup and piloted 
programs, we leverage our United Way 2-1-1 Call Center and 
facilitate data-sharing efforts both, inside and outside our 
region.
    Our efforts are characterized by the following aspects: We 
are proactive, seeking to engage veterans and their families 
before a crisis happens; we seek collaboration whenever 
possible; we work across sectors; we have many businesses 
involved in our efforts, but also include social services, 
veteran organizations, and all major educational institutions; 
and, finally, we look for systemic solutions, in addition to 
program improvement. That said, it is important for the 
community to assess how the resources provided by the VA, HUD, 
and DOL impact the lives of all veterans, but more urgently, 
our distressed and/or homeless veteran population.
    Based on our community needs assessments, the TVCA 
recommends that resources be considered for downstream 
programming related to behavioral health, wellness, and social 
support, addressing what are often the root causes of homeless 
and upstream support for collaborative transitional systems 
like the TVCA that can intercept veterans and resolve issues 
before they become a crisis.
    Over the last decade, the efforts of all three Federal 
agencies have been commendable and successful. The VA designed 
a research-informed strategy called ``Housing First'' to 
address the problem, especially for those veterans who had 
experienced chronic homeless. This strategy involved a 
cosponsored initiative with HUD to invest resources in stable, 
permanent housing for chronically homeless veterans and case 
management services to prevent them from experiencing further 
homeless episodes.
    Other programs, including the DOL's Homeless Veteran 
Reintegration Program, have also served to facilitate the 
successful transition of veterans from homeless.
    With the current strategy at its 10-year mark, the VA and 
HUD Housing First programs have successfully reduced veteran 
homelessness by nearly 50 percent; however, based on client 
trends seen in our region, we believe the client needs, and 
demographic profile are beginning to show signs of moving from 
traditionally homeless individuals to those who are 
transitioning or at risk.
    To serve the new customer base, we should begin to adapt 
the current system to not only focus on homeless veterans, but 
also successful life transitions for at-risk veterans. To 
accomplish this shift in mindset, a broader set of outcomes 
need to be developed. That involves not just housing 
attainment, but boosting veteran self-efficacy, development of 
clear, personal goals, and developing or enhancing the 
motivation to succeed in a civilian world.
    For veterans in distress, there are several strategies that 
correspond to how soon or at what level we engage. At the 
individual level, for those in acute distress, we need to 
ensure the right clinical levels of care are accessible and 
available. At a systemic level, we need to ensure existing 
organizations are communicating and strategizing across 
sectors, including the continuums of care, mental--medical 
centers and other veteran-wellness and support groups.
    Finally, and ultimately, we need to ensure that the 
transition system from military to civilian life is 
coordinated, veteran-centered, and resourced. This includes a 
greater level of information-sharing, new and improved 
programming focused on proactive, strength-building 
approaching.
    We believe that upstream regional collaborators like the 
TVCA in Cincinnati, and Combined Arms in Houston, for example, 
are a key part of the solution. This collaborative approach 
allows a community to mainstream best practices, decrease 
competition, and allow for the scaling-up of efforts to support 
transitioning veterans. A coordinated, community-based approach 
that brings together diverse sets of resources and identifies 
new opportunities across public and private sectors is needed.
    We applaud your review of the mix of programs available for 
programs, assessing the correct mix for current needs and 
opportunities. In closing, we would like to stress again, the 
importance of a relevant, trusted community organization that 
can initiate and sustain the conversation for aligning strategy 
on transition support, employment, and wellness. Thank you.

    [The prepared statement of John F. Clancy appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Clancy.
    We now yield five minutes to Ms. Williams.

                STATEMENT OF ANGELA F. WILLIAMS

    Ms. Williams. Chairman Arrington, Ranking Members Brownley 
and O'Rourke, and Members of the Subcommittees, good morning. I 
am Angela Williams, president and CEO of Easterseals, a 
national network of nonprofit organizations committed to 
helping veterans and others reach their full potential through 
local servicing and supports. I am also a proud veteran. Thank 
you for inviting me to testify this morning on this hearing to 
assess the various programs designed to reduce veteran 
homelessness.
    Easterseals has been actively servicing veterans for more 
than seven decades. My testimony will highlight Easterseals' 
experience in responding to the needs of homeless and at-risk 
veterans through employment and other supports needed for their 
successful community reintegration.
    In 2010, about the time Easterseals started a new phase in 
its effort to help homeless veterans, our country's veteran 
homelessness population grew to over 74,000. Today that number 
has dropped nearly 46 percent, due to strong collaboration 
between Federal, state, and local partners and the 
complimentary alignment of programs across various Federal 
agencies.
    In my written testimony, I share the story of Paula, a 
veteran who moved to New York City to find work and turn her 
life around. Her job search was complicated by employment 
barriers that proved too difficult to overcome. Defeated and 
homeless, she turned to a women's shelter, where, thankfully, 
she was referred to Easterseals for employment assistance. We 
leveraged our community partners to help Paula with housing, 
resume development, interview preparation, obtaining the 
appropriate wardrobe, and subway cards to get to job 
interviews.
    Today Paula is living independently, working full time, and 
contributing to her community, thanks to the NVHS National 
Veteran Homeless Strategy, developed by Congress and 
implemented by Federal agencies. Paula's story highlights the 
effective collaboration and alignment of the Department of 
Veterans Affairs' Supportive Services for Veterans Families 
Program, or SSVF; the Department of Housing and Urban 
Development and VA's SHP Supportive Housing Program, HUD-VASH; 
and the Department of Labor's Homeless Veterans' Reintegration 
Program, or HVRP.
    It takes the strengths, resources, and collaboration of 
many to help veterans succeed. Easterseals' distinction in this 
national effort is to help homeless veterans find jobs. Our 
expertise, serving most in-need job-seekers made us a natural 
partner with the Department of Labor on its HVRP program, which 
is employment-focused and a perfect complement to the housing 
focus of HUD-VASH and the VA's Supportive Services for Veterans 
Families program.
    The Homeless Veterans' Reintegration Program taps into the 
existing community network by providing grants to local 
organizations. Easterseals operates 11 HVRP grants nationwide. 
We provided HVRP employment services to nearly 1,200 homeless 
veterans last program year and are proud to share that 61 
percent found jobs during that year with wages averaging from 
$10 to nearly $21 per hour. Once unemployed and homeless, these 
veterans are now working, paying taxes, and contributing to 
their communities. Their success represents a strong return on 
the HVRP Federal investment, which averages about $2,500 per 
veteran.
    Easterseals is honored to be part of the solution in 
reducing veteran homelessness, but our work is not finished. I 
include recommendations in my written testimony to build on a 
strong foundation Congress has set for addressing veteran 
homelessness. Let me boil them down to two main points. One, 
Congress should support full-funding and a long-term extension 
for the Homeless Veterans' Reintegration Program. Easterseals 
supports the bipartisan effort to extend and expand HVRP. 
Additional funding is necessary to meet the growing needs of 
the chronically homeless and hardest to serve veterans who will 
require more supports and time to find employment and housing 
success.
    Two, Congress should expand early access to community- 
based support services. The first step is to approve Chairman 
Wenstrup and Ranking Member Brownley's bill, H.R. 4451, that 
expands veteran eligibility to HVRP services. Congress should 
also consider ways to expand federally funded community case 
management to proactively meet the challenges of veterans well 
before they meet the homeless and unemployed eligibility 
criteria of programs like HVRP and SSVF.
    Thank you for your time today. I am pleased to answer any 
questions.

    [The prepared statement of Angela F. Williams appears in 
the Appendix]

    Mr. Arrington. Thank you, Ms. Williams.
    Mr. Peck, five minutes.

                    STATMENT OF STEPHEN PECK

    Mr. Peck. Good morning. My name is Stephen Peck. I am the 
president and CEO of U.S. VETS. I am also a Vietnam veteran. I 
served with the 1st Marine Division near Denang in 1969 and 
1970, and I have been working for homeless veterans since 1991.
    U.S. VETS is the largest veteran-specific nonprofit housing 
and service provider in the country, providing housing and 
services to 3,300 veterans every night and providing 
homelessness prevention, employment, and mental health services 
to an additional 5,000 veterans in the communities that we 
serve.
    I am also the president of the California Association of 
Veteran Service Agencies, comprised of seven veteran nonprofits 
that collectively provide housing and care to more than 25,000 
veterans each year.
    Despite hundreds of millions of dollars spent, numerous 
government policies and the best efforts of hundreds of 
communities, there are still more than 40,000 veterans living 
on our streets and that number is rising across the Nation. In 
California, the number of homeless veterans rose nearly 20 
percent in 2017 and in Los Angeles, that number rose 57 
percent. This is no time to be taking our eye off the ball.
    Despite this upward trend, it seems to us that there is no 
longer an emphasis and determination to get every veteran off 
the streets. This shift and focus is evidenced in two ways. 
First, the proposal by the VA to take permanent housing 
supportive service dollars out of the special projects category 
where it is protected and placing these dollars into the 
general fund where medical directors can redirect it at-will. 
While they have said they will not shift these dollars, the 
vast funds remain in the general fund line item.
    And, second, VA's overall management of the HUD-VASH 
program. It is plagued by lack of accountability, insufficient 
data collection, and inadequate outcome measures.
    Together, these factors can inhibit our abilities to get 
veterans off the streets and into permanent housing and provide 
the case management and supportive services that will keep them 
there. The Housing First model that the VA professes to follow 
requires a client-case manager ratio of 25:1. Additionally, it 
requires access to assistance with a simple phone call 24 hours 
a day. That is not what is happening.
    We have project-based VASH-voucher beds at five of our 
sites and VA social workers are consistently to provide the 
required coverage. For 75 VASH vouchers, the VA is required to 
provide three full-time case managers. We never have three. We 
rarely have two. And our clinical staff picks up the slack. If 
a nonprofit, such as U.S. VETS provided that level of coverage 
while contracted with the VA, we would lose the contract.
    I have attached three letters to my written testimony from 
three different communities that have been awarded the HUD 
vouchers, two in California and one in Florida. In each case, 
the VA has indicated that it does not have the resources to 
provide adequate case management coverage for the number of HUD 
vouchers awarded. The result is that the vouchers go unused 
while veterans languish on the streets.
    If I understand correctly, the funding that Congress has 
appropriated to the VA specifically for VASH case management 
positions is for some reason, not available. Veterans still 
living on our streets need every dollar of this funding. If the 
VASH program were turned into a grant program, experienced 
veteran nonprofits would assume full responsibility, would 
spend every dollar appropriately and could be held to outcome 
measures that we are already meeting and exceeding.
    Because our programs are residential, we have staff 24/7 
and are used to responding to client issues day and night. U.S. 
VETS provides case management for 423 beds of permanent 
supportive housing with a 92 percent retention rate.
    By contrast, a recent Inspector General study reports a 70 
percent success rate in the HUD-VASH program. The study also 
states that the reason the vast majority of those veterans 
exited the program was unknown ``as HUD's systems do not have 
the capacity to track this information.''
    This is just careless. Homeless veterans' rate of attempted 
suicide is 20 times higher than the rate of suicide attempts 
among all veterans. They are plainly at risk and desperate for 
our help and we need better data on how Federal funding is 
serving or failing them.
    We have all been at this for a long time and you have put a 
lot of money into this, so you might ask: What is your return 
on investment? My 25 years of experience tells me if you pull 
back now, the number of homeless veterans on the street will 
continue to grow and they will use the only services available 
to them; expensive mental health and medical services. They 
will spend time in jail and homeless shelters and they will 
continue to die, having been abandoned by the country they 
fought for.
    Combatting homelessness is not a one-time fix. It is an 
ongoing effort to mitigate the inequality that exists in our 
system for veterans who, through lack of opportunity, lack of 
education, mental illness, combat trauma, or other deficits, 
end up on the margins of society. We are paying for this 
strategy one way or another; we simply have to make the 
decision that these veterans' lives are worth saving. Thank 
you.

    [The prepared statement of Stephen Peck appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Peck.
    Mr. Martin, you are now recognized for five minutes.

                  STATEMENT OF JOHN W. MARTIN

    Mr. Martin. Good morning. My name is John Martin. I am the 
development director for The Opportunity Center for the 
homeless in El Paso, Texas. And I think that statement, in and 
of itself, is important because my comments are going to be 
reflective of a community that is struggling as it relates to 
ending homelessness; whether it be veterans, chronically 
homeless, or the families and youth.
    The other aspect of this, as I mentioned to a couple of 
folks as we have started this is I felt a little bit like a 
fish out of water from the standpoint that I tend to live more 
in the HUD world than I do the VA, but it is also very 
important that we need to understand how the two need to 
overlap with one another as we work through this.
    The Opportunity Center for the homeless has existed now for 
over 24 years in El Paso. I have had the pleasure of working 
with them for four. As a development director, I do a lot of 
strategy and a lot of thinking. Many might consider my position 
to be that of a professional beggar, as a general description.
    The truth of the matter is, we care for a majority of the 
homeless in El Paso and that includes the chronic homeless. Of 
our population that we serve, roughly 15 percent are veterans 
and these are individuals that do not qualify, based on 
eligibility requirements associated with the VA. So we are 
looking at the other end of the spectrum.
    As a direct result, we have to rely on HUD funding for that 
purpose and there has already been a reference during this 
testimony to the Housing First initiative, an initiative that 
has severely hampered our efforts in El Paso. Housing First is 
an incredible program, so I don't want anybody to take those 
comments the wrong way, but in respect, all of our funding in 
the community is now directing toward increasing our housing 
inventory and not that of support services, and the two must go 
hand-in-hand.
    As an example, over the last five years, we have lost $1.2 
million per year, as a community--not as an organization--as it 
relates to support services. Now, that includes employment, 
legal, transportation, medical care, mental health, street 
outreach. And in turn, as a community, we have lost a little 
over a half a million dollars with regard to overall funding.
    And so what we are facing is a struggle at this point is to 
provide the appropriate level of services that are needed, not 
only for placement within housing, under the Housing First 
initiative, which is an incredible tool, but also with regard 
to sustainability and how to prevent recidivism.
    In my written testimony, I gave you some numbers, numbers 
that are reflective of us as an organization, an organization 
that has 14 different programs in 10 different houses. Those 10 
houses, 7 of which are permanent housing, 1 of which is 
transitional, which is our Veterans Transitional Living Center, 
which is the GPD program that we operate within the community. 
The remaining are what you would refer to as ``emergency 
shelters'' and that is where that 15 percent lie.
    And these are individuals that are defined as chronically 
homeless both, based on disability, as well as length of 
homelessness. And so, in turn, when you look at goals such as 
25:1 on a case management that was stated earlier, which is the 
ideal situation, we are working in situations where it is 200, 
to 250:1 and that is because of the absence of what we need for 
the support service dollars.
    Because, we as a community, in general statement, we are a 
very poor community. A little over 50 percent of our population 
falls under 200 percent of the Federal poverty level. So, you 
would say that we have a low tax base. And so we have no local 
investment, with regard to the city or to the county. And so, 
for us, the burden is placed on the service provider and we are 
being asked to do more with less.
    And I think my conclusion here, if I so make that 
statement, is that in some respects, as it relates to funding, 
you have to take a look at the unique characteristics of each 
of the communities because in many cases, those parameters, 
that metrics that are imposed on us as an agency that receives 
funds are restricted in a manner that works in other 
communities, but not necessarily El Paso.
    We need to have that flexibility to be able to design a 
system utilizing those same metrics that meets the need within 
the community and the unique characteristics of those that we 
serve. With that stated, I welcome any question when that time 
comes and I look forward to having further discussion. Thank 
you.

    [The prepared statement of John W. Martin appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Martin.
    Ms. Monet, you are now recognized for five minutes.

                   STATEMENT OF KATHRYN MONET

    Ms. Monet. Chairmen Roe, Wenstrup, and Arrington, Ranking 
Members Brownley and O'Rourke, and distinguished Members of the 
House Committee on Veterans Affairs, I am Kathryn Monet, the 
CEO of the National Coalition for Homeless Veterans. On behalf 
of our board of directors and members across the country, we 
thank you for the opportunity to share our views with you this 
morning.
    NCHV is a research and technical assistance center for a 
national network of community-based service providers and 
local, state, and Federal agencies that provide a range of 
housing and supportive services to hundreds of thousands of 
homelessness, at-risk, and formerly homeless veterans across 
the country. We are committed to working with our partners to 
end veteran homelessness.
    The good news is that 60 communities, including three 
states, have achieved the Federal benchmarks and criteria for 
ending veteran homelessness and this demonstrates for the first 
time ever that ending veteran homelessness is actually an 
achievable goal. This progress is largely a testament to the 
dedication and hard work of local service providers, community 
partners, and VA Medical Center staff. In the abstract, this is 
progress towards this major goal, right? But in real terms, it 
is life-changing for the veterans who have been able to access 
housing and assistance as a result.
    Now, the bad news here, as you have heard over and over 
again this morning, is that our hold on this progress is 
tenuous, at best, as evidenced by the slight increase by the 
number of veterans between 2016 and 2017. While 36 states and 
DC all saw decreases in veteran homelessness, other communities 
with particularly high cost-rental markets saw dramatic 
increases. From NCHV's perspective, an increase of even one 
veteran is one too many.
    So, this is a stark reminder to all of us that now is not 
the time to take our foot off the gas pedal or shift resources 
from homeless programs to other priorities within VA. We really 
need to focus on doubling-down on these efforts to ensure that 
homelessness is rare, brief, and non- recurring for veterans 
and for all Americans.
    For communities and providers, doubling-down really means 
looking at your community-level data and knowing your homeless 
neighbors and their needs, right? So that you can really 
implement evidenced-based strategies like Housing First 
community-wide and homeless veterans can then access permanent 
housing quickly and all of the resources like employment and 
supportive services that they might need for housing stability.
    We also need to recognize, though, that Housing First never 
means housing only. So, successful implementation of Housing 
First really includes access to health and mental health care 
and those wraparound services like benefits assistance, 
employment and training services, and all the other things that 
a veteran needs to make sure that their housing placement is 
sustainable.
    Now, here in DC, doubling-down also means that Congress 
needs to ensure that key programs that serve veterans 
experiencing homelessness are sufficiently funded. At NCHV, we 
never advocate for the growth of resources for the sake of 
expanding programs, but the slight uptake in the count, in 
conjunction with rising rents across much of the country and 
the series of natural disasters that occurred in 2017, demands 
nothing short of your continued leadership and attention with 
regard to both funding and oversight of these programs.
    Homelessness is a multifaceted and complex problem that 
differs for every single veteran experiencing it. One of the 
best ways that we can address it is for Congress to support a 
permanent authorization for the United States Interagency 
Council on Homelessness, or USICH. The small team of experts at 
USICH convenes Federal agencies in order to set shared policy 
priorities and objectives that really can actualize the Federal 
plan to end homelessness.
    Furthermore, from this unique cross-cutting position, USICH 
is able to identify and prevent duplication of services that 
would otherwise waste efforts and resources. We can also 
encourage further collaboration between VA, HUD, DOL, and all 
of their grantees to provide more seamless services to homeless 
veterans.
    One of the best examples of interagency collaboration is 
the HUD-VASH program, as it allows VA to focus its resources 
more efficiently by pairing VA-funded case management with a 
HUD-funded Section 8 voucher for some of the most vulnerable 
veterans we see. The case management funding has historically 
been distributed to medical centers through a special purpose 
designation, as the case managers truly must be located where 
the vouchers are distributed to ensure adequate support for the 
veterans who are using these vouchers.
    As you know, last September, VA sent guidance to VISN 
directors regarding the immediate conversion of this funding 
from special purpose to general purpose funds. Well, VA has 
backed away from this decision for the time being. This could 
have dramatically reduced case management for vulnerable 
veterans using these vouchers. And let me be really clear here: 
NCHV objects, in the strongest of terms, to this proposed 
conversion or any action that would reduce case manager 
availability to veterans using HUD-VASH vouchers.
    In the 60 communities which have effectively ended veteran 
homelessness, these vouchers are well known as critical 
resources that make housing affordable, incentivize affordable 
housing development, and allow communities to end homelessness. 
Any reductions would lead to veterans not receiving the care 
which they rely on to maintain housing and these case managers, 
like Mr. Peck said, are already stretched thin, sometimes 
caring for far more veterans than clinically indicated. To 
approve this proposal would be catastrophic to the health, 
well-being, and housing stability of all the veterans using 
these vouchers; as such, we insist that they must be used for 
their intended purpose.
    Thank you for the opportunity to present this testimony. It 
is a privilege to work with all of you and your staff to ensure 
that every veteran facing a housing crisis has access to safe, 
decent, and affordable housing, paired with supportive 
services. Thank you.

    [The prepared statement of Kathryn Monet appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Monet, and, again, thank you 
all of the panelists for your remarks. I want to now yield to 
our Chairman, Dr. Phil Roe, five minutes for comments and 
questions.
    Mr. Roe. Thank you, Mr. Chairman. I appreciate that. I have 
another Committee here that I have got to go to, but I wanted 
to hear this testimony today because to me, one of the--and 
first of all, all of you that are here, thank you for what you 
do and thank you for the service to our country, those of who 
served in the military. I very much appreciate that.
    One of the frustrations I think you have to take a step 
back is--and I would like to hear any of you--what is the 
primary cause? Not for just homelessness in general. I think I 
have a fairly good understanding, but for veteran homelessness, 
because these are very capable who were in the military and had 
responsible jobs in the military and now they are out and 
homeless.
    And I know there are three of us, Mr. Bilirakis, who is 
here, and Mr. Coffman, and myself were here nine years ago when 
General Shinseki set there and said, We are going to end 
veteran homelessness by 2016, which I thought was an honorable 
goal to do and bring the programs to do that.
    So, number one, in veterans, why--what is the primary 
cause? Is it relationships? Is it mental health? Is it 
substance abuse? What is it? Anybody can take a whack at that.
    Mr. Peck. I will jump in. It is all of the above. While 
combat trauma is the cause in some veterans; military sexual 
trauma, among the female veterans, who are also committing 
suicide at an alarming rate, but it is also societal issues. 
They go into the military, perhaps to escape from a disruptive 
family life, perhaps to escape from gangs. They are in the 
military for two or three years and they come out really with 
knowing how to shoot a gun or how to drive a tank. So, the 
transition is very challenging with--among those groups that 
are coming out.
    Mr. Roe. I would disagree. I think they come out with more 
skills than that. They learn leadership skills. They learn how 
to get up early in the morning. They work hard all--as a matter 
of fact, there is no clock when you are in the military. You 
understand that and I understand that.
    Mr. Peck. I understand, yes.
    Mr. Roe. It is 24/7. So, they bring out some very good 
skills, I think you learn in the military.
    Mr. Peck. Absolutely. They also have--when we were in the 
military, we knew what we were doing 24 hours a day. It wasn't 
our responsibility to determine what happens next, what happens 
a year from now. So, some of them don't transfer those skills 
well into the civilian workforce.
    Mr. Roe. A couple of other things. And I have visited the 
LA campus and what they are doing for the homeless there 
several months ago. With the job market being at historic 
lows--in our state, we have a state unemployment rate of 3 
percent, and I know California's economy is doing well--how do 
attribute this homeless--and I think at this point in time, 
whether it is up or down a little bit, these points in time are 
never all that accurate; they are just a guess at how many 
homeless people there are at any particular point in time--but 
why do you think in California the rates are going up? Are 
people just moving into California; is that what it is? What 
would be the reason?
    Mr. Peck. There have always been more veterans in 
California than anywhere else. There are more homeless veterans 
there than anywhere else.
    As you said, the unemployment rate is very low, so some of 
the veterans don't have the skills that they need to. The 
housing is very high.
    Mr. Roe. High, yeah.
    Mr. Peck. So, they are unable to, at a minimum-wage job, or 
even at $15 or $18 an hour, are able to afford the housing that 
would take them out of homelessness. So, a number of them are 
staying at our site in our supportive program housing much 
longer than they would like to because they can't afford to 
move back out into the community.
    Mr. Roe. That is one of the things that we found, even in 
rural, East Tennessee where I live is a couple things; one, 
finding housing that is affordable, even where we are, and to 
get developers to build housing for these that would meet these 
needs. It is a huge problem for lower- income people.
    And afterwards, I would love to discuss with you, a program 
we have done at home, beginning at home that seems to be 
working pretty well.
    And I know not to take all the time--Mr. Martin, you 
mentioned, also, something and we seem to be spending more and 
more money, but I feel like I am running in place. You 
mentioned, and you are correct that every community is 
different, and El Paso is different than Northeast Tennessee, 
where I live. And so, I think you were so suggesting that you 
need more flexibility in these grants to be able to do what you 
needed to, but I am not sure whether it was just to fill a hole 
in what your community wasn't doing or whether you just needed 
the money--just the grant doesn't fit your community?
    Mr. Martin. In direct response to your question, Chairman, 
it is not necessarily to fill a hole. We have created a 
foundation under a, continue-of-care model that was in place 
until roughly 2009, 2010, when the new Opening Doors initiative 
came out. And that model was the foundation for what it was we 
were doing in El Paso and the success that we had in El Paso.
    And when we had that shift in funding, which was focused 
more on housing, it took the dollars away from the support 
services, because the veterans that we are working within The 
Opportunity Center are those that are not VA eligible, and so 
they have very limited options and they tend to stay with us. 
Now, many times, they can access SSVF, but because of local 
requirements that we have, that is limited to three months' 
worth of assistance.
    And so if we go back to the comments that were just made 
with regard to a living wage, you can't do that with an entry-
level position, so many times, it is three months and you are 
out and we see that return to homelessness or that recidivism 
that is going to take place. And that is illustrated in the 
numbers that I provided to you within the written testimony for 
our organization.
    Now, it is too early to tell if that is going to be a 
trend, but we did see a significant increase in recidivism from 
2016 to 2017 and we are also seeing an increase in shelter 
nights, which is how we gauge services. So, that is not unique 
individuals served; those are the individuals that come in and 
take advantage of the shelter because they simply don't have 
any other options at this point.
    And so it is that support-service component that is 
desperately needed at this point when we talk about case 
management. Just to give you an example of some of the services 
that were lost: daycare, legal, transportation, mental health, 
okay. All of those are those wraparound services that these 
panelists have indicated that are desired because we don't need 
to simply look at placement; we need to look at sustainability 
and that is where that flexibility is needed.
    Mr. Roe. My time is expired, Mr. Chairman.
    And I want to thank all of you for what you do in a very 
difficult situation and population. But, just thank you for the 
efforts that you are putting into that.
    Mr. Arrington. Thank you, Mr. Chairman. I will now yielded 
myself five minutes for questions.
    For me, just some context--and these are broad questions, 
and I think I can drill down; maybe it will be useful to them, 
as well--but ending homelessness is a very laudable vision, but 
if we can't measure it, then we won't achieve it. So my--to 
each of you, and we will just go down the line: Define ending 
homelessness, as it relates to your organization, and then tell 
me how you specifically measure the success of achieving that 
outcome. Just go down the line. Start with you, Mr. Clancy.
    Mr. Clancy. Yes, sir. So, at the TVCA, we don't provide 
direct support. We don't receive any Federal funding for HVRP 
or any of those programs, so we network with the organizations 
in our community. What we see that drives the homelessness or 
an important factor is not unemployment, but underemployment, 
as was talked about before.
    So, it is almost like when you think about unemployment and 
you think about the Nation, you never get to zero, right?
    Mr. Arrington. Right.
    Mr. Clancy. Because there is always some factor in there. 
When you are at 3 percent unemployment, you are basically at 
full employment of the country and the same thing could be said 
on the veterans' side. And so to say that you are going to get 
to zero homelessness is probably not an actual achievable goal, 
because there will always be folks, through addiction or mental 
health, don't take the support that is offered there.
    Mr. Arrington. Do you think we are at that functional zero 
or do you think it is where there is still ways to--
    Mr. Clancy. We have made a tremendous success over the last 
nine or ten years getting that down. We have captured the low-
hanging fruit, so to speak, in getting that down to, you know, 
the veterans that really need the help.
    I have worked--before I took this role, I was the director 
of veterans services for Easterseals in Cincinnati and we did 
have access to HVRP and HUD-VASH vouchers and also on the voc-
rehab side, educational assistance for veterans. And I can tell 
you, it is sometimes hard to find those veterans that you can 
apply those funds to, in the Cincinnati area, at least. So, 
what we tried to do is get the transition--
    Mr. Arrington. Why can't you--what is--why can't you find 
the veteran to apply them to?
    Mr. Clancy. Well, unfortunately, as we talked about before, 
not every part of the country is the same.
    Mr. Arrington. Yeah.
    Mr. Clancy. So, you have some states that have declared the 
end of veteran homelessness and then you have states like Ohio 
that had a 7 percent decrease last year in veteran 
homelessness. The national rate of veteran homelessness went up 
1.5 percent, 568 veterans, but the state of California had 
1,800 veterans.
    Mr. Arrington. So, just back to my original question, I 
think you are saying that the underlying issue with 
homelessness, or at least a major underlying issue is 
employment, underemployment. And so you would define success as 
getting veterans a job?
    Mr. Clancy. Getting them a job, as well as, you know, 
housing; all those issues combined. But where they are not 
needing assistance.
    Mr. Arrington. Is it housing or is it the job that allows 
them to sustain self-sufficiency so that they can have that 
independence and pay the rent and feel the dignity of all that 
is involved in that?
    Mr. Clancy. That is absolutely right.
    Mr. Arrington. Is that--would you define that as success?
    Mr. Clancy. Yes, sir.
    Mr. Arrington. Okay. Let me ask Ms. Williams, because in 
the interests of time, I need to make it through the panel 
here.
    Ms. Williams. Yes, sir. Quickly, thank you. So, Easterseals 
focuses on employment. And as you just mentioned, when you are 
able to get someone employment, then that helps them to be able 
to sustain housing.
    So, we measure success by how much veterans we are able to 
get employed and then from there, hopefully, to become 
contributing members of society and to be able to sustain 
themselves and their families.
    Mr. Arrington. Mr. Peck? Thank you.
    Mr. Peck. It is four things. Those transitional housing 
programs that provide the rehab that get them right off the 
street; the mental health counseling to address their mental 
health issues; the employment--there is never enough 
employment-training money ever; and the affordable housing. So, 
you really need those four together.
    Mr. Arrington. In the interests of time, let's just keep 
going. Mr. Martin?
    Mr. Martin. First and foremost, I am not overly fond of the 
term ``functional zero''--
    Mr. Arrington. Yeah, hit your mic, if you would.
    Mr. Martin. I thought I did. My apologies.
    Mr. Arrington. No, that is all right.
    Mr. Martin. First and foremost, I am not overly fond of the 
term ``functional zero,'' because when you look at our veteran 
population, those that are not VA eligible, a vast majority of 
those, over--almost 70 percent are over the age of 50. So we 
look at success as housing sustainability; not necessarily 
placement, but sustainability and the wraparound services that 
go with it.
    Mr. Arrington. Sustainability as in their ability to 
sustain their independence and--because of employment?
    Mr. Martin. Because of employment and the other related 
services--
    Mr. Arrington. And rehabilitation, et cetera, okay.
    Mr. Martin. --yes, sir, you are absolutely correct. 
Sustainability.
    Mr. Arrington. Okay. Ms. Monet, then I am done.
    Ms. Monet. From NCHV's perspective, we really want to look 
at how communities are building the systems that are making 
homelessness very brief and non- reoccurring. And I am sure you 
are aware that the Federal government does have a set of 
benchmarks and criteria that they use to assess whether 
communities actually ended veteran homeless, but it really 
looks at: Do you know your veterans? Are you making offers of 
permanent housing? Can you move them into permanent housing 
within 90 days or less? Are you decreasing unsheltered 
homelessness, right? Because if you are in a shelter, you still 
technically count as homelessness--as homeless on the pit 
count. So, things like that are really how we would look at 
success.
    Mr. Arrington. Okay. Thank you, Ms. Monet. My time has 
expired. I would now recognize Ms. Brownley, Ranking Member 
VHA, for her remarks and questions.
    Ms. Brownley. Thank you, Mr. Chairman. And I, too, want to 
thank the witnesses today for being here and the work that you 
do every single day in support of our veterans in addressing 
this issue of homelessness around the country.
    Mr. Peck, you had mentioned in your testimony that you were 
particularly concerned about VA having an intention to 
rededicate some VASH services funds into the general fund. My 
understanding in terms of what their intention is--and I will 
certainly ask the VA when they are up next--that they were 
going to take 5 percent, sort of across the board from these 
funds to provide resources so meet sort of the priorities of 
the VA, giving those dollars to VISN directors, et cetera, to 
be able to accomplish those goals. So, I want to make sure that 
we have pulled back from that, but my understanding is that 5 
percent, that would roughly mean about $264 million taken away 
from supportive services to veterans.
    So, I guess my question really is, you know, what are you 
hearing on the ground, vis-`-vis, that? Are you hearing that, 
you know, these funds are going to be taken away? What do you 
know?
    Mr. Peck. We are in 11 different locations across the 
country, so we are hearing different things. Some of the VAs 
have assured us that those funds will be there; other VAs have 
not. As I said in my testimony, we are not getting the case 
management help we need today when those funds are supposed to 
be protected. They are supposed to be fenced, used only for VA 
case managers and they are not being, so I don't know where 
they are.
    And my fear is that if those funds, if the directors have a 
choice to redirect those funds, that they will redirect those 
funds to other needs within their community.
    As I said, the suicide rate among homeless veterans is 
very, very high; much, much higher than the rest of the 
population. So, in effect, providing services for those 
homeless veterans is suicide prevention.
    Ms. Brownley. I agree wholeheartedly.
    Can you--do you know what has been said in Los Angeles, 
relative to this issue, specifically?
    Mr. Peck. I have spoken to Ann Brown, the director of the 
West LA VA. She said she will not redirect these funds. We 
would like to hold her to that.
    Ms. Brownley. Very good. In terms of the homeless 
population in Los Angeles, do you know what percentage are 
female veterans, roughly?
    Mr. Peck. I don't. It is quite small. It is 3 to--it is 
generally about 3 personality.
    Ms. Brownley. And do they typically have children, also?
    Mr. Peck. Some portion of them do. Many of them have lost 
custody of their children, but some portion of them do, yes. I 
am not sure what that proportion is, sorry.
    Ms. Brownley. And so, as far as the case management or lack 
of case management, is the problem that the resources are there 
to hire or is it a problem of just constant churn and turnover? 
Do you have any sense of that?
    Mr. Peck. The hiring within that bureaucracy is 
challenging; it sometimes takes a number of months to do that. 
But the West LA VA, with the number of VASH vouchers that there 
are in Los Angeles, has something over 200 social workers. That 
is really hard to manage. My recommendation is that they spread 
those contracts out among the agencies that are knowledgeable 
in the community so that each agency is able to do that job 
with more oversight because the oversight right now is just not 
good.
    Ms. Brownley. If homelessness in Los Angeles County has 
risen 57 percent, and I believe LA has approximately 20 percent 
of the homeless veteran population across the country, do you 
feel like you are--that Los Angeles is getting a--the 
proportionally correct amount of resources distributed across 
the country?
    Mr. Peck. Los Angeles has been pointed out before, for 
funds because I think everyone who knows anything about 
homeless veterans knows that there is an awful lot of homeless 
veterans there; more than anywhere else in the country. Whether 
we are getting the appropriate share, I couldn't tell you, but 
I think we have got something like 1,500 VASH vouchers 
something like that.
    Ms. Brownley. Thank you. I realize my time is up. I yield 
back. I apologize.
    Mr. Arrington. I am a little faster and looser than the 
Chairman over to my left, so you are okay. This is--there is 
probably going to be a second round here, but great line of 
questions.
    Now I would yield five minutes to the Chairman of the VHA, 
Mr. Wenstrup.
    Mr. Wenstrup. Well, thank you very much. I want to thank 
you all for being here and for what you do each and every day 
in the efforts that you make in trying to help our fellow 
Americans and those that defended our country.
    And I became familiar--when I came back from Iraq, I wasn't 
looking for a job; I had a medical practice to go to. But I 
became very familiar with the work of Easterseals in trying to 
make those match-ups, working not only with potential 
employees, but with employers, and trying to make that match.
    So, I am going to direct my questions to Mr. Clancy, 
because I have a real geographic bias on where he is, being 
from Cincinnati, Ohio, and being familiar with the center. I 
would like, if you could, just comment for a minutes on the 
relationships that you have been able to build with places like 
Joseph House and with our Veterans Court and how that relates 
to reducing homelessness.
    Mr. Clancy. Thank you, Congressman.
    The whole purpose of the TVCA, when it was built was to be 
the center of collaboration for the hundreds of veterans' 
organizations in the Cincinnati area. So, we have built very 
good relationships. We don't compete with anybody, you know, 
for the Federal dollar. So, when we have a veteran in distress 
that comes in through our in-processing center, we can diagnose 
them and refer them out to all the agencies that are out there, 
including Easterseals.
    When I was with Easterseals, we worked very closely with 
the TVCA and we continue to do that now.
    Mr. Wenstrup. And, of course, Veterans Court and all those 
types of things that are trying to get our veterans in a better 
direction.
    Mr. Clancy. Absolutely. We have a very strong Veterans 
Court in Cincinnati and at the TVCA, we have subgroups on 
specific issues that we work on: Education, employment, health 
and wellness. And, for example, the employment or the education 
subgroup right now is working with Veterans Court to try to get 
those veterans that need help, access to the G.I. Bill.
    Mr. Wenstrup. So, I know the center has been pretty robust 
and a lot of interactions with veterans of all ages; not just 
recent veterans, but some from previous wars. And we always 
want to get some lessons learned.
    And where I want to go with this is, this is Economic 
Opportunity Committee and Health Committee, and what are you 
seeing or what do you think could be done better--you know, we 
engage in the Transition Assistance Program, which is 
administered by DoD. Are there things we can do before people 
take that uniform off that can help them in the long run, as 
far as guidance, counseling, on the track to a profession? 
Rather than VA and what you do being reactive later, what can 
we do more on the front-end?
    Mr. Clancy. That is a great point and we--that is one of 
the goals we have. One of the things we strive for is to 
contact these veterans upstream even as they are separating. We 
have a program we call ``Vet Excel'' where we work directly 
with the National Guard, which is big in Cincinnati, the Army 
National Guard. We work directly with them with the veterans 
that are separating to help them with their resume, the culture 
change they are going to see from a military unit to a civilian 
office in terms of everything from the direct feedback that you 
might get in the military that you might not get in the 
civilian workforce. Even what to wear, the basics, the very 
basics.
    But we continue to see the underemployment is a big 
concern, so we help them take the experience they have in the 
military and be able to change the verbiage or explain properly 
to a civilian HR department what they are capable of doing. And 
we have a two-week program that we do that, bring in the 
companies who work with the HR departments directly. We work 
with the veterans directly. And we try to make that one-on-one 
match to help that.
    So, it is a combination. We definitely need to be upstream 
helping these veterans understand the change that they are 
about to have.
    Mr. Wenstrup. And being local like that, the Guard is a 
perfect opportunity to do that.
    Mr. Clancy. Absolutely.
    Mr. Wenstrup. What kind of success or results are you 
having and what are some of the walls, if you will, in the 
process?
    Mr. Clancy. We are getting great feedback from the 
companies that we deal with. They love the veterans. I mean, 
there is no problem with unemployment in Cincinnati. There is a 
great opportunity for employment. So, they want--they love the 
veterans because they show up on time. They have a sense of 
mission. They have a sense of team. And so from the HR 
perspective, from the company's perspective, we get very great 
feedback on all the veterans we send their way.
    And from the National Guard side, they are very excited 
about what we are doing because they like that their veterans 
are hitting the ground running on the civilian side.
    Mr. Wenstrup. And from the veterans themselves? I mean I am 
looking for best practices here. What do you--what kind of 
feedback from the individual veterans themselves?
    Mr. Clancy. The individual veterans really appreciate the 
mentoring that we can give. We are an all-veteran staff. There 
are plenty of corporate veterans out there that can be mentors 
for other veterans coming out of the service. And so one of the 
best practices we have is having those civilian, now-civilian 
former military successful businessmen and women mentor the new 
soldiers coming out of the military.
    Mr. Wenstrup. Thank you. I yield back.
    Mr. Arrington. Thank you, Chairman Wenstrup.
    I will now yield five minutes to the Ranking Member of the 
Economic Opportunity Subcommittee, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. This has been one of 
the most helpful panels that has appeared before the house of 
Veterans Affairs Committee in my five years here, so I want to 
thank you all for your testimony and what you brought to the 
table today.
    Some of the take-aways so far for me, Mr. Peck, I think you 
asked the defining moral question of this Committee when you 
asked: Are these lives worth saving? And when you point out 
that there are 20 veterans a day, every single day in this 
country who take their own lives and the suicide rate amongst 
homeless veterans is 20 times that of the general population, 
that is--that should catch everyone's attention and add some 
urgency to our work on this. So, I want to thank you for making 
it very clear that we are in crisis today and until we resolve 
this, we will remain in crisis and we need to meet that crisis 
with urgent action.
    I think many of the panelists, including Mr. Peck and Mr. 
Martin make an excellent point that answers the Chairman's 
concern about our fiduciary role for the taxpayers' dollar. If 
we are not making that 25:1 ratio and we are spending all this 
money to put a roof over a veteran's head, perhaps temporarily, 
perhaps permanently, but we don't have the wraparound support 
services, we are not getting the greatest bang for the taxpayer 
dollar and we are not ensuring that we end some of that chronic 
homelessness by providing the mental health care, the daycare, 
the transportation services that Mr. Martin talked about. So, I 
think you all made an excellent case for us ensuring that there 
is accountability and oversight for VA and DOL and HUD, making 
sure that we have fulfilled that commitment of 25:1.
    The issue that Mr. Martin alluded to that many of us on 
this Committee have worked on, which is that we have hundreds 
of thousands of veterans who have an other-than-honorable 
discharge and what we have been focused on lately is the fact 
that that precludes them from being able to see a mental health 
care provider. And we have an alarmingly high suicide rate 
amongst those veterans who had bad-paper discharges. We are 
working on that. I think we are going to get to greater access, 
but it means that those same veterans are ineligible for the 
HUD-VASH program and it consigns them to greater suffering, 
homelessness.
    And whether we look at our moral obligation to those 
veterans who have served this country or just the taxpayer 
dollars being well spent, I think we have to expand eligibility 
to include those who have other-than-honorable discharges. And 
I want to work with my republican colleagues, with the VA, and 
the secretary, and the president on this. I think it is the 
right thing to do and we absolutely have to do it.
    And then the point that many of you brought up about these 
HUD-VASH dollars being moved to the general fund, that is very 
alarming. I am very interested in what the VA has to say on 
this issue and I anticipate that question will come from both 
sides of this Committee.
    Last couple of points, I am really glad, Mr. Clancy that 
you mentioned Combined Arms, one of these outstanding veterans' 
service organizations in Houston. And part of what makes those 
so exceptional is they take the mindset that the veteran is not 
a victim, but, instead, had so much to contribute, and if we 
just unleash their potential, the experience, the expertise 
that they have built in service by connecting them in some 
cases with the care that they need and they are not currently 
getting. The upside for everyone else in society is unlimited 
and I am grateful that you pointed that out.
    I will end with this anecdote. The Chairman held a really 
positive field hearing in Lubbock, Texas, on transitioning 
servicemembers into civilian life successfully. And that 
morning, we went to Paul's Project at Grace Campus; it is a 
homeless center. And they said about 75 percent of their 
clients have some medical connection to their homelessness; 
their out-of-pocket expenses were too great, they could no 
longer pay their mortgage or the rent, or the disability was so 
significant they could no longer go to work and they found 
themselves homeless.
    Several of you mentioned health care as a connection. I 
would ask Mr. Martin--I have got about a minute left--talk 
about how significant health care is as a connection to 
homelessness and perhaps how expanding eligibility decreases 
our homeless population.
    Mr. Martin. In El Paso at The Opportunity Center, we do 
have one distinct advantage and that is that we have an on-site 
health clinic and it is operated by a separate entity, which 
Centro San Vicente. But that access to medical care is a 
critical component, as well as mental health care, because we 
also have a community, as it relates to mental health needs 
overall that is overwhelmed, and so we have got to look at 
accessibility as we sort of pick it up.
    And in the absence of that, what happens is we see a large 
number of individuals, to use a term that is been used in the 
past, that self-medicates through alcohol and drugs, and that 
includes the veteran population. There is just a lack of trust 
in the system and that is one thing I haven't heard at this 
point, especially when we start to get into the older veterans.
    We have a lot of folks that simply say, I don't want 
anything to do with the VA; I just want out, and it is 
distrust, disillusionment, whatever the case might be over 
time. And so, that goes back into, to a certain extent, 
somewhat of a cultural transition, okay. We have talked about 
it in terms of employment, but we also have to look at it from 
a social atmosphere, as well. Because in many cases, they would 
like to be there and there is a right to have a choice.
    Mr. Arrington. Thank you, Ranking Member O'Rourke. And we 
will now yield for five minutes to Mr. Bilirakis.
    Mr. Bilirakis. I appreciate it. Thank you very much, Mr. 
Chairman. I have a couple questions.
    Stakeholders from our Supportive Services for Veterans 
Families program in my direct in Florida--I represent the Tampa 
Bay, portions of the Tampa Bay Area--they have highlighted the 
need for better coordination between the VA and HUD in 
strengthening the continuum of care so the veteran homeless 
populations have the support they need for long-term success. 
They stress the importance of directing dollars we have 
provided to the VA towards continuum of care support so the 
program can focus their efforts on prevention and 
rehabilitation.
    So, the question is for the panel, the entire panel--we can 
start with Mr. Clancy--how would you recommend VA, HUD, and the 
Department of Labor, how could they improve the communication 
with community partners like those each of you are part of? And 
I appreciate your testimony today.
    Mr. Clancy. Thank you, Congressman.
    In Cincinnati, we have a very good relationship with our VA 
Medical Center and so we are in very good communication with 
them constantly. You know, I think there is an advantage to 
flexibility and I think, as we mentioned before, and so I 
think--I know there is a concern with the HUD-VASH program, 
that a dollar is not specifically being directed to them, but 
in--again, in Cincinnati, we don't have maybe the needs that 
maybe Los Angeles has and I think the flexibility of working 
with the VA Medical Center is critical for us, but we have a 
very good relationship with them.
    Mr. Bilirakis. Please.
    Ms. Williams. I will admit, this is my third day on the 
job, so if you don't mind, I would love to submit an answer to 
you once I get that.
    Mr. Bilirakis. Very good. Thank you. You are doing very 
well. I will tell you that much.
    Yes, please?
    Mr. Peck. I think it is important that we look at the 
entire continuum. There has been a tendency to try to find a 
single fix. Housing First was the answer for a while, but I 
think it is critical that we provide those more intensive 
services that are now done through their Grant and Per Diem 
Program at the beginning so that veterans coming in off the 
street are getting the services that they need, whether it be 
mental health or substance abuse or education or whatever it 
may be, and then have a direct connection between those grant 
per diem programs and all the permanent housing available, not 
just HUD-VASH, but also the supportive housing available 
through the HUD program, and that they cooperate with counties 
so that the counties are providing a range of services, 
particularly in regards to mental health and employment that 
can serve the veterans who are VA eligible and the veterans who 
are non-VA eligible. So, all those systems have to work 
together.
    Mr. Martin. I had to sort of think a little bit about the 
response to this question because in our reality, we have a 
wonderful working relationship with the VA in El Paso, we truly 
do, and that is through our GPD program. And so we have a lot 
of interaction that is taking place as we work through that.
    Just, I think a week and a half ago, I sat in on a 
teleconference call that the VA hosted with regard to 
Coordinated Entry and I think that is one example of what we 
could use, where we are trying to sort of take two systems and 
having them use the same entry point. And if you are not 
familiar with Coordinated Entry, it can be simply described as 
one door in; so, in other words, everybody goes through a 
common assessment process.
    If they qualify for VA, whether it is SSVF, HUD-VASH, 
whatever the case might be, they go direction one. If they 
don't, then they go direction two which takes you over to the 
HUD-funding side of the fence, okay. And so, that is the 
intent; to have the two work together.
    Now, the reality is, when you look at direction two, we 
need to start looking at support services and that could 
potentially pull in the Department of Labor, because a lot of 
the employment side of the fence--employment is one of the keys 
to sustainability, desired employment, not just an entry-level 
job as you work through it. So, you have got to take a look at 
what the strengths of the individual are and you have got to 
get away from, You must be job-ready as the underlying premise 
and you have got to start working with that individual and 
develop the skill sets that are needed and then, two, to be 
able to provide the coaching that is necessary for 
sustainability in employment. So, again, it goes back to 
support services.
    Mr. Bilirakis. Great. Please.
    Ms. Monet. So, I think this is a really important question 
and I appreciate that you all are asking this. I will tell you 
that I look at it from two perspectives and the first is from a 
top-down approach, right, where all of the agencies are really 
focusing in on sending coordinated messages and reinforcing the 
messages of other agencies to their grantees, encouraging 
people to communicate.
    I think the other thing to think about in that regard is 
that the Federal government is the largest funder of 
homelessness assistance, right? So, if you can incentivize, 
through your funding mechanisms, coordination I think you will 
be in good shape.
    The SSVF program does this really well. The Grant and Per 
Diem Program is now moving to do that in its current reboot of 
its system.
    But I think you also need to look at this from the bottom 
up and think about what is in it for providers and Coordinated 
Entry, as Mr. Martin mentioned, is one really great approach. I 
think case conferencing and sharing resources and really 
creating a solid system in your community is another thing that 
is a benefit to a provider and that providers should be 
thinking about and looking at.
    Mr. Bilirakis. Well, thank you very much. I see my time has 
expired. I will yield back, Mr. Chairman.
    Submit the rest of the questions for the record. Thank you.
    Mr. Arrington. You bet. Thank you, Mr. Bilirakis. We will 
now yield five minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Peck, I want to begin by thinking you for the 
tremendous work that U.S. VETS does in many particular district 
and the wonderful facility being built with the wraparound 
services. So, I congratulate you on that work.
    You mentioned in your testimony that there is not a lot of 
accountability for VA case management and that contractor 
organizations are held to and achieve greater outcomes. You 
have also said the Inspector General's study was unable to 
identify why veterans exited the program.
    Would a comprehensive study by an entity outside of VA or 
HUD or like JO, for example, be helpful in understanding HUD, 
the HUD VASH's efficacy and where there are still issues in 
deliverance of services?
    Mr. Peck. Absolutely. I think if we can bring transparency 
to the goals of the program as opposed to what is actually 
happening would be invaluable and I have not seen such a study. 
That OIG study that I referred to was specific to the western--
was specific to the California area, so I think a nationwide 
study would be excellent to make sure that they are providing 
that service based on the model that they say that it is based 
on, which is the Housing First model.
    Mr. Takano. I think, Mr. Chairman, I would like to make 
sure that we look at such a study or at getting such a study 
ordered, because it is about the use of, most effective and 
efficient use of taxpayer resources. So, if we could work with 
you on that, I would appreciate that, Mr. Chairman.
    Mr. Peck, I want to continue with a line of questioning. In 
2016, Riverside County, which I represent, as you know, reached 
functional zero for veteran homelessness, but just because 
there has been some progress in our area, I know that next door 
in Los Angeles County, which has a much larger population, they 
have experienced an uptick and they have the largest number of 
homeless. We will definitely, I think, suffer if we don't, in 
my area, if we don't address what is going on in Los Angeles. 
And it doesn't mean we can let up our efforts because we in 
Riverside County have reached functional zero.
    A continued and coordinated multi-agency strategy is of 
course needed to end veteran homelessness. We have seen in 
California, the number of homeless veterans rise by 20 percent 
last year in distinction to what has happened in Riverside 
County. Now, as service providers--as a service provider, do 
you feel that the VA remains committed to ending veteran 
homelessness?
    Mr. Peck. I should hope so. I think the directors that we 
deal with at Loma Linda and Los Angeles are committed to this 
effort. It frightens me when people talk about the end of 
functional homeless--the functional end of homelessness. It 
feels like the problem has been solved.
    And we have actually experienced, in talking to funders who 
say, Isn't that problem solved? And it is not.
    Mr. Takano. Well, yeah. So, here is my thing. I realize 
that Loma Linda and LA directors, you may feel supportive, but 
has the secretary's decision to remove the elimination of 
veteran homelessness from his top priorities impact the work 
that you will do on the ground?
    Mr. Peck. It absolutely will impact. If those funds are 
redirected, the homeless population will go up.
    Mr. Takano. Last year--okay, well, the VA proposed moving 
money from specific funds to a general purpose fund, and how 
would that have impacted the services you provide the veterans 
and the numbers of veterans you serve?
    Mr. Peck. It would not only reduce the case management we 
are getting currently from the VA, it would allow a number of 
those HUD vouchers to go unused. They cannot be used without 
the appropriate case management. So, it is an overall reduction 
in service to homeless veterans.
    Mr. Takano. So, the HUD vouchers--the HUD-VASH vouchers 
would be unused because we aren't doing the wraparound services 
as part of the holistic approach that we have to use?
    Mr. Peck. Yes. So, the three letters that I have submitted 
with my written testimony indicate that in some cases, they are 
only using half of the vouchers because the VA cannot commit to 
providing case management to 100 percent of the vouchers.
    Mr. Takano. So, there is funding on the table that we can't 
use.
    Mr. Martin, could you quickly respond to that same 
question: How would the proposed repurposing of the money 
affect you on the ground?
    Mr. Martin. Well, when you are talking about VA dollars, 
like I said, I am sort of in a different world. And when I talk 
about the absence of case management, I am referring to that 
crisis response system, that safety net, that emergency shelter 
where we have a large number of individuals. Because if our VA-
funded programs, we are able to maintain those levels as we 
work through that because it is a requirement of doing so.
    Now, when you look at the VASH vouchers, I believe we have 
about 294 as a community and I have not heard any concerns that 
have come in from the VA in that respect, in direct answer to 
your question.
    Mr. Takano. I would ask the rest of the panel to submit an 
answer to the question that I asked in writing later. But, Mr. 
Chairman, I yield back; I am certainly over.
    Mr. Arrington. Thank you, Mr. Takano.
    Now, I yield five minutes to Ms. Radewagen.
    Ms. Radewagen. Thank you, Mr. Chairman. Thank you very 
much. I, too, want to personally commend the panel for not only 
appearing today, but for doing this very difficult, challenging 
work. I mean you are just amazing.
    Mr. Clancy, your testimony suggests that regional veteran 
collaboratives are part of the solution to ending veteran 
homelessness. What are those and why do you think they are 
needed?
    Mr. Clancy. Thank you, ma'am. The veteran collaboratives, 
as I have mentioned not only here, in Cincinnati with the TVCA, 
but also Combined Arms in Houston, as the Congressman 
mentioned, are critical because it enables the community to 
come together in a collaborative sense to provide the best of 
services for the veteran. We can combine best practices. 
Different organizations receive different funding, and we can, 
as best we can, move upstream to get those transitioning 
veterans before they become in crisis mode.
    Ms. Radewagen. Thank you. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Arrington. Thank you, Ms. Radewagen. I will now yield 
five minutes to Ms. Kuster.
    Ms. Kuster. Thank you, Mr. Chairman. I am delighted to be 
here. Thank you very much. It is a very informative hearing. I 
think you have taken on kind of a calm tone in what I consider 
to be a serious change in policy that Congress was not 
consulted about and I want to make sure that we get a chance to 
get to the bottom of what the impact is on a daily basis for 
our veterans, and not just the veterans that are currently in 
the system, but perhaps, more importantly, the veterans who are 
not yet in the system or, as you mentioned, have been 
disillusioned.
    I wanted to mention in Nashua, New Hampshire. We have done 
tremendous work in my district, particularly Easterseals--thank 
you to Easterseals, Ms. Williams-- and to our own Harbor Homes, 
a very effective program integrating health care and housing 
services.
    I had a wonderful story of a man, John, I met, who had been 
living under a bridge with a group of Vietnam-era veterans. 
They were, over time, brought in by the social workers and it 
turns out part of his problem was a health care issue. He was 
diabetic and not been receiving any health care, and when he 
was housed and got the health care that he needed, come to find 
out that he had been a middle manager in a company in our area. 
He had a family that he was estranged from. And over the course 
of getting the housing and the services, he was able to reunite 
with his family and, actually, now he is a part of helping 
other veterans.
    So, my question to you is, are there lessons that can be 
learned--and I will direct this to Ms. Williams--from the 
programs that have been effective? And in particular, we have 
been talking a lot about Los Angeles. If you could turn your 
attention to rural communities and what more we need to be 
doing.
    And I think in a bipartisan way, we need to take back this 
discussion from an administration that seems to be turning a 
blind eye or turning a shoulder toward those veterans in need 
and make a decision about funding, fully funding the services 
that are needed; the wraparound services, the health care, the 
social workers.
    So, Ms. Williams, if you could talk about the lessons 
learned and where we go from here.
    Ms. Williams. Thank you so much for the question and let me 
speak specifically first, starting with New Hampshire, that New 
Hampshire does have many rural areas and with minimal staffing, 
it is difficult to reach all the veterans in need and to 
provide the level and attention they need. So, that is the 
experience that we are having in New Hampshire.
    And secondly, what I would say is that there needs to be 
greater flexibility to meet the unique needs of veterans, and I 
just want to, again, highlight Easterseals' support of H.R. 
4451, which is Congressman Wenstrup and Congresswoman 
Brownley's bill, because it does, in fact, allow for that 
flexibility.
    Secondly, focusing on retention, helping to maintain jobs 
and increase employment, and not just any employment, but 
better jobs is critical.
    And then the final thing I would say toot-toot, again, tie 
into what my fellow panelists have discussed is early access to 
case management. The community care coordination is vital; that 
is what we have heard, and I would just encourage the Federal 
agencies and you all to push for that. That is part of how we 
achieve success.
    Ms. Kuster. Could I ask our representative from HUD, do you 
see the continuum of care as part of the mission to address 
homelessness from a holistics perspective to not only 
employment, but I want to remind the chair that some of these 
veterans are 65, 70, 80. Employment is not the only solution. 
And if anyone else wants to add in--I have about a minute 
left--I would appreciate your comments.
    Mr. Martin. A direct answer on that question, when I look 
at the population that we serve, over 67 percent are over the 
age of 50 and if I take that up a notch and get you to 65 and 
older, we are looking at--and I just ran the numbers--18 
percent, okay. So, when we look at our mission under the 
continuum of care, and our mission statement states this, We 
transition those that can and we protect those that can't.
    So, you have got to look at that long-term viability for 
those that are not in a position to seek some type of 
sustainable housing through employment.
    Ms. Kuster. Right.
    Mr. Martin. And that is where you look at the different 
options.
    Ms. Kuster. Thank you. The other question I have is about 
workforce--and my time is limited--but if you have any comments 
on workforce or if you want to submit for the word?
    Mr. Martin. I would be more than happy to. I know that we 
are piloting a project right now with the local university, 
ourselves, and workforce, which is based on the premise that 
anybody can work, but I will submit that in a written format to 
you so you can--
    Ms. Kuster. I would be very interested. And with the brief 
indulgence that veterans be included both, on the training 
side, but also on the workforce, social workers, and such. So, 
I would be very interested in any thoughts you might have.
    And the chair is gone, but I wanted to invite him to New 
Hampshire for a roundtable on homelessness. Thank you. I will 
yield back.
    Mr. Arrington. Thank you, Ms. Kuster. We will now yield 
five minutes to Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, and thank the panel 
Members for attending today. Mr. Chairman, Ranking Members, I 
would like to suggest that we see a future panel addressing 
this crucial issue that would include DoD, because it occurs to 
me, as a veteran myself, that our Nation invests a great deal 
of energy and money into training our soldiers, sailors, 
airmen, and Marines to do their job within the military.
    Largely, a soldier in today's military chooses his MOS and 
yet we invest virtually nothing prior to their ETS from the 
military to help them make a transition to civilian life. And 
all of us know there is a term in the military called a 
``short-timer,'' a ``99 and wake up,'' et cetera. It seems to 
me that if our energies were invested in coordination with the 
DoD to have sort of an ETS, AIT, advanced individual training, 
to help that military member be prepared for work, because 
these men and women who serve our Nation, they lose their 
uniform, they lose their rank, but they maintain their skill, 
and yet they enter the civilian world as rookies.
    You have excellent mechanics leaving the military that 
don't have an ASE certification. They are not qualified to 
change oil at a dealership. We could fix that if the DoD would 
work together with the VA and the existing entities that help 
post-ETS transitions.
    We have heavy-equipment operators operating dozers and 
cranes and, you know, very significant heavy equipments [sic] 
that are not certified to operate a forklift when they get out.
    Welding certifications, heavy-truck driving certifications, 
nursing and medical-profession certifications, all of these 
excellent skills that are performed by our military members 
every day across the world and when they ETS from service, they 
don't have the civilian certifications that are equivalent to 
their existing skills. So, they lose not just their uniform and 
their rank, but they lose their opportunity to serve their 
fellow man with the skills that they have learned and excelled 
at within the military.
    As a street cop for 12 years, I have had personal 
interaction with hundreds of homeless veterans and I can tell 
you that there is a sort of an underground culture in existence 
and I would like a couple of you to address this. We say we 
have 40,000 homeless veterans. We have 184,000 veterans 
incarcerated in America at an average cost of, a conservative 
average cost of $32,000 per veteran; that is $6 billion.
    So, there is a culture that a veteran--because the very 
nature of a military veteran is independent and strong and 
mission-oriented and they don't expect to be bantered Abby 
civilian housing directors and people of that ilk. So, many 
veterans house themselves in jails. They will commit a--they 
are smart. They will commit a misdemeanor crime that requires 
incarceration. They won't make their bond and they will do 
three, six months, eight months in a jail, in a local jail, 
then they are back on the street and they will live on the 
street for a while until they repeat that cycle.
    So, I would ask, Mr. Peck and Ms. Monet, if the Chairman 
would allow the time, I would ask you to address your 
consideration regarding the future that we could envision 
working with DoD to help these military veterans make the 
transition with the skills that they have into service to 
acquire the civilian certification equivalent of their skills 
so that we don't have this problem.
    Mr. Peck. I think you have hit on a very important problem. 
That transfer, once a veteran--once a serviceman or woman comes 
out of the military and hits the street, they do so without 
appropriate help. The TAP Program is there. It is a lot of 
information in a very short period of time. As you said, once 
you get to be a short-term, you just want out of there and you 
don't necessarily want to talk to anybody.
    So, starting a program well before they get out indicating 
the possibilities of--other possibilities once they get into 
you civilian life, and giving them a connection in the 
community where they are discharged so the VA can contact them, 
you know, 90 days later or 6 months later and say, How are you 
doing? Do you have a job, you know, are you all right? Is your 
family okay?
    Just rather than the veteran running out of resources after 
six months or a year or three years and then being so 
disconnected and disillusioned that they won't connect with the 
VA. So, I think that connection is critical and we have to find 
some formal system to make that transition.
    Mr. Arrington. Thank you, Mr.--
    Mr. Higgins. If the Chairman would allow Ms. Monet?
    Mr. Arrington. Go ahead, Ms. Monet. Let's make it quick 
because we are running late all right. Ms. Monet, go ahead.
    Ms. Monet. I will be as quick as I can.
    Mr. Arrington. Thirty seconds.
    Ms. Monet. So, I think from our perspective at NCHV, one of 
the most interesting things that we do as an organization is we 
have a toll-free hotline where veterans who are experiencing a 
housing crisis can actually call in and say, Hey, I need help. 
And we have heard from a good number of young and recently 
returned vets who have said, I am getting ready to get out. I 
have nowhere to go. You know, I live on base housing and I 
don't even know how to find an apartment; I don't know what 
that means.
    So, to your point about DoD getting involved in transition 
planning, they need to be thinking not only about employment, 
but, also asking servicemembers Hey, do you have a housing 
plan? Do you have somewhere to live when you get out? If you 
don't, can we connect you with VA or a community provider in 
the area where you are going so they can help you out and they 
can sort of wrap some services around you to get you started 
off on the right foot.
    I think to your point about incarceration, any transition 
planning is important. Not only from DoD, but, you know, when 
you are coming out of jail or prison, but even if you are 
coming out of mental health treatment or a hospital. I think 
folks need to really be cognizant that big life transitions are 
points that are--well, they are points of vulnerability, I 
guess, where we could be doing a lot more to improve services 
to our veterans.
    Mr. Arrington. Thank you, Ms. Monet.
    Mr. Higgins. Mr. Chairman, thank you for the indulgence.
    Mr. Arrington. You bet, Mr. Higgins.
    And now we yield five minutes to Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. I wanted to first of 
all, thank our veterans for your service to our country and I 
wanted to also echo some of the comments made by my colleagues 
regarding the redirection of funds without properly notifying 
Congress. Let's do better next time.
    A couple of questions. I will start out--I am from 
California and the question I am get asked by a lot of veterans 
is: What impact would cannabis use by veterans have on their 
eligibility to access the various programs, the services that 
you offer? How are they affected in terms of their eligibility?
    Mr. Peck. That is a tricky one. I know that the VA does not 
allow cannabis use. There are some verifiable medical uses for 
marijuana. It is a tricky area because so many of the veterans 
that we have in our housing have substance abuse issues, 
addiction issues, so--
    Mr. Correa. We have an issue of opioid use--abuse.
    Mr. Peck. Yep.
    Mr. Correa. Then we have right now the issue of the famous 
cold memo that has been essentially repudiated by our attorney 
general. Then in the state of California, we do have medical 
cannabis use. There is a doctor-patient relationship. There is 
recommendations made by physicians to their patients for use of 
cannabis.
    So, we have--what we have here is a conflict of law here, 
State v. Federal. And my veterans are asking me, what is going 
to happen if I medicated with cannabis; will I have--be 
affected in terms of my benefits in the VA?
    And I have gotten conflicting answers and I am asking you 
here publicly because I need to give my vets and answer. And if 
you don't have the answer now, can I ask you to please submit 
your answers to me in writing.
    Mr. Peck. I will do. I will--
    Mr. Correa. To the best you can, give an answer.
    Mr. Peck. Yes. But you are right; there is a conflict 
between state and Federal and where there is verifiable medical 
benefit that should be allowed. So, I will ask all of our 
clinicians and get back to you.
    Mr. Correa. And, Mr. Peck, you talked about a more 
efficient use of funds and unused grant programs, turning them 
into vouchers. I am out of Orange County. We have some great 
folks providing great services like the Illumination 
Foundation, a group that is about 10, 15 years old; gets 
homeless folks, gets them into converted motels. You know, gets 
them on their feet, wraparound services. Is that the kind of 
services you are talking about in terms of also aiding veterans 
in terms of getting them back on their feet?
    Mr. Peck. Absolutely. Nonprofits really have extensive 
outreach into the communities, much more so than the VA.
    Mr. Correa. And I say that because the only limitation that 
these folks have is resources.
    Mr. Peck. Yes, absolutely. I am a big proponent for the VA 
to contract and I think those dollars would be much more 
efficient and we would reach more veterans.
    Mr. Correa. And let me, with the few seconds I have left, I 
want to follow-up on Dr. Wenstrup's and Mr. Higgins' comments 
about following up with veterans after they take off the 
uniform in a meaningful way. I mean, it is one thing to give 
them a survey when you leave, but like you just mentioned, you 
know, some of these vets may be in many ways, lacking of the 
skills that they need to survive out there, especially given 
the invisible wounds they have once they leave the service to 
our country.
    So, do we have a system to meaningfully follow up with them 
six months, a year, two years out, other than a survey or a 
``fill out the card and send it in?''
    Mr. Peck. There is no such system and a lot of us are 
advocating that they have to opt-out, rather than opt-in to a 
program that would allow the VA to contact them after they--
    Mr. Correa. Given that we want to do what is best for the 
veterans, given that we want to figure out the best way to use 
taxpayer dollars, do--I would just rather follow up with them 
however the best we can, six months out, one year, five years 
later. As Mr. Higgins said, we have too many of our veterans in 
jail today. That is just--there is no excuse for that.
    Mr. Peck. A 90-day follow-up, six-month follow-up would 
save a lot of lives, for sure.
    Mr. Correa. How can we do that? What do we need to--
    Mr. Peck. I think my fellow marine, Secretary Mattis would 
support that and I would love for someone to talk to him about 
that.
    Mr. Correa. So, can we do something like that? What do we 
need to get going, folks?
    Mr. Clancy. Congressman, if I may? Any veteran that comes 
to our in-processing center in Cincinnati does get follow-up, 
three months, six months, one year. If we get them a job, we 
follow up not only with the veteran, but with the employer to 
make sure that everything is going well and the veteran is 
still squared away.
    Mr. Correa. Thank you, Mr. Chairman. I yield.
    Mr. Arrington. Thank you, Mr. Correa. I would now yield 
five minutes to the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Thanks to each of you, 
once again, for the important work that you do. And Mr. 
Chairman, thanks for this incredibly important venue today to 
talk about this important issue.
    Ms. Monet, I wondered if you could talk a little bit more 
about the Housing First model. You said a minute ago, I thought 
quiet profoundly, that Housing First should not ever meaning 
housing only. Multiple times, the VA has reiterated its support 
for Housing First, but I hear from some of the leaders in my 
district who serve homeless veterans that it doesn't always 
provide the best option. It might put a roof over a veteran's 
head, but it doesn't get to the root--underlying problem, such 
as drug addiction.
    So, could you elaborate a little bit on that and what you 
mean by that and talk a little bit more about the Housing First 
and why it might fall short in some of those cases.
    Ms. Monet. Absolutely. That is a wonderful question. Thank 
you for that, sir.
    So, Housing First really means that you are, indeed, 
putting someone in housing first, but you are then following up 
and you are offering services. So, you are saying, Hey, I see 
you have this issue. Can we help you address your diabetes or 
your opioid use? Or you are unemployed, do you need a job? 
Let's get you some employment services.
    But Housing First, it is very important to make the 
distinction that your ability to stay in that housing is not 
predicated on the requirement to access services. So, you are 
not requiring them to go to 90 AA meetings in 90 days. You are 
not requiring them to jump through a bunch of hoops to stay in 
housing, but what you are really doing is enticing them into 
the services while they are in housing, because research has 
really shown that when a person is in housing, they can better 
address all of the other issues that they are facing.
    Mr. Banks. Very good. Now, as a segue from that, Mr. Peck, 
you talked a little bit ago about the importance of GPD up 
front and wonder maybe if you could talk a little bit more 
about that, what you mean about that, and why that would be 
important.
    Mr. Peck. The case management is more robust in the grant 
per diem programs, which gives us the opportunity to offer them 
the rehabilitation that many of them need and are asking for. 
While Housing First is a good model, it is only one avenue and 
I think a number of them would welcome the opportunity to get 
into a program that could provide the mental health, the 
substance abuse treatment, the education, educational 
opportunities that a GPD program can offer, which a Housing 
First permanent housing program cannot. There is just simply 
not the robustness of the case management assistance.
    Mr. Banks. Do you--since the VA is continuing to support a 
GPD upfront, can you talk a little bit about what we have 
seen--the posture from the VA from your perspective.
    Mr. Peck. They have supported it. Thankfully, they have 
reduced it somewhat. There is a few thousand beds that they 
have reduced and I think those beds may not have been well 
utilized. They have redesigned the program to make it more 
proactive. You have to state what kind of service you can 
provide. They are really focusing on outcomes and the outcomes 
largely are getting those veterans into permanent housing, 
whether through the income they earn through employment or a 
disability income. So they are, now, I think, measuring that 
program better than they were before.
    Mr. Banks. So, you are optimistic about the way forward. 
From your perspective, you are not concerned about those 
changes; those are good, healthy changes?
    Mr. Peck. Those are goods changes, absolutely. And I think 
they will continue to support that. I am hoping that they will.
    Mr. Banks. Okay. Thank you very much. I appreciate, once 
again, all that you do, and I yield back.
    Mr. Arrington. Thank you, Mr. Banks.
    And, finally, we now yield to Mr. Peters, five minutes for 
questioning.
    Mr. Peters. Thank you, Mr. Chairman. I thank all the 
leadership for holding this hearing and for allowing me to 
participate even though this isn't my Subcommittee. It is an 
issue that is very important to me. I represent San Diego, 
which is the home of a tremendous veterans population. Because 
of that, the nature of our homeless population is that it is 
heavy on veterans.
    We have a lot of programs in San Diego that are community-
based, we think are doing well, but, obviously, they depend so 
heavily on the Federal participation, so let me turn to a 
couple observations and then ask a couple questions. First of 
all, we are all very supportive of the interest of the 
secretary in suicide--veteran suicide, but we don't want that 
to come at the expense of housing, because the two are so 
related.
    We have heard from all of you that suicide rates among the 
homeless veterans are much higher, so keeping them housed and 
off the streets and dealing with housing is, in effect, part of 
the suicide battle, as well, and we certainly urge the 
secretary to keep that in mind as he talks about where he 
spends money and shifts money.
    And the other observation that I would make, that a lot of 
my colleagues have made, is the importance of the Department of 
Defense in this. The most cost-effective expenditure of an 
American taxpayer money is to really prepare transitioning vets 
to come out and be productive, be employed, have a plan. And I 
think we may want to ask more of the Department of Defense to 
take that on as one of their tasks.
    They trained great warriors. They trained them to have the 
skills that I think the Chairman had, but they are not 
necessarily trained to deal with civilian life in a way that 
they could be and they should be at the time of transition.
    And Mr. Clancy has talked about some of the efforts that he 
has done in his area on that. I commend that. Maybe you know of 
0800 in San Diego, which is a transitioning program that tries 
to do the same thing; go on the base at the time of transition 
and introduce the community at that point so that when people 
walk off the base as civilians, they are not strangers to that.
    Mr. Clancy?
    Mr. Clancy. Yeah, absolutely San Diego has a great program 
and it is in my written testimony, but I didn't mention it 
today, but the San Diego Veteran Coalition and Military Family 
Collaborative is a group that we, as with Combined Arms, we 
have conference calls with them, best practices, what are they 
doing that is successful? What are we doing that is successful? 
And so there are a number of collaboratives around the country 
that are working together to, again, learn from each other and 
learn how best to prepare the veteran for separation from the 
military.
    Mr. Peters. Terrific. And I certainly think it is worth 
observing that even if the VA and the Veterans Committee were 
functioning at 100 percent, we couldn't replace the importance 
of community involvement; that is something we can't do as a 
government. Not every solution that comes from the government, 
I think, with community involvement has been so helpful.
    But in the time I have, though, the question I wanted to 
ask was about vouchers. In San Diego, we get reports that there 
is a large number of vouchers that aren't used and I would like 
to just--maybe, Mr. Peck, you could address how is it that 
possible? Why does that happen? And maybe what could we do to 
make sure that the resources that we do have are being employed 
to make sure that veterans have housing?
    Mr. Peck. In some instances, unfortunately, it is due to a 
high-housing costs, which I am sure is true in San Diego. And I 
have worked closely with the VVSD down there, a really good 
program. So, some landlords are not taking those vouchers. I 
know in Los Angeles, 500 veterans are walking around with 
vouchers in hand that cannot find housing, so they stay in 
bridge programs like the ones we run and others. So, creating 
the affordable housing, talking with landlords is critical to 
be able to get those veterans into the--into their housing.
    And, additionally, a shortage of VA social workers is 
contributing to the--those vouchers not being used.
    Mr. Peters. So the landlord--the work with landlords is 
more of a local issue.
    Mr. Peck. Yes, but it is critical that there is a local 
plan for each of these Federal issues. And as you said, the 
community-based nonprofits are the ones that know and are 
familiar with the community.
    Mr. Peters. As a Federal lawmaker, what would you suggest 
that I do to see that more vouchers are used in San Diego, 
given our high housing costs, Mr. Peck?
    Mr. Peck. I would--two things need to be done. Check with 
the VA to make sure that they have providing the appropriate 
number of case managers and, two, talk with the City, who can 
talk to the landlords, is what is happening in Los Angeles, in 
an effort to get them to look more closely at these vouchers. 
And we have housing locators to reach out to those landlords.
    Mr. Peters. Okay. And on our end, I think the case managers 
is the answer. We have to make sure that that support system is 
provided, as well.
    Mr. Peck. Absolutely.
    Mr. Peters. Thank you, Mr. Mr. Chairman.
    Mr. Arrington. Thank you, Mr. Peters.
    And I would like to say as the chair for the Subcommittee 
for Economic Opportunity that I associate myself with much of 
what you said and what my colleagues on both sides of the aisle 
have said, which is what I love most about this Committee, I 
mean, we just somehow when you walk through these doors and 
when you are thinking about the customer, which is the veteran, 
you just put everything aside and you do everything you can to 
put America and our veterans first.
    I appreciate the candor and thoughtful responses from our 
panelists and I appreciate your service to our veterans and our 
country in that regard.
    One final comment before we conclude and have the next 
panel join us is, as an Economic Opportunity Subcommittee that 
oversees the Transitional Assistance Program, and I think 
comments were made repeatedly about sort of the ounce of 
prevention in transition, the assessment holistically of the 
veteran or the serviceman or woman coming out of active duty 
into civilian life, and all that we do to invest in time and 
resources to prepare these good Americans to defend us and our 
freedom and our allies, all that we do to prepare them to be 
warriors, and in my opinion, how little we invest to transition 
them so that quite frankly we don't need much of your services 
because we have done a good job on the front-end and we have 
made it as much of a priority to transition them and assimilate 
them back into civilian and to tap those skills that they have 
learned and those responsibilities that they have had. And we 
have rehabilitated where there has been trauma in their 
experiences.
    So, I hope in the next year, and this is something that I 
have made known to this--my colleagues who are staffing the 
Committee, I want reform of the TAP program to be of the first 
and foremost priority for our Committee. And after some of our 
hearings that we have had on TAP, we know how much money we 
spend. We don't know what outcomes. They didn't have much to 
any outcome. It could be that they are doing a good job.
    I have a sense from talking--listening to you and talking 
to folks back in my district that we can do a whole lot better. 
So I hope we can commit to transforming that program to really 
work on the front end. And so we have less drug addiction, less 
suicide, less homelessness, and joblessness from our hero's on 
account of a program that actually works. Maybe it is working, 
I don't know. There really wasn't much data to suggest it was, 
so a lot of this is just intuition.
    Thank you, guys. You are dismissed. And we would ask that 
the second panel come and join us so I can introduce you, and 
we can get on with the second panel and the discussion.
    In the interest of time, I am going to go ahead and make 
the introductions of our panelists. Joining us now this 
afternoon is Matt Miller, the Deputy Assistant Secretary for 
the Veterans Employment and Training Service of the U.S. 
Department of Labor.
    And we have alongside of him Dominique Blom, the General 
Deputy Assistant Secretary for the Office of Public and Indian 
Housing of the U.S. Department of Housing and Urban 
Development. And also Dr. Thomas Lynch, the Deputy Under 
Secretary for Health and Clinical Operations for the Veterans 
Health Administration of the U.S. Department of Veterans 
Affairs who is accompanied by Dr. Keith Harris, the Director of 
Clinical Operations for the Homeless Program Office.
    We thank you for joining us. And, Mr. Miller, let's start 
with you. You have five minutes for your opening remarks.

                    STATEMENT OF MATT MILLER

    Mr. Miller. Thank you, Mr. Chairman. Chairman Wenstrup and 
Arrington, Ranking Members Brownley and O'Rourke, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to provide a statement for today's hearings on 
veterans homelessness.
    As a former chief of staff in the body, I want to 
personally recognize you and Committee staff for their tireless 
efforts to ensure that America fulfills its obligations to our 
current servicemembers, veterans, and their families.
    My name is Matt Miller and I am the Deputy Assistant 
Secretary for Policy at the United States Department of Labor's 
Veterans Employment and Training Service, or VETS. I am also 
the Department's representative on the U.S. Interagency Council 
on Homelessness.
    Secretary Acosta stands firmly behind our country's 
servicemembers and veterans. He has a clear goal that will 
assist our veterans in finding and keeping good jobs. For the 
Department, one veteran experiencing homelessness is one too 
many. We look forward to working with the Subcommittees in 
providing those who served our Nation with the employment 
support, assistance, and opportunities they deserve to succeed 
in civilian workforce.
    Our partnerships throughout DOL extend VETS ability to 
achieve its mission, and bring all of DOL's resources to bear 
for America's veterans. One important component of VETS mission 
is the Homeless Veterans Reintegration Program, or HVRP, which 
provides grants to organizations to assist in reintegrating 
homeless veterans into meaningful employment. Grantees also 
provide wrap around services to link homeless veterans with 
health care and housing opportunities provided by our partners.
    While HVRP is like a canoe compared to the carrier-size 
programs that the VA and HUD offer, it serves a critical 
mission in ending homelessness among veterans. Each HVRP 
participant receives customized employment and training service 
such as occupational, classroom, and on-the-job training to 
address his or her specific barriers to employment.
    The HVRP program succeeds because of the hard work and 
local connections of our grantees like U.S. VETS, but also 
because of the collaborative efforts of our government's 
partners at the Federal and state levels.
    Two weeks ago I had the humbling experience of touring one 
of our grantees located along Skid Row in Los Angeles, 
California. While there, I heard about Jeremy, an honorably 
discharged Marine Corps veteran. He had been incarcerated for 
seven years and began working with our grantee Volunteers of 
America.
    Jeremy's counselor worked with him to develop a career 
plan, and within four days of enrolling in the program Jeremy 
got a job with the SoCal Construction Company. And since 
starting, his wages have increased from $12 to $14 an hour. In 
fiscal year 2017, the HVRP program received an appropriation of 
$45 million that provided services to over 16,000 homeless 
veterans, with a placement rate of 67 percent, and an average 
salary of $12.88 an hour.
    The fastest growing segment of the veteran population are 
women. HVRP funds are used to serve them along with veterans 
with families and incarcerated veterans. We also support stand-
down events where we partner with Federal and state agencies, 
local businesses, and social service providers which offer 
critical services to homeless veterans. Additionally, to assist 
with the Hurricane Harvey relief effort, VETS awarded $50,000 
for three stand-down events in Houston, Texas, serving a total 
of 756 homeless veterans.
    I would be remiss if I didn't take this opportunity to 
highlight a significant challenge we face; the statutory 
definition of homeless veteran. If Jeremy, who I mentioned 
earlier, had first received permanent housing from one of our 
counterparts at 11:59 p.m. on Monday, he would not be eligible 
to apply for our programs at 12:01 a.m. on Tuesday, and, thus, 
not able to take advantage of our employment services.
    Studies have shown that barriers to employment still exist 
after immediate housing needs are met, and individuals still 
run a risk of becoming homeless again. VETS' 2016 annual report 
to Congress proposes a solution to this, and I would like to 
work with you to further discuss how we can rectify this 
problem.
    Chairman Wenstrup and Arrington, Ranking Members Brownley 
and O'Rourke, and distinguished Members of the Subcommittee, 
Department of Labor is committed to the goal of ending veterans 
homelessness, and we look forward to working with you, our 
Federal partners, and the Interagency Council to ensure the 
continuous success of our efforts.
    This concludes my statement. Thank you, again, for the 
opportunity to testify today. I am happy to answer any 
questions you may have at this time.

    [The prepared statement of Matt Miller appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Miller. We now yield five 
minutes to Ms. Blom.

                  STATEMENT OF DOMINIQUE BLOM

    Ms. Blom. Thank you. Good afternoon. Good afternoon to you, 
Chairman Arrington, Chairman Wenstrup, Ranking Member Brownley, 
and Ranking Member O'Rourke, and Members of the Subcommittee. 
Thank you for this opportunity to discuss the efforts of the 
Department of Housing and Urban Development, and our Federal 
partners for ending veterans homelessness.
    I am Dominique Blom, a Career Senior Executive and the 
General Deputy Assistant Secretary for the Office of Public and 
Indian Housing at HUD. My office is responsible for the HUD-
VASH program.
    HUD is committed to working towards the goal of ending 
veterans homelessness with our Federal and local partners by 
maximizing our collective resources. Thanks to funding from 
Congress and this collaborative partnership, we have made 
remarkable progress.
    HUD's general homeless programs run by HUD's Office of 
Community Planning and Development provide about $2.4 billion 
annually to help homelessness primarily through permanent 
supportive housing. Ninety-seven millions of these funds serve 
approximately 17,000 veterans through the continuing of CARE 
program, including 10,000 veterans with disabilities. Thousands 
more veterans are served with rapid re-housing, emergency 
shelter, and other assistance.
    My office administers the HUD-VASH program, which combines 
housing choice voucher rental assistance provided from HUD with 
case management and clinical services provided by the VA. This 
program is one of our most effective tools at reducing veterans 
homelessness.
    Since 2008, over 131,000 veterans and their families have 
used a HUD-VASH voucher to move into safe, stable housing. And 
as of September, over 77,000 veterans were housed through HUD-
VASH. Shortly, HUD will be awarding approximately 5,500 new 
HUD-VASH vouchers with the additional $40 million that was 
appropriated last year.
    Although we have seen incredible results through the 
program, we continue to make changes to address local needs. 
First, HUD is changing the distribution of homeless veterans is 
between HUD and VA plan to develop a process to recapture 
unused HUD-VASH vouchers and reallocate them to high-need 
cities.
    Second, we have awarded 4,700 VASH vouchers as project 
based vouchers, allowing for the development of affordable 
housing in high cost areas.
    Third, we are encouraging public housing authorities to 
project base their existing HUD-VASH vouchers, which was made 
easier through the Housing Opportunity Through Modernization 
Act of 2016. These efforts demonstrate our commitment to 
optimizing the effectiveness of HUD-VASH while also allowing 
for local flexibility in addressing homeless veterans 
population.
    Building on the success of HUD-VASH, Congress appropriated 
5.9 million in 2015 for the Tribal HUD pilot program to begin 
addressing veterans homelessness in Indian country. As of last 
week, 299 Native American veterans were receiving case 
management, and of those, 234 were already housed under the 
program.
    One of the lessons learned from the Tribal HUD-VASH 
demonstration and the Indian housing need study is that 
homelessness looks different in Indian country. As tribes face 
severe housing shortages, close family ties often result in 
overcrowding as families live with other families.
    The tribal HUD-VASH program has become instrumental in 
getting entire families into appropriately sized homes. When 
Army Infantry Specialist Jeremiah Miguel of the Tohono O'odham 
Nation returned to his reservation in Arizona, he found himself 
sharing one room with his girlfriend and six children. But 
after receiving a HUD-VASH voucher, his family now lives in a 
four bedroom apartment.
    While most communities across the country showed a decline 
in veterans homelessness, sharp increases were in a few areas 
with extremely high housing costs needs, and that led to the 
overall increase. Based on the 2017 point-in-time count, 
veterans homelessness increased by 1.5 percent between 2016 and 
2017.
    But the larger story here is that veterans homelessness has 
declined by a historic 46 percent since 2010. And the results 
are largely due to the success of the HUD-VASH program, perhaps 
one of the best examples of Federal partnership.
    Together, HUD and the VA and the U.S. Interagency Council 
on Homelessness have implemented a joint decision-making 
structure to administer the programs and policies related to 
HUD veterans homelessness. We have also jointly created a set 
of standards to evaluate whether communities have ended 
homelessness.
    And since 2014, more than 880 state and local officials 
have set the goal of ending veterans homelessness. And as of 
January 11th, 60 communities across 30 states have achieved 
this goal. This is an amazing accomplishment.
    In conclusion, we must continue to find ways to maximize 
the effectiveness of HUD-VASH program and to continue to work 
collaboratively to bring critical housing and health resources 
to veterans while also assisting communities in utilizing all 
available homelessness assistance resources. Thank you very 
much for facilitating this work. And I welcome any questions 
you may have.

    [The prepared statement of Dominique Blom appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Blom.
    Dr. Lynch, you now have five minutes.

                STATEMENT OF THOMAS LYNCH, M.D.

    Dr. Lynch. Thank you. Good afternoon, Chairman Wenstrup, 
Ranking Members and Members of the Subcommittees. I appreciate 
the opportunity to discuss the VA's commitment to ending 
homelessness among veterans. I am accompanied today by Dr. 
Keith Harris, who is director of clinical operations for VA's 
Homeless Programs office.
    Let me state up front, VA remains committed to ending 
veteran homelessness, and is working in close collaboration 
with our partners to ensure that veterans have permanent, 
sustainable housing with access to high quality health care and 
other supportive services.
    VA and our partners at the Department of Housing and Urban 
Development and the U.S. Interagency Council on Homelessness 
have developed systematic protocols for ending veteran 
homelessness which include the identification of all veterans 
experiencing homelessness, the ability to provide shelter 
immediately, and the capacity to help veterans swiftly move 
into permanent housing.
    The number of veterans experiencing homelessness in the 
United States has declined by nearly one half since 2010. This 
is an unprecedented decline both as it relates to ending 
homelessness in this country and in comparison to other public 
health efforts.
    To date, 60 communities across 30 states have achieved the 
goal of effectively ending veteran homelessness. Over 600,000 
veterans and their family members have been assured housing 
through HUD's targeted vouchers and VA's homeless programs.
    VA has dramatically increased the number of services 
available to veterans that focus on housing, clinical care, and 
social services, as well as resources aimed at preventing 
homelessness. Overall, the message is positive and important. 
Communities, in partnership with VA, are preventing and 
reducing veteran homelessness.
    Recently, VA proposed a reallocation of specific purpose to 
general purpose funding. This shift did include funding in 
support of the HUD-VASH program. The goal was to give 
facilities greater flexibility in the effective use of their 
budget to reduce homelessness, reflecting local variations in 
the use of resources. This, unfortunately, resulted in 
unnecessary confusion. Please, be assured that our commitment 
to veteran homelessness remains unchanged.
    There will be no change in funding to support our homeless 
programs until we solicit further input from our congressional 
colleagues, our external stakeholders, and local VA leaders. 
Over the next several months VA will engage in a formal 
interagency process to solicit further input to ensure that any 
realignment of funds best supports our Nation's veterans.
    VA's way forward is to work with Federal partners to 
implement our interagency strategic plan to end veteran 
homelessness. Important objectives include enhancing integrated 
services for homeless veterans struggling with suicide risk and 
substance abuse; addressing high need communities by 
recapturing and reallocating available resources; emphasizing 
efforts to improve employment outcomes; and fully committing to 
coordinated entry efforts in local communities.
    To expand on these objectives, 57 percent of veterans who 
are at risk of homelessness or are currently homeless have a 
mental health diagnosis, and 46 percent have a substance use 
disorder. Our homeless program is working closely with our 
mental health and suicide prevention offices to respond to 
these clinical priorities.
    VA's efforts must comprehensively be linked to all 
community efforts as well, we heard this in the first panel. 
One size does not fit all when it comes to ending homelessness.
    All VA medical centers are now required to work with their 
local communities to develop and operate a coordinated entry 
center and system for all homeless individuals including 
veterans. This ensures coordination of community-wide services 
for veterans experiencing homelessness, system-wide awareness 
of available housing and services, and easy access to an 
appropriate prioritization for these resources.
    After six years of consistent progress, HUD's 2017 point-
in-time count shows a continued decline in homelessness in most 
communities, but stalled progress in others due largely to high 
rent and low vacancy rates. We are continuing to promote 
development of affordable and permanent supportive housing, and 
are working with all partners to encourage efforts aimed at 
financing and developing additional housing stock.
    When veterans are at risk for homelessness, VA and its 
Federal, state, and community partners must work together to 
rapidly connect them with appropriate assistance to provide 
housing stability. Sustaining the momentum and preserving the 
gains made so far requires continued attention, collaboration, 
and investment of financial resources.
    Mr. Chairman, this concludes my testimony. My colleague and 
I are prepared to answer any questions.

    [The prepared statement of Thomas Lynch, M.D. appears in 
the Appendix]

    Mr. Arrington. I thank the panelists for their remarks. We 
are going to go in reverse order. Mr. Higgins, you are prepared 
to ask questions, I am going to defer to you for five minutes. 
The gentleman from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman. I thank the panelists 
for appearing today regarding this crucial issue that 
challenges our Nation.
    Mr. Miller, I particularly would like to ask you, sir, and 
I thank you and Secretary Acosta for your dedication to the 
Department of Labor. To what extent does DOL and Veterans 
Affairs coordinate homelessness programs by job training to 
prevent unnecessary duplicative process?
    Particularly asking because one of our challenges, as we 
have heard today from both panels, is funding. And in the 
effort to protect the people's treasure and yet provide the 
needed services for our veterans, it is, you know, we are duty-
bound to find areas where there are duplicative services that 
may not be necessary.
    So to what extent does the DOL and VA coordinate programs? 
And, are there similar programs operated by DOL and VA that 
absolutely need to be operated separately? Would you address 
that, Mr. Miller?
    Mr. Miller. Well, Congressman, of course. As I stated in my 
testimony, or oral statement, we do a collaborative effort very 
much so with the VA, with HUD, with FEMA, with other 
organizations as well as U.S. Intercouncil on Homelessness. But 
when a grantee for an HVRP program puts forth an application 
one of the things that they have to have in that application is 
a strategy of how they are going to work with agencies such as 
VA and HUD and overcome housing and health care needs of the 
individual.
    We use things such as the VA supportive services for 
veterans families, that is [indiscernible] VA's Grant Per Diem 
program, HUD's veteran affairs, supportive housing, the HUD-
VASH program that was mentioned, or continuing of care. In 
addition to the--you mentioned about the Federal level, but we 
also work with states and local levels who do that as well as 
our grantees.
    You know, we provided about $45 million for grantees all 
over the country nationwide in both rural and urban settings 
for 155 grantees all over the country, and we also urge them to 
work together. I mean, that is what makes our program such a 
success is the collaborative efforts between our grantees and 
our partners.
    Mr. Higgins. Thank you for that very thorough response. I 
am going to shift gears in the remaining time regarding the 
services provided for incarcerated veterans. It is a good 
program. How is funding and staffing for that? Are you able to 
touch the local, state, and Federal jails where veterans are 
incarcerated and provide these services? Just give the 
Committee, please, an overview of where you are on that 
program.
    Mr. Miller. Well, yes, sir. We provide an incarcerated 
veteran's transition program that we use where we provide 
grants to incarcerated population. Fortunately, there--we are 
aware that there is--this could be duplicative of what exists 
in states as well as correctional--department of corrections 
within states. So that is something that we take into 
consideration. But we do provide grants for folks to go in and 
work with incarcerated veterans.
    Mr. Higgins. Thank you again for that answer. I yield the 
balance of my time, Mr. Chairman.
    Mr. Arrington. Thank you, Mr. Higgins. We now yield five 
minutes to Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman, for calling on this 
end of the bench. It is a little like Christmas in January, I 
appreciate that.
    I had some questions for Ms. Blom, if I could, about the 
HUD-VASH, as I think you heard the comments I made before to 
the previous panel. Are there any actions that HUD is taking to 
address the mortgage and rental cost disparities in high cost 
markets with the HUD-VASH voucher program?
    Ms. Blom. Yes. Thank you very much for the question. We 
definitely have seen, particularly in west coast cities, those 
in California as well as in Seattle, that there has been an 
increase in veterans homelessness, largely driven by decrease 
of affordable housing and high costs of living in those cities.
    So we have recognized this. We do believe that there are 
some potential solutions here. First, we believe that it is 
important for housing authorities to be working with their 
partners to project base these vouchers.
    Mr. Peters. Right.
    Ms. Blom. And now VASH vouchers can be used as project 
basing, and made much easier as a result of changes Congress 
made in 2016. And we will continue to encourage the project 
basing of these vouchers so that there is a development of 
affordable housing, and it is available long term for veterans.
    Secondly, we are also changing and allowing housing 
authorities flexibility for their payment standards. So they 
can go above a certain amount that HUD generally provides for 
housing, going above that in these high cost areas.
    And then, third, we are also encouraging that housing 
authorities provide additional landlord outreach. Finding those 
landlords that will be more willing to serve veterans.
    Mr. Peters. And I know there is a cap on the project based 
vouchers of 20 percent, is that something you are considering 
raising, or, if not, why not?
    Ms. Blom. So just in the last two years, HUD now has the 
flexibility to allow housing authorities to go above that 20 
percent cap. So HUD-VASH vouchers are part of that pool of 
vouchers that housing authorities now can project base without 
any need for approval from the department.
    Mr. Peters. So that decision is made at that local level?
    Ms. Blom. Yes, that is.
    Mr. Peters. Okay. Great. And can you tell me why the HUD-
VASH vouchers expire at 120 days? Have you ever considered 
extending that?
    Ms. Blom. When we say that it expires, it expires for that 
particular servicemember.
    Mr. Peters. Right.
    Ms. Blom. That voucher then would go back to the housing 
authority and that housing authority, once it receives a 
referral from VA, would be able to reissue that voucher. But I 
think what you are asking, is there a possibility to extend the 
120 day period for that particular veteran, we will look into 
that and see if that is possible.
    Mr. Peters. And I understand there might be a reason to do 
that, you want to put some urgency behind it. But, of course, 
in a tough market it may present different circumstances, I 
don't know.
    Mr. Miller. Precisely. We will look into that.
    Mr. Peters. Are you satisfied that local agencies are 
taking advantage of this flexibility about project basing 
vouchers? And, if not, is there a way that we can help them 
understand the benefit of that?
    Ms. Blom. Uh-huh. So I think, particularly in LA, we are 
going to have concentrated efforts occurring there. We were a 
little taken aback by the increase in the point-in-time count 
for veterans homelessness in LA. We know we need to do 
concentrated outreach to the housing authorities in the LA 
region to talk about targeted ways that we can be increasing 
the success rate of VASH vouchers there, and project basing is 
certainly one of those solutions.
    Mr. Peters. Okay. I really appreciate the testimony. Thanks 
for being here. And we want to encourage your continued 
attention to housing the veterans that we have on the streets, 
and we will look forward to working with you on that.
    Ms. Blom. Absolutely.
    Mr. Peters. Mr. Chairman, I yield back, thank you.
    Mr. Arrington. Thank you, Mr. Peters. We now yield five 
minutes to our Health Committee Subcommittee chair Mr. Brad 
Wenstrup.
    Mr. Wenstrup. Dr. Lynch, question for you. How many 
veterans getting out of DoD are homeless within the first five 
years or so?
    Dr. Lynch. I honestly don't have the answer to that, sir. 
Dr. Harris, do you have a quick estimate?
    Dr. Harris. I don't have an estimate, but we have a work 
group that works with DoD, VBA, and others looking at the 
transitioning servicemembers from DoD and following them down 
to VA and assessing homeless rates. But we are very early in 
that process.
    Mr. Wenstrup. So you are in the process. Because I think it 
is a key number to figure out, right? What is the problem here, 
you know, why does this occur? It kind of reminds me, you see 
situations of a child who presents the emergency room every 
three weeks or so with a cough, you treat the cough, and then 
they get a little better, and three weeks later they are back 
with the same cough.
    At some point you want to go into the home and figure out 
why they are getting cough, and that is where you find that 
there is mold growing, or whatever the case may be. So this is 
important information, especially because it is current and it 
is now. So this goes back to what we want to do, or considered 
doing, in the transition process.
    So if the majority of people are homeless within the first 
three years, you know, why did that happen? What was missing 
from when they left that we can get them on the right track 
before they even take off the uniform? So I hope that this is 
something--and you can affirm this or not--that you are 
definitely trying to track as best you possibly can. I know 
that sometimes those numbers are hard to track people when they 
leave, but as best you can I hope that that is the process 
taking place.
    Dr. Lynch. And may I just make a couple of follow-up 
statements?
    Mr. Wenstrup. Sure.
    Dr. Lynch. I think, number one, it really emphasizes the 
importance of prevention, which is a process that our homeless 
program is really focusing on now. Two aspects of that; one, 
preventing veterans going back into homelessness, and, second, 
preventing veterans getting into homelessness.
    Secondly, I would just like to emphasize that we have 
initiated two programs now, initially focused on suicide 
prevention, but easily converted, if there is an opportunity. 
One is called Concierge for Care, where we are actually 
reaching out to veterans after they transition, offering them 
help in terms of completing the enrollment process, and 
offering them the opportunity to schedule an appointment at 
their VA.
    Mr. Wenstrup. So--
    Dr. Lynch. The President's recent executive order also 
focused on the transitioning servicemember. And that is going 
to begin taking a look at how we begin to provide services to 
that transitioning servicemember and also how we begin to 
integrate with DoD, which is another point that has come out 
throughout this hearing.
    Mr. Wenstrup. Yeah. So what we are interested in, as you 
can tell, is moving that timeline. Okay? Not until after the 
problem exists, but how can we get there before it exists to 
make sure that it doesn't. And so my question is, do you have--
at this point is, do you have walls in front of you, from DoD 
or whoever, or whatever the case may be, something we need to 
fix here? Are there things, obstacles, in your way to achieving 
that goal of getting as close as you can to the veteran as soon 
as you can?
    Dr. Lynch. I think we are in a position now, that is 
probably better than we have ever been, to collaborate with DoD 
and to begin to look at how we provide services to the 
transitioning servicemember. To begin to address problems, 
whether it is suicide prevention or homelessness, before we 
reach a critical point, treating them earlier before they get 
to homelessness or suicide risk.
    Mr. Wenstrup. Can you describe the relationship that is 
starting to form then between VA and DoD?
    Dr. Lynch. We have recently recruited within our suicide 
prevention program Dr. Keita Franklin who comes directly from 
DoD, and is going to be helping us reach out and collaborate 
with DoD, and integrate the programs that both VA and DoD have.
    Mr. Wenstrup. And just real quick. It has been said in your 
testimony that some communities have zero homelessness, or net 
zero homelessness, so what does that mean for the future? Does 
that mean we don't need to do anything more in those 
communities, or is this, in your opinion, a constant light that 
needs to be on?
    Dr. Lynch. I think it gets back to the whole issue of zero 
homelessness. I don't think we are going to get there because I 
think it is a continuing problem. We have to continue to be on 
the alert for homeless veterans. We have to be able to provide 
them immediate shelter, whether that is transitional housing or 
permanent housing. And we have to provide them the wrap around 
support that keeps them in housing and keeps them from going 
back to homelessness. I think it will be an ongoing effort.
    Mr. Wenstrup. Thank you. I yield back.
    Mr. Arrington. Thank you, Mr. Chairman. I now yield five 
minutes to my Ranking Member and friend, Beto O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. Dr. Lynch, a couple 
of the witnesses on the previous panel, including Mr. Martin 
from El Paso, mentioned case manager to client ratios that are 
way out of whack from best practices. That it should be 1 to 
25, Mr. Martin mentioned El Paso he may have 1 to 200, 1 to 
250. What is the answer to that? Who is responsible and how do 
we get that back down to a manageable level? You just 
mentioned--you ended your answer to Dr. Wenstrup by talking 
about the importance of wrap around services, so how do we make 
sure that we are following through on that?
    Dr. Lynch. I think what was apparent to me when I listened 
to the first panel was that there is no correct answer. There 
are unique opportunities in every community and we need to 
understand those.
    Mr. O'Rourke. Should we be a 1 to 25?
    Dr. Lynch. I think we--I don't know what--
    Mr. O'Rourke. Is that open for debate?
    Dr. Lynch [continued]. --the right ratio is, Congressman. I 
think we need to understand the community, we need to 
understand the veteran. Some veterans may, in fact, need 
greater support than other veterans.
    Mr. O'Rourke. So we don't have a bench mark, then I don't 
know what to measure against, and I don't, you know, give me a 
little bit of context. I feel like they made a very good case 
that having active case management improves the likelihood that 
a veteran is going to transition out of homelessness. You seem 
to dispute that there may be a benchmark.
    Dr. Lynch. I don't think I am disputing the need for case 
management, I think I am saying that trying to put a number on 
it is a difficult thing--
    Mr. O'Rourke. If you don't put a number on it, we can never 
measure it, we will--
    Dr. Lynch [continued]. --because veterans are--
    Mr. O'Rourke [continued]. --never know how you are doing--
    Dr. Lynch [continued]. --individual--
    Mr. O'Rourke [continued]. --we will never put the resources 
to it.
    Dr. Lynch [continued].--and some veterans may actually need 
greater support. And as veterans become more acclimated to 
home, and to employment, and to community, they may need less 
support.
    Mr. O'Rourke. Okay. Well, I would love a better answer from 
you and the VA, and so I will submit that for the record. And I 
hope you can get me back something that we can measure and act 
upon. Otherwise, we are just taking subjective measurement, or 
it is different in each case, and I don't know that we are 
going to get the resources to those community providers who are 
telling us--you just heard them right now saying that they 
don't have what they need to take care of these veterans and 
improve their chances of escaping homelessness, and living to 
their full potential.
    I am going to switch to a different subject. Many of the 
panelists also mentioned the connection to access to health 
care. There was a recent announcement by the President and the 
Secretary of the VA about improved access to mental health 
care. I want to ask you, does that specifically include 
veterans who have an other than honorable discharge? And by 
extension, will that allow those veterans who have a bad paper 
discharge to access the HUD-VASH voucher program which today 
they cannot?
    Dr. Lynch. Right now we are aiming to try to focus on every 
veteran who is transitioning. Right now we can address about 40 
percent of them because of eligibility. We are going to need to 
explore the issue of other than honorable and dishonorable, and 
how we are going to address those veterans.
    I think there is an opportunity working with HUD to give 
vouchers to veterans with other than honorable discharge 
because we can work with the community to provide the wrap 
around services. We also, I believe, have the opportunity to 
work with SSVF to provide care for veterans who may receive 
other than honorable discharge.
    Mr. O'Rourke. Okay. And I just want to make sure I nail 
down the specifics in your answer. Will veterans who have an 
other than honorable discharge be eligible for the HUD-VASH 
voucher program?
    Dr. Lynch. Mr. Blom, do you want to?
    Ms. Blom. Yes, thank you. I can address that. We have had a 
partnership with VA to start piloting a program to have a 
portion of those HUD-VASH vouchers serve other than honorable 
discharge members. And this is decided on the local level with 
the VA medical center as well as a continuum of care partner 
that provides then those wrap around services, the case 
management, and then that referral is come to the local public 
housing authority. We, today, have two housing authorities in 
localities that are participating in this pilot, and we are 
hoping to expand it in the future.
    Mr. O'Rourke. How many veterans who have an other than 
honorable discharge status are participating in this program, 
in this pilot program?
    Ms. Blom. I will be able to get that information back to 
you after this hearing.
    Mr. O'Rourke. Okay. I appreciate that. And I just--
    Dr. Lynch. Congressman, would mind if Dr. Harris just 
commented briefly on El Paso?
    Mr. O'Rourke. Not at all. Yeah, please.
    Dr. Harris. I appreciate the question about the staffing, 
and understand the concerns about that. And I don't want to 
speak for the prior panelists, but I don't believe he was 
speaking about the HUD-VASH program in speaking about a 200 to 
1 ratio, that does not exist in our program.
    The positions are funded on roughly a model of 1 to 25, 
medical centers do have some leeway within that. Instead of 
hiring one GS-12 social worker, they might hire two peers, for 
instance, a GS-6, something like that. El Paso is actually at 
100 percent staffing, it is one of the rare medical centers 
that is. So staffing is not a challenge there, their vouchers 
are reasonably well utilized as well.
    Mr. O'Rourke. So the point that I took from that, and I 
will cede to the Chair, is that there are not enough resources 
dedicated to support services which includes funding the 
appropriate case manager to client ratio, and it is making it 
harder for those providers to extend mental health care, 
transportation, family care to their clients that in turn helps 
them to transition out of homelessness.
    So if I am using the wrong nomenclature or the wrong 
measure, let me know. I just want to resolve the discrepancy 
between you saying, we have got everything filled and John 
Martin saying, we are at 1 to 250. Somewhere there, there is a 
breakdown, and I would love to find out who is responsible. Not 
to punish them but to make sure that we get the resources to 
those who are providing the care in the community where there 
is a gap right now.
    And I just want to thank the previous panel for hanging 
out, it looks like we are going to wrap this one up soon. The 
fact that we are all in the same room, maybe we can quickly get 
together and resolve what the discrepancy is, and come up with 
a solution for El Paso and some of these other communities, so. 
I will yield back to the Chair. Thank you.
    Mr. Arrington. I thank the Ranking Member, and that is an 
excellent line of questioning. I will yield five minutes now to 
the other Ranking Member for the Health Committee, Ms. 
Brownley.
    Ms. Brownley. Thank you, Mr. Chairman. And thank you, Dr. 
Lynch, for stating on the record that there will be no VASH 
funding transferred to general purpose funds.
    Dr. Lynch. Can I also just add the corollary that the 
Secretary is committed to getting input not only from our 
Federal partners but also from our community partners as well, 
and our stakeholders. I think, this program is now ten years 
old, and I think it is time that we need to have a critical 
reevaluation.
    And I think what I took from the first panel was the fact 
that there are different ways to manage problems in different 
communities. We need to hear that, we need to understand it, 
and we need to figure out how we adapt our programs to be more 
effective.
    Ms. Brownley. I couldn't agree more, and I welcome that 
interaction with our community partners and hope to have the 
discussion here as well, so. But thank you for stating that on 
the record because I think that people were concerned that that 
was happening today, so.
    Anyway, I wanted to go back, we have been talking a lot 
about the HUD-VASH vouchers, I represent a little bit of Los 
Angeles County but I represent all of Ventura County, and we 
have the issue of expensive housing, that is an issue for us. 
What another issue has been is that our housing authority in 
the City of Ventura has been told by the VA that the vouchers 
can only--they have some outstanding vouchers and right now I 
think the City of Ventura is only using 67 percent of the 
vouchers that are allocated to them, or the funding allocated 
to them.
    So what the VA has been telling them is that those vouchers 
can only go to chronically homeless veterans. And, you know, I 
want to know whether that is true or not. I mean, if it is 
true, you know, to be chronically homeless you have to be, you 
know, out on the street for a long period of time, it is almost 
like you have to be on the street for a year before you could 
even qualify to be chronically homeless, at least based on my 
understanding of that definition. So could you speak to that?
    Dr. Lynch. I am going to ask Dr. Harris to speak for VA to 
begin with.
    Dr. Harris. Sure. And unlike the last question, we do 
concur on the numbers here. Our number is 70 percent 
utilization, but it is clear that utilization is low in Ventura 
County, and part of that is a result of lower staffing in that 
area than we would like, and there is aggressive efforts right 
now to recruit for that.
    In the terms of the question about chronic homelessness. It 
is true that HUD-VASH is targeted to the chronically homeless 
population, that is the population that most needs that kind of 
intensive support. It is not true that vouchers can only be 
allocated or given to chronically homeless. That is a message 
we need to correct with that medical center, and we will.
    Ms. Brownley. Well, we don't have a medical center in the 
County of Ventura, but--
    Dr. Harris. Sorry, greater LA and then through that--
    Ms. Brownley. Okay. Very good.
    Dr. Harris [continued]. --through the supervisory chain is 
what I mean.
    Ms. Brownley. Okay. Very good. Very good. So, I think 
clearing that up will be very, very helpful. So, and I do, you 
know, applaud, Ms. Blom, what you were talking about in terms 
of using the vouchers or unused vouchers for project based 
projects as well as high need areas. I think that that, you 
know, providing that flexibility is very good. But I want to 
make sure that in a county like Ventura County that they can 
utilize their vouchers, because the need is there, before they 
would give up those vouchers to another area.
    But I wanted to follow-up on Mr. Peters' line of 
questioning with the project based opportunities. He was saying 
it is capped at 20 percent, but you are saying that that is 
eliminated, so a local housing authority, local government can 
decide, no, we want to use all of our vouchers for a project 
based?
    Ms. Blom. Housing authorities can use all of their HUD-VASH 
vouchers for project basing, there is no longer a cap on that 
measure. So housing authorities have that--
    Ms. Brownley. And that information is out to housing 
authorities across the country?
    Ms. Blom. We believe it is.
    Ms. Brownley. Okay.
    Ms. Blom. But if you have specific instances where you 
believe we have not communicated that, we are happy to 
reinforce the point.
    Ms. Brownley. Well, it is the first I heard it today, so I 
will certainly check in with our housing authorities to see if 
they understand that. And in terms of homelessness in high cost 
areas. So has there been any conversations about raising, you 
know, raising the level of the voucher so it can be competitive 
in these expensive marketplaces?
    Ms. Blom. Yes, we have been talking about that. We 
currently allow housing authorities to go up to what we call 
110 percent of the payment standard. And where housing 
authorities believe they need even more flexibility to go above 
that, we will consider that on a case by case basis. And I 
think housing authorities in these high need high cost areas 
would be able to make a compelling argument for that.
    Ms. Brownley. And is there anything new coming forward in 
terms of addressing suicide, but particularly for female 
veteran suicide, which we know is--it is 20 times higher than 
the rate of suicide attempts on--excuse me--the suicide rate 
amongst women veterans is exponentially higher than suicides 
amongst civilian women.
    And is there anything new in terms of trying to address 
homelessness for women, and certainly homelessness for women 
and their children? Any new opportunities? I know I have a 
bill, there are other bills out there, but is HUD looking at 
other opportunities?
    Ms. Blom. So, at this point, the department has not 
targeted an additional population specifically to focus on. And 
our current areas of focus don't include women veterans at this 
point, but just recently there had been conversations within 
HUD about trying to look to see what kinds of resources we 
could potentially dedicate for female veterans.
    Ms. Brownley. Thank you. Dr. Lynch, do you have any 
comments?
    Dr. Lynch. I would just add that VA is in the process of 
re-engineering its suicide prevention program. We will continue 
our emphasis on those at immediate risk, but try to move a 
little further to the left to understand those groups that may 
be at high risk for suicide. And women certainly would be 
included in those high-risk groups as are homelessness, and the 
goal is to begin to focus outreach to those groups that could 
potentially become at risk for suicide over time. So I think, 
yes, VA is beginning to look at this, and they are beginning to 
look at it in terms of targeted populations
    Ms. Brownley. Very good. I am over my time, again. I 
apologize, and I yield back.
    Mr. Arrington. I want to thank the gentlelady for her 
questions. And now yield five minutes to Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Lynch, as we have 
heard from service providers earlier this morning, the HUD-VASH 
program is very successful at housing veterans and given them 
the support services they need. In communities all across the 
country, including mine, the HUD-VASH program is helping 
veterans rebuild their lives. My colleague from Pennsylvania, 
Representative Boyle, has a bill to improve oversight of HUD-
VASH contracts.
    It is a straight forward bill that requires the VA to give 
notice to Congress before a contract expires to help prevent 
lapses in service for veterans. It is supported by several VSOs 
including AMVETS, VVA, DAV, and PVA. Dr. Lynch, are you 
familiar with this bill?
    Dr. Lynch. Only vaguely, having heard about it this 
morning. But I think VA looks forward to reviewing that bill 
and to providing feedback, but we don't have specific positions 
right now.
    Mr. Takano. Well, just can you tell me, as to the core 
intent of the bill, do you agree that Congressional 
notification is a straight forward fix to help reduce lapses in 
service for veterans?
    Dr. Lynch. Without having looked at the whole bill, 
Congressman, I am really reluctant to comment or commit at this 
time.
    Mr. Takano. Well, I am not asking you to agree with the 
whole bill but just the principle of a timely notification to 
Congress that a program could lapse, or funding would lapse, 
just so that our oversight role is somewhat, I think, enabled 
here.
    Dr. Lynch. I would submit that I think it is always 
important to communicate with our Congressional colleagues, 
particularly with issues that arise in their district.
    Mr. Takano. Well, with regard to homeless services that are 
about to lapse, that are about to, you know, because funding is 
expiring, shouldn't Congress know about that? Shouldn't 
Congress be informed that, hey, this program is about to end or 
run out of funding here, shouldn't we be notified about that?
    Dr. Lynch. I guess I am trying to understand, does this 
bill relate to the review that recently occurred of some of our 
homeless programs and the fact that some did not--
    Mr. Takano. Well, [indiscernible], maybe I shouldn't say 
funny, but shouldn't--it requires notice to Congress before a 
contract expires to help prevent lapses in service to veterans. 
So it is about a contract expiring not funding expiring, but a 
contract expiring with a provider.
    Dr. Lynch. At this point, I guess I am going to have to 
defer and say until we have had a further chance to look at the 
bill I am going to reserve my opinion at this time.
    Mr. Takano. Okay. Well, thank you. Well, thank you. Let me 
just move onto another question. In October 2013, the VA 
identified approximately 168,000 enrolled veterans with an HCV 
diagnosis. And give the diagnosis--and given the advancements, 
given the advancements in Hep C treatments as of March 2017, VA 
has been able to successfully treat more than 84,000 
veterans.While VA continues to work through the list of known 
veterans, what is VA doing to identify the untreated pool that 
may still exist out there, specifically, at risk homeless 
veterans?
    Dr. Lynch. We are actively working in the communities with 
our VSO partners to try to encourage veterans to come forward 
for testing. This is our current emphasis right now, to try to 
increase outreach so that we can identify those veterans who 
have not come forward to be identified.
    Mr. Takano. All right. Well, thank you. I assume that there 
is adequate resources to be able to try and find these veterans 
that are still untreated.
    Dr. Lynch. We are actually successfully partnering with a 
number of our VSO associates to try to encourage that outreach 
into the community.
    Mr. Takano. Well, in early 2017 Secretary Shulkin laid out 
his top five priorities for VHA. These included, one, greater 
choice; two, modernizing the system; three, strengthening 
foundational services; four, timeliness with services; and, 
five, suicide prevention.
    Of note, given the topic of this hearing is the fact that 
homelessness is missing. Since late 2009, VA secretaries have 
made homelessness a priority, and as a result, veterans 
experiencing homelessness have been cut down--have been cut 
nearly in half.
    In 2017, HUD's annual survey found that veteran 
homelessness had increased by 1.5 percent over 2016 figures. Do 
you believe the agency's downgrading of veteran homelessness 
from its top priorities is having a direct impact on its 
ability to help this at risk population?
    Dr. Lynch. I honestly don't believe the agency has 
downgraded the emphasis on homelessness, Congressman. I think 
we continue to have a strong emphasis on identifying and 
treating our homeless veterans.
    Mr. Takano. Well, even as veteran homelessness has 
increased 1.5 percent over 2016 figures, and the Secretary has 
not included this in his top priorities, you can say that with 
a straight face to me?
    Dr. Lynch. Yes, I can, sir.
    Mr. Takano. Can you back that up? One point five percent 
over the 2016 figures. The facts contradict what you are saying 
to me.
    Dr. Lynch. I think what we know is that there have been 
circumstances in certain communities that relate to high rent, 
the decrease availability of housing that we are working on 
aggressively, but I think VA continues to be committed to the 
homeless program and to--and basically to ending--not ending, 
but addressing homelessness among our veterans. Yes, I do, 
Congressman.
    Mr. Takano. Well, I would say that these statistics show 
otherwise, and I have not--I am not satisfied with your answer, 
sir.
    Dr. Lynch. I am sorry.
    Mr. Takano. I yield back.
    Mr. Arrington. Thank you, Mr. Takano. Are there any other 
follow-up questions from my colleagues? I am going to go ahead 
and take a few minutes and follow up with some questions.
    What you mentioned, Dr. Lynch, the term ``permanent 
housing,'' explain what that means.
    Dr. Lynch. Right now there are two options when we house 
veterans, and I may ask Dr. Harris to expand on this a bit. 
There is a process by which we put a veteran into transitional 
housing, surround the veteran with supportive services, and 
then attempt to move the veteran into permanent housing on a 
long term basis. There is another model called Housing First 
where we try to move the veteran into a permanent housing 
situation and wrap the services around him at that time.
    Mr. Arrington. So I am going to ask you the same question I 
asked your partners, your community partners. What is success 
when it comes to addressing homelessness in the veteran 
community?
    Dr. Lynch. I think success can be defined as identifying a 
home for veterans, number one. Putting the services in place to 
keep that veteran in a home, and trying to find employment to 
make that veteran self-sufficient moving forward. And, finally, 
I think it is having an aggressive prevention strategy that 
keeps veterans in the home and prevents new veterans from 
entering homelessness.
    Mr. Arrington. I think that is well articulated, those sort 
of stages of success. And, ultimately, the outcome seems, 
desired outcome, is that there is a self-sustainability and 
self-efficiency. What is the rate of success with respect to 
the ultimate outcome, desired outcome, for everybody I have 
listened to in this discussion which is self-sustainability of 
the veteran?
    Dr. Lynch. Keith, would you like to give an answer to that 
with some better numbers that I might be able to give?
    Dr. Harris. Well, if I am following your question, are you 
asking for a percentage that, for instance, is housed and 
sustain that without a subsidy, for instance?
    Mr. Arrington. Yeah, exactly. So you identify this person 
as homeless, this veteran, you have done this necessary wrap 
around services to stabilize or rehabilitate, and you have 
transitioned him through some temporary assistance, and now 
they are completely self-sufficient.
    Dr. Harris. Sure. And it is an incredibly important 
question, especially as we look at the long term sustainability 
of our efforts. A couple things, there is a million ways we can 
go with that, let me just cover a couple of them.
    Mr. Arrington. Just give me one.
    Dr. Harris. Okay. Well, the first one is, if you look, for 
instance, at our Grant and Per Diem program, which is the 
largest of our transitional housing programs by far. Two-thirds 
of the veterans that exit to permanent housing do so with no 
subsidy. Without a HUD-VASH voucher, without a rapid rehousing 
assistance. I think that is incredibly important, that is why 
you heard such emphasis, especially, for instance, from Mr. 
Peck in U.S. VETS, which is a big one of GPD providers about 
the importance of employment. So that is one place that we are 
seeing independent--
    Mr. Arrington. Which program is that?
    Dr. Harris. That was Grant and Per Diem.
    Mr. Arrington. Okay.
    Dr. Harris. So my point being, there are successes through 
these programs that are not requiring subsidy.
    Mr. Arrington. Could you give me the same ultimate outcome 
measurement for all the programs within your--
    Dr. Harris. Not off the top of my head. But, yes.
    Mr. Arrington. But you do have them?
    Dr. Harris. We could get that, yes.
    Mr. Arrington. Okay. I would like for you to submit to the 
Committee for the record the outcome of self-sufficiency once 
you have identified a homeless veteran and you have had them 
matriculate through whatever program that you have--
    Dr. Harris. Sure.
    Mr. Arrington [continued]. --that you are responsible for.
    Dr. Harris. If I could add one-
    Mr. Arrington. Yeah.
    Dr. Harris. --one piece. I am interpreting this as 
primarily a question about employment, it may not be entirely 
that. Employment is not a goal, not necessarily a feasible goal 
for everybody we serve. About a third of the veterans we see 
are disabled at the point of assessment. If you add in retired, 
or volunteers, or students, that number gets up much higher in, 
for instance, in the HUD-VASH program.
    Mr. Arrington. So maybe the way to do it is, those that are 
able to be self-sufficient, what is our success rate?
    Dr. Harris. Sure.
    Mr. Arrington. Because I recognize that there are 
situations where they are not.
    Dr. Harris. Roughly half of the veterans exiting our 
programs [HKW(1]or in HUD-VASH who are able and searching for 
it, do, in fact, obtain employment. So that is a sizable chunk, 
but it is not everybody, and we would like that to be higher.
    Mr. Arrington. For everybody, what are the accountability--
and I am not picking on anybody, I just think we have to define 
success, we have to measure that, and then to know which of the 
20-some-odd programs are working, and where we can--and I am 
not against spending more money if a program is working towards 
our desired outcome to get veterans the help they need and 
self-sufficiency. But in addition to those things, and the 
right partners--and by the way, I do think, at least for me, 
those who are closest to the problem are going to be best able 
to solve that, and so I put a lot of faith in the community 
partners in regard to these programs and the programs' success.
    But another driver in success of affective programs and 
services would be accountability. And that is the 
accountability of the panel that proceeded you all, and that is 
the accountability of the veteran and what they are asked to 
do, and what eligibility. Sort of whether it is time 
limitations, or work requirements, or whatever it is, could you 
talk about just the accountability measures built into this 
with respect to the key stakeholders, our veteran and our 
community partners and providers? Start with you and just go 
down the line, and then I will wrap up.
    Mr. Miller. Okay, Mr. Chairman, thank you. With HVRP 
programs, there is accountability built in. We monitor our 
grantees on a regular basis and subject them to just criteria. 
And if they don't meet the criteria, we set them up on an 
action plan, corrective action plan, to make sure that we work 
with them, that we partner with other folks to work with them, 
and to make sure that they deliver the services that are needed 
to the specification of the grant in which we gave them money 
for. At VETS and HVRP, you know, we don't measure homelessness 
as much as we measure how many people get a job.
    Mr. Arrington. Employment, uh-huh.
    Mr. Miller. And so for the Secretary, you know, he talks 
about jobs, jobs, jobs, and that would be our goal. You know, 
the basic goal of Department of Labor is making sure veteran 
homelessness is rare, non-reoccurring, and brief.
    Mr. Arrington. And over 60 percent job placement is what I 
understand it.
    Mr. Miller. Yes, sir, 67--
    Mr. Arrington. That is remarkable. I must say that I was 
blown away by that statistic, I would like to drill down at 
another time. But if that is, in fact, the success rate, then I 
think we have identified at least one program that we might 
want to make even greater investment in, because ultimately you 
can't sustain a home if you don't have a job. So kudos to you 
guys if, again, that success measure is accurate. I don't have 
any reason to believe it is not.
    Ms. Blom? Accountability?
    Ms. Blom. Yes. Thank you very much for--
    Mr. Arrington. Is it there? Do you believe it is there 
sufficiently in your programs?
    Ms. Blom. So we hold our housing authorities accountable 
for the utilization of the VASH vouchers. Nationwide, we have 
an 88 percent utilization rate, which means that 88 percent of 
the funding that has been provided to those housing authorities 
is actually being used to house veterans.
    Another 5 percent of funding, going up now to 93 percent of 
all the funding available is in the hands of veterans but not 
yet in the form of housing for them. These are veterans that 
are searching for housing.
    So we do believe a 93 percent success rate is very good in 
the program. Of course, we want to see that take up, 
particularly in the high cost areas such as LA and Seattle.
    Mr. Arrington. When you say ``93 percent success rate,'' 
what is that measure again?
    Ms. Blom. It is the measurement of funding that is being 
expended to house veterans. So, today, that is 88 percent of 
all funding that the department has dedicated to the HUD-VASH 
program is being used to house veterans. And as a result of 
that, we have 77,000 veterans that are currently housed. 
Another 5 percent of that funding is in the hands of veterans 
to be able to search for a house so that they can live in 
stable environment.
    Mr. Arrington. Do you know of the 93 percent that you give 
assistance to for housing how many of those individuals move 
off of Federal assistance, who can sustain their own housing?
    Ms. Blom. So today we rely on the VA for those types of 
statistics. The VA, as I understand, tracks exits of VASH 
vouchers, either as positive, neutral, or a negative outcome as 
a result of ending their participation in the VASH program.
    Mr. Arrington. Okay. Dr. Lynch, you get the last word.
    Dr. Lynch. Pretty much what Ms. Blom said. We are tracking 
how many veterans successfully housed following involvement in 
our programs. We track how many do not get housed. And also, 
importantly, we track how many fall back into homelessness. And 
these are solid numbers, and we are able to track those for our 
programs across the country.
    Mr. Arrington. And one last question, if my colleagues will 
indulge me here, kind of a rapid round closure. And we will 
start on this end, and, Mr. Miller, you close us out. What is 
not--everybody comes putting their best foot and presentation 
forward, and I appreciate that, and I bet there is success, 
some may be more wildly successful than others, but I just have 
to believe that there is something that is not working, and 
so--I am a continual improvement guy myself, I can tell you 
there is a lot of things not working in my own operation I 
would to fix, and I am working on. So could you tell me what is 
not working about your program where we can help you? If we 
can't help you, just tell me that you are working on it, and 
that--to a greater avail for our veterans.
    Dr. Lynch. Dr. Harris would like to start and I would like 
to follow.
    Mr. Arrington. Real quick. Just ten seconds.
    Dr. Harris. Sure. I think the biggest one is the lack of 
prevention. I think we are seeing too many people falling into 
homelessness. And it is not a failure of the homeless system, 
it is a broader failure of the entire societal system. And we 
need to go upstream further than we have.
    Mr. Arrington. And that may address some of the discussion 
around TAP, if we make that more robust and effective. Okay. 
Good.
    Dr. Lynch. I would say very briefly that I think our 
greatest opportunity is to look at how we can partner more 
effectively, particularly with the community. Learn from their 
experience and incorporate that into our program overall.
    Mr. Arrington. Excellent. Ms. Blom.
    Ms. Blom. Great. And I will focus my remarks on tribal HUD-
VASH. There is a Senate bill that was introduced, Senate 1333, 
that would permanently authorize the tribal HUD-VASH program. 
That would help communities be able to project base those 
vouchers, and, again, produce stable housing for veterans long 
term in Indian country.
    Mr. Arrington. Thank you, Ms. Blom. Mr. Miller, final word.
    Mr. Miller. And, Mr. Chairman, as stated in our 2016 annual 
report to Congress, one of our things that we would like to 
work with you on is the technical amendment to the term 
homeless veteran to include recently housed. We estimate that 
if that were changed we would be able to serve 10,000 more 
veterans, homeless veterans.
    Mr. Arrington. Okay. Well, God bless you guys, and thanks 
for coming. And if there are no further questions, then the 
panel is now excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks, and include extraneous 
material. Without objection, so ordered. This hearing is now 
adjourned.

    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]


                           A P P E N D I X

                              ----------                              

                  Prepared Statement of John F. Clancy
    Good morning, ladies and gentlemen, my name is John Clancy. I serve 
as the President and CEO of the Tristate Veterans Community Alliance 
(or TVCA). Thank you for inviting me to testify today at this important 
hearing regarding veteran homelessness. As an independent, veteran-led, 
non-profit organization focused on improving the access to, and the 
quality of, services offered to veterans and their families in the 
local community, we appreciate the opportunity to share our perspective 
and provide recommendations to address the challenges we see around 
veteran homelessness.
    The TVCA was created four years ago to serve as a backbone 
organization responsible for aligning veteran support in our region, 
which is centered around Cincinnati, Ohio, but includes parts of 
Northern Kentucky and Southeast, Indiana. We partner with over 150 
local organizations and operate a Veteran In-Processing Center that has 
serviced over 1,150 veterans since opening 28 months ago. We have four 
active workgroups focusing on employment, wellness, education as well 
as a special Northern Kentucky focused group. We have piloted programs 
that leverage our United Way 211 call center, that serve as a career 
accelerator for mid-level Non-Commissioned Officers, and that 
facilitate data sharing efforts both inside and outside our region. Our 
efforts are characterized by the following aspects:

    <bullet>  We are proactive, seeking to engage veterans and families 
before a crisis happens (often while they are still serving)
    <bullet>  We seek collaboration whenever possible. We do not want 
to add another drop to the ``sea of goodwill''.
    <bullet>  We work across sectors. We have many businesses involved 
in our efforts, but also include social services, veteran organizations 
and all major educational institutions.
    <bullet>  We look for systemic solutions in addition to program 
improvement.

    That said, how do we view the efforts of the Department of Veteran 
Affairs (VA), the Department of Housing and Urban Development (HUD), 
and the Department of Labor (DOL) to reduce veteran homelessness? The 
efforts of all three agencies have been commendable and successful. The 
VA designed a research-informed strategy called ``Housing First'' to 
address the problem, especially for those veterans who had experienced 
chronic homelessness (USICH, 2015). This strategy involved a co-
sponsored initiative with HUD to invest resources in stable permanent 
housing for chronically homeless veterans and case management services 
to prevent them from experiencing further homeless episodes. Other 
programs, including the DOL's Homeless Veterans Reintegration Program 
(HVRP), have also served to facilitate the successful transition of 
veterans from homelessness. With the current strategy at its ten-year 
mark, the VA and HUD Housing First programs have successfully reduced 
veteran homelessness by nearly 50%. However, based on client trends 
seen in our region, we believe that the client needs and demographic 
profile are beginning to show signs of moving from traditionally 
``homeless'' individuals to those who are ``transitioning'' or ``at 
risk'' (see Figure 1 and Table 1). To serve the new customer base, we 
should begin to adapt the current system to not only focus on homeless 
veterans, but also successful life transitions for at risk veterans.
    While there has been much success using Housing First strategies 
with those who are chronically homeless, our experience shows that 
there are decreasing rates of return as specific subpopulations are 
engaged. At one of our veteran housing organizations the population is 
becoming increasingly younger (Table 1, as evidence of an ongoing 
trend). They are also starting to engage more first-time clients 
(Figure 1) and a large percentage of clients who previously lived with 
family and friends, local institutions or even their own home, rather 
than the streets (Table 1).
    To accomplish this shift in mindset toward successful life 
transitions, a broader set of outcomes need to be developed that 
involves not just housing attainment, but boosting veteran self-
efficacy, development of clear personal goals, and developing or 
enhancing the motivation to succeed in the civilian world. For veterans 
in distress, there are several strategies that correspond to how soon, 
or at what level, we engage.

    <bullet>  At an individual level for those in acute distress, work 
to ensure the right clinical levels of care are accessible and 
available.
    <bullet>  At a systemic level, we need to make sure existing 
organizations are communicating and strategizing across sectors, 
including the continuums of care, medical centers, and other veteran 
wellness and support groups (HUD/VA funded or not).
    <bullet>  Finally, and ultimately, we need to ensure that the 
transition system from military to civilian life is coordinated, 
veteran-centered, and resourced. This includes a greater level of 
information sharing, new and improved programming focused on proactive, 
strength building approaches.

    We believe that regional veteran collaboratives are a key part of 
the solution. This collaborative approach allows the community to 
mainstream best practices, decrease competition, and allow for the 
scaling up of efforts to support transitioning veterans. A coordinated 
community-based approach that brings together diverse sets of resources 
and identifies new opportunities across public and private sectors is 
needed.
    Several collaborative models have been developed including 
AmericaServes in New York, North Carolina, Pennsylvania, and Washington 
State; America's Warrior Partnership based in Georgia; Combined Arms in 
Houston; the San Diego Veteran Coalition and Military Family 
Collaborative and many others. These various efforts have embraced and 
developed many critical aspects of a veteran's collaborative and help 
push communities toward impact in important ways.
    We applaud your review of the mix of programs available for 
veterans, assessing the correct mix for current needs and 
opportunities. We invite you to become more involved in regional 
veteran collaborative efforts, helping develop frameworks and resources 
for groups seeing to have a collective impact for veterans and military 
families. In closing, we would like to stress again the importance of a 
relevant, trusted community organization that can initiate and sustain 
the conversation for aligning strategy on transition support, 
employment and wellness.

References

    Graeser, N. & Corleto, G. (December, 2014). More than a house: 
Ending veteran homelessness by addressing failed transition policies. 
Policy brief: University of Southern California: Center for Innovation 
and Research on Veterans & Military Families. Los Angeles, CA.
    United States Interagency Council on Homelessness (USICH). (2015). 
Opening doors: Federal strategic plan to end homelessness (as amended 
in 2015). Washington, DC: Author.

Appendices


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                                 Table 1. Joseph House Client Survey - May 2016
----------------------------------------------------------------------------------------------------------------
              Variable                                  N                                Percentage
----------------------------------------------------------------------------------------------------------------
       Prior living situation
 
            Family or friends                                    15                                   38%
----------------------------------------------------------------------------------------------------------------
                     Own home                                     7                                   18%
----------------------------------------------------------------------------------------------------------------
        Prison or institution                                    14                                   35%
----------------------------------------------------------------------------------------------------------------
                     Homeless                                    15                                   38%
----------------------------------------------------------------------------------------------------------------
                           VA                                     5                                   13%
----------------------------------------------------------------------------------------------------------------
     Total clients - May 2016                                    56                                  100%
----------------------------------------------------------------------------------------------------------------

    Note: Joseph House began tracking client intakes and outcomes in 
HMIS in 2014. Up until then, Joseph House used an internal spreadsheet. 
The data above represents a blending of both data sources, highlighting 
the most complete and consistent fields.

                                 <F-dash>
                Prepared Statement of Angela F. Williams
    ON ASSESSING FEDERAL PROGRAMS AIMED AT REDUCING VETERANS' 
HOMELESSNESS
    Chairmen Wenstrup and Arrington, Ranking Members Brownley and 
O'Rouke, and Members of the Subcommittees:
    My name is Angela Williams. I am the President and Chief Executive 
Officer of Easterseals, a national network of more than 70 leading 
nonprofit organizations that provide local services and supports to 
individuals with disabilities, veterans, and other Americans who, with 
access to essential services and supports, are successfully 
participating in and contributing to their communities.
    Thank you for inviting me to discuss Easterseals' expertise in 
serving homeless and at-risk veterans and our experience with the U.S. 
Department of Labor's (DOL) Homeless Veterans' Reintegration Program 
(HVRP) and other federal programs aimed at reducing veteran 
homelessness. As a veteran of the U.S. Air Force, I am honored to 
testify before the U.S. House Veterans' Affairs Subcommittees on Health 
and Economic Opportunity on this very important topic. We are all 
indebted to the brave men and women in uniform willing to serve our 
country proudly.
    Easterseals has been actively serving veterans for more than seven 
decades. Founded in 1919, Easterseals expanded our mission in the 1940s 
to help address the unmet needs of World War II veterans returning home 
with service-connected disabilities. Easterseals continues to fill the 
gap between the services veterans need and the services currently 
available through government or other sources. Easterseals serves 
veterans and their families through existing programs, such as 
assistive technology, respite, and medical rehabilitation. In addition, 
Easterseals operates employment, care coordination, and other programs 
that exclusively serve veterans and military families. I am pleased to 
represent Easterseals' legacy in responding to the needs of veterans 
experiencing homelessness and unemployment.

STRATEGY TO REDUCE VETERAN HOMELESSNESS IS HAVING AN IMPACT

    Today's hearing on veteran homelessness is focused on where we are 
and where we are headed. However, it is important to remember where we 
started and the journey we've been on together to this point. In 2010, 
about the time Easterseals started a new phase in its effort to help 
homeless veterans, our country's veteran homeless population grew to 
over 74,000. \1\ Today, based on the most recent Point in Time count, 
veteran homelessness has dropped by nearly 46 percent to about 40,000.
---------------------------------------------------------------------------
    \1\ U.S. Department of Housing and Urban Development, Annual 
Homeless Assessment Report (AHAR)
---------------------------------------------------------------------------
    This dramatic reduction in veteran homelessness didn't happen by 
accident. This progress is a result of the all-hands-on-deck strategy 
developed by Congress and the federal government. This strategy 
recognizes that the most effective way to reduce veteran homelessness 
is to combine the power and resources of the federal government with 
the on-the-ground capability and scope of state and community partners. 
The progress is also attributable to the strong collaboration among 
federal, state, and local partners and the complimentary alignment of 
federal veteran homeless programs across various federal agencies. It 
is clear that not one single program or entity can solve veteran 
homelessness. Rather, it takes the combined strengths, resources, and 
collaboration of many to impact the lives of homeless veterans and at-
risk veterans by helping them to find stable housing and to 
successfully reintegrate and contribute in their communities.
    While we can be proud of our collective accomplishments, there is 
more work to be done to achieve our shared goal of ending veteran 
homelessness. Our nation's veterans and their families deserve this 
commitment and action! Easterseals believes our nation can make even 
more progress in reducing the number of homeless veterans by enhancing 
our current public-private partnership model. As I will detail in my 
testimony, Easterseals asks Congress to improve and expand DOL's 
Homeless Veterans' Reintegration Program and to maintain the effective 
collaboration with the U.S. Department of Veterans Affairs' (VA) 
Supportive Services for Veterans Families (SSVF) Program and the U.S. 
Department of Housing and Urban Development and VA Supportive Housing 
(HUD-VASH) Program. In addition, we ask Congress to expand the 
availability of care coordination and community-based supportive 
services to proactively address reintegration challenges well before 
the veteran meets the at-risk definition for existing federal programs.

ENDING VETERAN HOMELESSNESS ONE VETERAN AT A TIME

    Allow me to share with you a story that brings life to our 
programs. Paula is one of the homeless, unemployed veterans who is now 
contributing to her community as a result of the effective response and 
collaboration among veteran programs and community partners. Paula 
proudly served in the U.S. Air Force before being honorably discharged 
in 1986. Her post-military life includes many challenges and bad 
decisions that led to a failed marriage and a felony conviction. Paula 
made a commitment to herself to positively change her life, hoping a 
move from California to New York would help jump-start her new 
beginning. Finding a job immediately after her move was key to her 
transition. However, she struggled to find a job due to her criminal 
background and other employment barriers, including her age.
    Out of money and without any other support in her new city, the 66-
year-old entered a women's homeless shelter. After learning she was a 
veteran, the shelter connected Paula to a local SSVF provider, who 
began working with Paula to help her find stable housing. When Paula 
explained her desire to find employment, the SSVF provider referred her 
to Easterseals New York, which operates two HVRP grants (New York City 
and Syracuse) and specializes in helping homeless veterans and older 
adults find employment. Easterseals' HVRP team met with Paula to learn 
about her employment goals. Based on her skills and past employment 
background, Paula expressed interest in customer service. She also 
identified her lack of access to transportation and interview clothing 
as additional barriers to obtaining employment.
    The Easterseals employment specialist worked with Paula to update 
her resume and prepared her for potential interviews. An Easterseals 
social worker helped Paula obtain, through HVRP funds, an appropriate 
interview wardrobe and subway cards to get to job interviews. While 
Easterseals was fast at work to help her find a job, the local SSVF 
provider, Help USA, was successful in getting Paula connected with a 
HUD-VASH housing voucher. Paula had renewed hope and purpose, going 
between housing appointments for her HUD-VASH voucher and job 
interviews. Paula first found a place to live. Thanks to the generous 
support of a private donor, Easterseals was able to provide Paula with 
resources to start furnishing her apartment. In November of 2017, just 
three months after enrolling in HVRP, Paula successfully interviewed 
for a Customer Service Representative position at the New York location 
of a major national staffing company. She is working full-time and 
earning $19.00 per hour. Until she received her first paycheck, 
Easterseals provided her with a 30-day unlimited subway card to assist 
her with transportation to and from work. Paula is now successfully 
reintegrated into society, contributing and making a difference. She 
found success locally, all as a result of multiple local organizations 
working together with federal veteran homeless programs. Her story, and 
the behind-the-scenes work of federal, state, and local partners, 
exemplifies why we must strengthen and build from our country's 
homeless veteran strategy - representing promise for the 40,000 other 
homeless veterans nationwide who can benefit from community-based 
supports.

EASTERSEALS ASSISTS HOMELESS VETERANS FIND EMPLOYMENT

    Easterseals is participating in our country's effort to reduce 
veteran homelessness by helping homeless veterans find jobs. 
Easterseals is a leading national provider of employment services, 
specializing in helping job seekers with significant barriers to 
employment find success in the workplace. Our experience in serving 
individuals with disabilities and other most-in-need job seekers made 
us a natural and effective partner to help homeless veterans and 
veterans at risk of homelessness to find jobs and stable housing. We 
are pleased to be testifying today alongside one of our partners, the 
National Coalition for Homeless Veterans (NCHV). We work with NCHV to 
provide education and training to homeless veteran service providers to 
assist them in serving homeless and at-risk veterans with disabilities.
    Understanding the important role employment plays in helping 
veterans transition out of homelessness, Congress authorized the 
Homeless Veterans' Reintegration Program in 1987 as the only federal 
nationwide program focused exclusively on the employment of homeless 
veterans. \2\ Easterseals began our partnership with DOL's Veterans' 
Employment and Training Service (VETS) in 2009 to help veterans 
experiencing homelessness return to the labor force. Easterseals 
affiliates located in Oregon and Maryland secured DOL VETS grants to 
help at-risk veterans find jobs. Today, Easterseals affiliates operate 
11 HVRP grants serving veterans in Indiana, Maine, Maryland, New 
Hampshire, New York, Ohio, Oregon, Virginia, and the District of 
Columbia. During the last program year, Easterseals provided HVRP 
employment and support services to nearly 1,200 homeless or at-risk 
veterans, of whom more than 61 percent found employment during the year 
with an average wage of $13.99 per hour.
---------------------------------------------------------------------------
    \2\ Stewart B. McKinney Homeless Assistance Act, P.L. 100-77
---------------------------------------------------------------------------
    Easterseals has helped homeless and at-risk veterans from across 
the country to find jobs through HVRP. Building from the HVRP model, we 
have found that our successful programs include four important 
elements: veteran-centered approach, effective community connections, 
strong employer engagement, and access to emergency financial support.

    1. Veteran-Centered Approach to Employment Services: Easterseals 
uses a person-centered approach to all of our employment services. Our 
employment specialists meet individually with jobseekers to identify 
their goals, skills, talents, and work history so they can be connected 
to the training and supports they need to achieve success in the 
workplace. Our HVRP team in Cincinnati, which includes Chairman 
Wenstrup's congressional district, is staffed by four U.S. Army 
veterans who regularly tap into their own service and transition 
experiences to assist veterans who enroll in Easterseals Serving 
Greater Cincinnati's HVRP program.
    This person-centered approach is effective in working with homeless 
and at-risk veterans. Every veteran seeking employment and other 
supports comes to HVRP from different backgrounds and life experiences. 
We work extensively to build a trusting relationship and rapport with 
the veterans, which allows us to better assist them in identifying 
their needs and goals. Paula entered the program self-motivated with a 
clear sense of where she wanted to go. In our initial meeting, we were 
able to work with her on an employment strategy, which she used to find 
a job within three months. For a young female veteran we recently 
served, also in New York, the HVRP team met several times before we 
gained her trust. After several appointments, she opened up about her 
military sexual trauma while on active duty in the U.S. Army and her 
recent struggles living out of her car in sub-zero temperatures. This 
initial assessment and enrollment process represents the critical 
foundation from which employment services and other supports are 
identified and delivered. This process is very different based on each 
veteran and their needs.

    2. Community Connection and Collaboration: Easterseals recognizes 
that a veteran and his or her family are best served when they are 
connected to and can benefit from the full strength and alignment of 
the community they call home. Easterseals works closely with community 
partners to ensure that the unique and evolving needs of veterans are 
met effectively. While we specialize in employment services, 
Easterseals affiliates who serve veterans through HVRP or other 
programs may also employ licensed social workers, care coordinators, 
and counselors who can work with veterans to directly meet their needs 
or to connect them to other federal homeless programs and existing 
supports at another local organization.
    Easterseals New Hampshire has a long history of serving veterans 
and National Guard and Reserve Members through community care 
coordination, employment, and mental health and substance abuse 
treatment. In 2016, Easterseals New Hampshire became a statewide HVRP 
provider, working closely with the state's SSVF providers and VA 
supportive housing case managers to provide optimal veteran care and 
support. In addition, Easterseals New Hampshire collaborates with other 
state and community partners, including the New Hampshire Office of 
Veterans Services, Vet Centers, American Job Centers (AJC), housing 
shelters, local VFW, DAV, and American Legion chapters, Homeland 
Heroes, among others.
    It was because of such community connections that John, a New 
Hampshire veteran, received the support he needed to get his life back 
on track. A veteran of the U.S. Navy, John was living in a veterans-
only shelter following completion of in-patient substance abuse 
treatment. The shelter referred John to Easterseals New Hampshire, 
where he was assigned a Care Coordinator, working under a private 
health insurance contract, to focus on improving his overall health and 
well-being while also decreasing his emergency room visits. During this 
engagement, John expressed a deep desire to find and maintain 
employment, which had always been a struggle given his past substance 
abuse problems and transportation challenges after losing his license. 
Easterseals connected John internally to its HVRP team, where an 
Easterseals employment specialist worked with John to update his 
resume, to enroll him in a regular Job Club, and to boost his job 
search skills. On a path toward employment, John was referred by 
Easterseals to other local providers to help him find temporary 
housing, get mental health treatment, and assist him with money 
management. After an aggressive job search, John was recently hired as 
a floor technician where he has earned the respect of his boss and 
coworkers. John is doing well and saving for a car and an apartment 
thanks to the coordinated community response and the behind-the-scenes 
support of federal veteran homeless program funds.
    Easterseals Oregon assists homeless and at-risk veterans in 
Multnomah, Marion, Polk, Jackson, and Josephine Counties as both a HVRP 
and SSVF provider. Easterseals Oregon's HVRP staff regularly connects 
most-in-need veterans to other state and communities partners to help 
them achieve their reintegration goals. The Oregon program's co-
location with the Oregon Employment Department and its day-to-day 
collaboration with Disabled Veteran Outreach Program (DVOP) specialists 
have produced strong results. During the last program year, 96 percent 
of the veterans participating in the Portland (OR) HVRP grant were 
connected to the local VA benefits office, 93 percent were co-enrolled 
with the local AJC, and 55 percent were connected to other community 
supportive services. Their community collaboration and connections 
provide homeless and at-risk veterans with seamless access to the 
supports they need to be successful.

    3. Regular Employer Engagement: Easterseals' success in helping 
homeless veterans find employment relies on an engaged employer 
community. Easterseals affiliates specializing in employment services, 
including those that operate HVRP grants, regularly engage private and 
public sector employers throughout the job search and placement process 
through Business Advisory Councils or other community-based outreach 
activities.
    In Oregon, A&M Transport, G4S Security, and the City of Portland 
have been strong partners, assisting our HVRP and other employment 
programs by hosting mock job interviews and job shadowing opportunities 
for job seekers, sharing their employment and training needs with our 
employment teams, and, ultimately, hiring homeless veterans and other 
job seekers. Easterseals Serving Greater Cincinnati works regularly 
with more than 40 local employers, including Jancoa, Shelterhouse, and 
Nehemiah Manufacturing, to assist and hire HVRP veterans. Our affiliate 
that assists homeless veterans from Maryland, Virginia, and the 
District of Columbia conducts outreach and site visits throughout the 
year with businesses in the region. Easterseals Serving DC / MD / VA's 
focus on business engagement has resulted in strong hiring 
relationships with security firms and other major employers and small 
businesses, including a local Jiffy Lube that is veteran-owned and has 
prioritized the hiring of homeless and formerly incarcerated veterans. 
Our affiliate in Maine plays a leadership role on state and veteran-
specific workforce development boards. Through its recent HVRP grant, 
Easterseals Maine has developed strong local business ties that lead to 
job training and placement opportunities for homeless veterans. For 
example, the HVRP team developed an apprenticeship program with the 
Shipyard Brewery for a Brew Master position in collaboration with the 
GI Bill. In New York, Easterseals holds quarterly training workshops 
for employers in Syracuse and New York City on the benefits of hiring 
veterans. Through HVRP, they often work with businesses including, Rite 
Aid, Home Depot, Ryder Transportation, Spectrum Cable, Macy's, Pratt 
Institute, First Quality Maintenance, Levy Restaurants, Bay City Auto, 
and JP Morgan Chase.

    4. Emergency Financial Assistance: A single unexpected expense or 
bill can immediately derail a veteran's path toward reintegration 
success. Easterseals appreciates that federal homeless veteran 
programs, including HVRP and SSVF, recognize this risk and allow 
federal funds to be used to address certain emergency situations. For 
example, Easterseals helped Paula, the veteran from New York, with a 
subway card using HVRP funds to ensure she could get to and from job 
interviews. This small HVRP investment paid off as evidenced by Paula 
securing a job through one of those interviews.
    However, the needs of homeless and at-risk veterans often far 
exceeds the resources available through HVRP or other public funds. 
Easterseals works nationally and locally to connect with other 
nonprofits and private funders to fill this growing gap. Easterseals 
Serving DC / MD / VA partners with the Salvation Army, Red Cross, 
Volunteers of America, and other charitable organizations in their 
community to assist veterans with subway and bus passes, gas cards, and 
other emergency needs. Easterseals New Hampshire created Veterans 
Count, a private donations-based fund that is used to meet the 
temporary, emergency financial needs of veterans and military families. 
Veterans Count is now active in Connecticut, Kansas, Maine, New 
Hampshire, New York, North Carolina, Rhode Island, and Vermont. These 
funds help stabilize housing needs, pay for work clothing or tools, and 
cover costs to obtain vital documents such as identification cards, 
birth certificates, and military service records, such as a DD Form 
214.
    Nationally, Easterseals has worked with a private donor for the 
last five years to meet the unique needs of female veterans, including 
emergency financial support. Last year, we saw a huge spike in need 
following the hurricanes. Lisa, who served eight years in the U.S. 
Marine Corps, was one of the veterans who reached out to Easterseals 
after her Houston home was flooded during Hurricane Harvey. Easterseals 
was able to provide Lisa with timely assistance that allowed her and 
her family to get into a temporary apartment while they rebuild their 
home. In 2017 alone, more than 1,500 female veterans-several impacted 
by hurricanes-received care management services, with more than 100 
provided emergency financial assistance, through the generosity of this 
Easterseals donor.

HVRP REPRESENTS A POSTIVE RETURN ON INVESTMENT

    Federal investments in programs such as HVRP, SSVF, and HUD-VASH 
are paying off with the dramatic reduction in veteran homelessness 
since 2010. This is especially true with DOL's Homeless Veterans' 
Reintegration Program. About 17,000 veterans receive services through 
HVRP under current funding levels. Despite serving the chronically 
homeless or hardest to serve veterans, HVRP exceeded its employment 
placement rate for the last program years. \3\ The average $2,500 cost 
per participant, based on DOL's program year 2018 target, is more than 
paid for when veterans secure employment through the program.
---------------------------------------------------------------------------
    \3\ U.S. Department of Labor, FY 2018 Congressional Budget 
Justification
---------------------------------------------------------------------------
    Earlier, I told you about Paula, the Air Force veteran from New 
York. She came to HVRP seeking employment but had significant barriers 
to employment, including a criminal conviction and gaps in her work 
history. Through the supports and services available through HVRP, 
Paula is now earning approximately $3,000 a month, well over the 
average HVRP cost per person (based on her full-time, $19 per hour 
customer service job). She is a taxpayer, contributing back to the 
community that helped her get back on her feet.
    We are finding similar HVRP success across the country. Through the 
Veterans with Families HVRP grant that Easterseals operates locally, 78 
veterans from Maryland, Virginia, and the District of Columbia were 
enrolled in the program last year, 66 of whom found jobs, with an 
average starting wage of $20.42 per hour. In New Hampshire, which 
serves high percentages of chronically homeless, 45 of the 77 HVRP 
enrolled veterans were placed into employment with an average hourly 
wage of about $10.00 per hour. Easterseals Crossroads provides HVRP 
services in the eight county area surrounding Indianapolis (IN). Last 
program year, 107 of the 153 homeless veterans in Easterseals 
Crossroads' program found employment, with an average hourly wage of 
$13.04. In Syracuse (NY), 49 of the 76 veterans who enrolled in HVRP 
during the last full program year exited for employment, averaging 
$11.99 per hour. In Oregon, 56 of the 95 veterans from Salem and Marion 
and Polk Counties found jobs within the year with an average hourly 
wage of $14.32.
    In each example, the veterans who were experiencing homelessness 
and joblessness earned, on average, more in their first couple months 
of employment then the program invested in them, based on the national 
HVRP cost per veteran. And based on a 2016 independent HVRP review, the 
mean hourly wages of HVRP participants rose by more than 13 percent 
over the program years analyzed, from $10.21 in 2009 to $11.55 in 2013. 
\4\ HVRP and its companion housing-first federal programs represent a 
positive return on their public investment.
---------------------------------------------------------------------------
    \4\ 2016 Evaluation of the Homeless Veterans' Reintegration 
Program; Avar Consulting, Inc.

---------------------------------------------------------------------------
RECOMMENDATIONS FOR SUPPORTING HOMELESS VETERANS

    Easterseals strongly believes that the federal response to veteran 
homelessness has been strong and effective by engaging on-the-ground, 
community partners. Easterseals asks Congress to consider the following 
recommendations to help strengthen federal homeless veteran programs to 
make them even more effective.

    1. Support Full Funding and a Long-Term Extension of HVRP: 
Easterseals appreciates the bipartisan support in Congress for HVRP and 
the current legislative efforts to help accomplish our HVRP 
authorization and funding goals. Easterseals supports H.R. 4451, the 
Homeless Veterans' Reintegration Programs Reauthorization Act of 2017, 
that was introduced in November by Health Subcommittee Chairman 
Wenstrup and Ranking Member Brownley. Among other things, the bill 
would extend HVRP through fiscal year (FY) 2022 at $50 million a year. 
In the past, HVRP has been extended one year at a time. A multi-year 
extension would demonstrate Congress' commitment to the employment 
needs of homeless and at-risk veterans. Easterseals also wants to thank 
Economic Opportunity Subcommittee Member Kathleen Rice of New York for 
her work with Representative Greg Walden of Oregon on a bipartisan 
effort the last two years to boost HVRP funding. This effort was 
supported by several members of these distinguished subcommittees. 
Increased funding would allow DOL to expand the HVRP grant size to 
provide more resources for retention and other services, such as 
training, when necessary, to meet the employment goals of our veterans.

    REQUEST: Easterseals urges Congress to approve a multi-year 
extension for HVRP (as proposed in H.R. 4451) and to raise the non-
defense discretionary budget caps and fund HVRP in FY 2018 at no less 
than $47.5 million, as recommended in the U.S. House funding bill for 
DOL.

    2. Expand Eligibility of HVRP Services: Veterans receiving housing 
support through SSVF or HUD-VASH are not considered homeless for 
purposes of HVRP. As a result, these veterans are unable to benefit 
from HVRP employment services, even though the veteran may be 
unemployed or underemployed. Therefore, Easterseals supports the 
changes in H.R. 4451 and its companion bill in the U.S. Senate (S. 
1473) that would expand HVRP eligibility to veterans who receive 
housing assistance through federal homeless programs and who are 
transitioning from being incarcerated. In addition, we have found 
inconsistency with what is considered imminently at risk of losing 
housing or employment. With proper and common-sense documentation, 
veterans who have fallen behind in rent, especially after losing a job, 
should be considered imminently at risk and eligible for HVRP 
employment services. Finally, Easterseals wants to highlight the 
growing employment and housing needs of some National Guard and Reserve 
Members who, based on their status, are not eligible for HVRP services.

    REQUEST: Easterseals urges Congress to expand eligibility of HVRP 
to include other at-risk veterans. Easterseals supports the changes 
proposed in H.R. 4451. In addition, we ask Congress to include a new 
section within H.R. 4451 to ensure that all veterans who are imminently 
at risk of losing their housing or employment are eligible for HVRP 
services.

    <bullet>  AMEND H.R. 4451 by INSERTING the following after section 
2(c)(4):
    ``(5) veteran who will imminently lose his or her housing or 
employment without intervention services. Imminent housing risk can 
include documented default in rent or mortgage or eviction notices. 
Imminent employment risk can include probationary periods, poor 
performance reviews or other employment warnings.''

    3. Increase HVRP Grant Size to Provide Dedicated Resources for 
Retention and Other Services: DOL, in its most recent congressional 
budget justification, accurately described what Easterseals HVRP 
providers are seeing on-the-ground when enrolling veterans into the 
program. DOL noted: ``Even though the homeless veteran population has 
significantly decreased since 2009, those remaining homeless veterans 
consist of the chronically homeless or hardest to serve.'' \5\ Veterans 
with significant barriers to employment, such as addiction and mental 
health challenges, criminal backgrounds, and chronic homelessness, 
require more costly and intensive services to help them find employment 
success. Easterseals Serving Greater Cincinnati, which includes parts 
of Chairman Wenstrup's district, recently assisted a veteran with 
significant barriers. After leaving the military in 2014, Jason 
struggled with a divorce and its impact on his relationship with his 
children. He turned to alcohol, which led to his trouble with the law. 
When Easterseals connected with him, he had served his jail time and 
completed alcohol treatment. We met with Jason to identify his 
employment goals and worked with him for several months before he 
landed a job in an area he is passionate about: physical fitness. He 
works at a gym where he mentors others on becoming healthy and 
improving their fitness. He has also focused on his own health and 
well-being and has been sober since he was released from jail.
---------------------------------------------------------------------------
    \5\ U.S. Department of Labor FY 2018 Congressional Budget 
Justification
---------------------------------------------------------------------------
    Our work with veterans, like Jason, doesn't end when they are 
successful in finding a job. It represents just one part of a journey. 
We check in regularly and are available to assist Jason and all of the 
veterans we work with through HVRP to help address challenges that may 
arise following their employment. These ongoing retention costs will 
also increase in serving the hardest-to-serve, chronically homeless 
veterans. One Easterseals HVRP team leader said, ``due to the very 
nature of these veterans' histories and severity of need, those who 
obtain employment often subsequently lose it or are put on probation 
and need assistance due to reoccurring issues, such as substance abuse, 
and require costly intensive and individualized services.'' A 2017 
national homeless study affirmed the need to prioritize job retention 
and reemployment services, especially for jobseekers with significant 
barriers to employment. \6\ Also, our affiliates find it difficult to 
deploy appropriate staff and resources in rural areas given the limited 
grant sizes. Even with the recent grant ceiling increase, the HVRP 
grant amount fails to meet ``the costs of serving each homeless 
individual,'' as concluded by the recent HVRP evaluation. \7\
---------------------------------------------------------------------------
    \6\ Integrating Rapid Re-Housing and Employment , Heartland 
Alliance 2017 Study
    \7\ Evaluation of the Homeless Veterans' Reintegration Program, 
Avar Consulting, Inc. Study, 2016

    3REQUEST: Easterseals urges Congress to support an increase in the 
urban and rural grant amounts to address the growing and evolving needs 
of homeless veterans enrolled in the program. In particular, 
Easterseals recommends additional funding for retention, rural outreach 
---------------------------------------------------------------------------
and services, and for expanded intensive case management.

    4. Include Greater HVRP Flexibility to Better Match the Needs of 
Veterans: Greater program flexibility is sometimes needed to help HVRP 
providers effectively address the unique needs of homeless and at-risk 
veterans. DOL measures HVRP grant providers on the number of veterans 
who attain a training credential. Easterseals helps veterans develop 
new skills and credentials by connecting them to specialized training 
that includes security, commercial driver's license (CDL), medical 
coding, information technology, and nursing. However, the training 
performance requirement often runs counter to the immediate, sometimes 
desperate, need of the veteran to find employment quickly to maintain 
housing or other needs. The needs of each veteran should be the primary 
factor for the type of services and training required to achieve 
employment. In another example, an Easterseals affiliate was working 
with a homeless veteran who, after securing a job, needed 
transportation assistance until she received her first paycheck. HVRP 
could cover subway or bus passes, but not toll fares (by adding 
resources to the veteran's E-Z Pass card) even though her car, based on 
her job's location, was the better transportation option. Also, in some 
communities that lack available transitional or affordable housing, the 
prohibition on using HVRP funds to pay for rent or housing deposits 
delays or prevents a veteran's ability to meet his or her goal.

    REQUEST: Easterseals recommends that Congress support greater 
flexibility within HVRP, on a case-by-case basis, to address the 
individualized needs of homeless and at-risk veterans. In addition, 
Easterseals recommends the following report language to H.R. 4451.

    <bullet>  INSERT the following language in the H.R. 4451 report:

    ``The Committee recognizes the individualized barriers and unique 
challenges faced by veterans who are homeless or at risk of 
homelessness. As such, the Committee provides the Secretary of Labor 
the authority to waive a rule, on a case-by-case basis, if a waiver 
greatly improves the veteran's ability to find stable housing and to 
become gainfully employed.''

    5. Expand Early Access to Community Care Coordination to Address 
Veteran Reintegration Needs: The community care coordination and case 
management model used in HVRP is the foundation of HVRP. The community-
based, holistic approach ensures veterans and their families have 
access to a continuum of care that is local, timely, and effective. Not 
all veterans who could benefit from community care coordination have 
access to these services. Providing veterans with access to care 
coordination and supportive services earlier in the process will, based 
on our experience in the field, address the problems before they turn 
into a crisis, saving time, heartache, and money. Congress should 
consider ways to expand federally funded community care coordination or 
case management to proactively meet the challenges of veterans well 
before they meet the homeless and unemployed eligibility criteria of 
programs like HVRP and SSVF.

    REQUEST: Easterseals recommends that Congress create a pilot 
program at the VA that uses this holistic model to address the 
reintegration needs of veterans, including those in rural areas with 
limited access to other supports, who would otherwise not qualify for 
existing federal veteran homeless or employment programs.

CONCLUSION
    Easterseals appreciates Congress' commitment to and investments in 
public-private partnerships and community-based solutions to respond to 
veteran homelessness. Together, we have improved the lives of thousands 
of America's veterans who are now living, working and contributing to 
their communities. Thank you for considering Easterseals' views. I look 
forward to your questions.

                                 <F-dash>
                   Prepared Statement of Stephen Peck
    Good morning. My name is Stephen Peck and I'm the President and CEO 
of U.S.VETS. I'm also a Vietnam veteran. I served with the First Marine 
Division near Danang in '69-`70, and I've been working for homeless 
veterans since 1991. U.S.VETS has been in the fight against veterans' 
homelessness since 1993 when we started our first program in Inglewood, 
California. Since then we have grown into the largest veteran-specific 
non-profit housing and service provider in the country, providing 
housing and services to 3300 veterans every night, and providing 
homelessness prevention, employment, and mental health services to an 
additional 5,000 veterans annually in the communities we serve.
    I'm also the president of the California Association of Veteran 
Service Agencies, seven veteran non-profits that collectively provide 
housing and care to more than 25,000 veterans each year from Eureka to 
San Diego.
    Despite hundreds of millions of dollars spent, numerous government 
policies, and the best efforts of hundreds of communities, there are 
still more than 40,000 veterans living on our streets - and the number 
is rising across the nation. In California, which has 25% of the 
nation's homeless veterans, the number of homeless veterans has risen 
nearly 20% this past year, and in Los Angeles, the number rose 57%! 
This is no time to be taking our eye off the ball.
    The five-year ``Getting to Zero'' effort, launched by the Obama 
Administration in 2009, was always an aspirational political goal. 
Federal estimates say the number of homeless veterans dropped by more 
than half from 2010 to 2016, a significant accomplishment. But faced 
with an intractable homeless veteran population that refused to drop 
further, the administration moved the goalposts.
    ``Functional Zero'' was the new goal, a complicated formula that 
basically said that if there were enough homeless beds in each 
community to house every veteran who wanted (and asked) to get off the 
street, then the goal was achieved. But it has been difficult for 
communities to achieve even this reduced goal because the number of 
veterans falling into homelessness every month, is outstripping 
communities' efforts to keep up.
    Because that five-year effort was not completely successful, there 
is a sense that the government is moving on to other problems. There is 
no longer an emphasis and determination to get every veteran off the 
streets. This shift in focus is evident in two ways:
    First: The proposal by the VA to take permanent housing supportive 
service dollars out of the special projects category, where is it 
protected, and placing these dollars into the general fund, where 
medical directors can redirect it at will. While they have said that 
they will not shift these dollars, the VASH funds remain in the general 
fund line item.
    And second: VA's overall management of the HUD-VASH program. It is 
plagued by lack of accountability, insufficient data collection, and 
inadequate outcome measures.
    Together, these two factors represent a direct attack on our 
ability to get veterans off the street and into permanent housing, and 
provide the case management and supportive services that will keep them 
there.
    We are talking about a population that is extremely vulnerable. 
Study after study confirms this and I have included references in my 
written testimony. 37% of HUD-VASH participants have mental or 
behavioral health issues, including PTSD, depression, psychoses and 
substance abuse. Other issues include situational factors such as 
unemployment and the breakup of relationships, social isolation, and a 
lifetime of poverty and adverse events. All of these factors, coupled 
with their homelessness, make these veterans much more vulnerable to 
suicide, which I will talk about in a minute.
    These factors confirm our belief that the support services provided 
along with the permanent housing in the HUD VASH program are essential 
to its success.
    The Housing First model that the VA professes to follow requires a 
client/case manager ratio of 25 to 1. Additionally, it requires access 
to assistance, with a simple phone call, 24 hours a day.

    That is not what's happening.
    We have project based VASH beds at 5 of our sites and our clinical 
directors report that VA social workers are, at best, providing minimal 
coverage. 75 VASH vouchers require 3 full-time case managers in the 
Housing First model - we never have three, rarely have two, and our 
clinical staff picks up the slack. This is true of many communities 
across the country.
    I've attached 3 letters to my written testimony from three 
different communities that have been awarded HUD Vouchers, Kern County 
and San Francisco, CA, and Miami, Florida (Attachments 1,2,3). In each 
case, the VA is indicating that it does not have the resources to 
provide adequate case management coverage for the number of HUD 
vouchers awarded. The result is many of the vouchers go unused, while 
veterans languish on the streets.
    If I understand correctly, funding that congress has appropriated 
to the VA, specifically for VASH case management positions, is for some 
reason not available
    Vulnerable veterans still living on our streets need every dollar 
of this funding. If the VASH program were turned into a grant program, 
experienced veteran non-profits would assume full responsibility, would 
spend every dollar appropriately, and could be held to outcome measures 
that we are already used to assuming. Because our programs are 
residential, we have staff 24/7 and are used to responding to client 
issues day and night. We provide case management for 423 beds of 
permanent supportive housing with a 92% retention rate. By contrast, a 
recent Inspector General Study reports a 70% success rate of the HUD-
VASH program. This study also states that the reason the vast majority 
of those veterans exited the program was unknown ``as HUD's systems do 
not have the capacity to track this information.''
    If a non-profit provided that level of coverage while contracted 
with the VA, we would lose the contract.
    I have heard various reasons why the HUD VASH money is being put 
into the General Fund category. One of them is so that Medical 
Directors are free, if necessary, to redirect funds to one of the 
Secretary's 5 main priorities, one of which is suicide prevention. Let 
me give you some statistics:
    An estimated 9.3 million adults (3.9% of the adult U.S. population) 
reported having suicidal thoughts in the past year. This compares to 
12.1%-18% of the homeless veteran population who have had suicidal 
thoughts in the past 30 days.
    A study by the VA National Center on Homelessness Among Veterans 
stated that the rate of suicide attempts among homeless veterans was 20 
times higher than the rate of suicide attempts among all veterans.
    So I think it's safe to say that the effort to end homelessness 
among veterans is part of that suicide prevention effort. It is part of 
that effort not just because these veterans have been housed, but 
because they are supposed to be provided knowledgeable, compassionate 
case management on a regular basis which gives veterans the skills and 
reliable support that will fend off the despair that threatens to 
overcome their will to live.
    We all have been at this for a long time and you might ask what is 
your return on investment - you've put a lot of money into this and 
still haven't solved the problem. My 25 years of experience in helping 
homeless veterans tells me that if you pull back now, the number of 
homeless veterans on the street will continue to grow, and those 
veterans, in their desperation, will fall back on the only services 
available to them, which are the very expensive emergency mental health 
and medical services that are available in communities. They will spend 
time in jail, they will use emergency homeless shelters - and they will 
continue to die, having been abandoned by the country they fought for.
    Solving homelessness is not a one-time fix, it is an ongoing effort 
to mitigate the inequality that exists in our system for veterans, who 
through lack of opportunity, lack of education, mental illness, combat 
trauma, or other deficits, end up on the margins of society. We are 
paying for this tragedy one way or another so we simply have to make 
the decision that these veterans' lives are worth saving.

References

    #1 Pathways Into Homelessness Among Post-9/11-Era Veterans
    S Metraux, M Cusack, TH Byrne, N Hunt-Johnson, G True. 2017. 
``Pathways into homelessness among post 9/11 era veterans.'' 
Psychological Services, Volume 14, Issue 2, pp. 229 - 237.
    https://hdl.handle.net/2144/22751
    Boston University
    Stephen Metraux
    U.S. Department of Veterans Affairs, Philadelphia, Pennsylvania, 
and University of the Sciences

    #2 HUD-VASH EXIT STUDY
    FINAL REPORT, September, 2017
    Prepared for
    U.S. Department of Housing and Urban Development
    Prepared by
    Ann Elizabeth Montgomery, VA National Center on Homelessness Among 
Veterans
    Meagan Cusack, VA National Center on Homelessness Among Veterans
    https://www.huduser.gov/ portal/sites/default/ files/pdf/ HUD-VASH-
Exit-Study.pdf

    #3 U.S. Department of Housing and Urban Development (HUD), Office 
of Inspector General's (OIG) OFFICE OF AUDIT, REGION 9, LOS ANGELES, 
CA, 2014
    https://www.hudoig.gov/ sites/default/ files/documents/ 2014-LA-
0003.pdf

    #4 Evaluation of Housing for Health
    Permanent Supportive Housing Program, 2017, RAND Corporation, Santa 
Monica, Calif.
    Sarah B. Hunter, Melody Harvey, Brian Briscombe, Matthew Cefalu
    https://www.rand.org/ pubs/research--reports /RR1694.html

    #5 The 2017 Annual Homeless Assessment Report (AHAR) to Congress, 
December, 2017
    https://www.hudexchange.info/ resources/documents/ 2017-AHAR-Part-
1.pdf

    #6 Suicidal Self-Directed Violence Among Homeless US Veterans: A 
Systematic Review. Hoffberg, Adam & Spitzer, Elizabeth & Mackelprang, 
Jessica & A. Farro, Samantha & Brenner, Lisa. (2017). https://
www.ncbi.nlm.nih.gov/ pubmed/28731200

    #7 CDC Suicide Facts at a Glance
    https://www.cdc.gov/ violenceprevention/pdf/ suicide-datasheet-
a.pdf

    #8 Housing Placement and Suicide Attempts Among Homeless Veterans
    VA National Center on Homelessness Among Veterans
    Lindsay Hill, Project Coordinator
    http://dcoe.mil/ files/2012SPC-Hill-Housing--Placement.pdf
                             ATTACHMENT ONE
    Miami VA Healthcare System

    In Reply Refer To: 546/00/122

    Teresa Patterson
    Broward County Housing Authority
    4780 North State Road 7
    Lauderdale Lakes, FL 33319

    Dear Ms. Patterson:

    Thank you for your interest in p.roviding Homeless Services to 
Homeless Veterans. The Miami VA Healthcare System is committed to 
providing HUD VASH services to eligible Veterans. Tremendous progress 
has been made in reducing Veteran Homelessness in Broward and Miami-
Dade counties.
    Historically, requests for additional HUD VASH vouchers have been 
supported with additional resources to provide case management to the 
high-risk chronic homeless individuals. However, due to a shift in the 
allocation of resources for HUD VASH VA Central Office, this is no 
longer the case. This has resulted in a reorganization and 
consolidation of the program. As a result, the Miami VA Healthcare 
System is unable to support the request for additional HUD VASH 
Vouchers at this time, but the request can be revisited in 6-9 months. 
We continue to be committed to providing the highest quality services 
to those Veterans who are currently receiving HUD VASH services at this 
time.
    If you have any further questions, you may contact Beth Wolfsohn, 
Homeless Program manager at (305) 575-7000 extension 2511.

    Sincerely,

    Paul M. Russo, MHSA, FACHE, RD
    Medical Center Director

                             ATTACHMENT TWO
    HOUSING AUTHORITY
    OF THE COUNTY OF KERN

    Creating brighter futures ...one home, one family at a time

    California Veterans Assistance Foundation
    Attn: Deborah Johnson
    2215 Buena Vista St.
    Bakersfield, CA 93304

    Dear Mrs. Johnson,

    The Housing Authority of the County of Kern has been issued eight 
allocations of VASH vouchers since the program began in 2012. These 
allocations total 160 vouchers, and as of today, there are still 25 
vouchers available . Of these 25 vouchers, 21 have never been issued 
due to the lack of staffing to support the case management component.
    There are currently 75 homeless veterans on the communities By-
Name-List who need housing solutions. As of December 13, there were 25 
homeless veterans on the Permanent Supportive Housing (PSH) 
prioritization list. These veterans could be served by the VASH 
program, if there was adequate case management. Instead they are being 
matched to other PSH programs, utilizing resources that are needed for 
homeless individuals with no other program options.
    The Housing Authority is currently meeting with the VASH team 
quarterly to brainstorm ways we can reach 100% utilization, and ensure 
the most vulnerable veterans get this resource first. At the last 
meeting in October of 2017 the VASH team expressed that another social 
work position was authorized. As of today, that position has not been 
staffed, and the VASH team does not know the status. In short, the 
understaffed VASH program in Kern County has several implications on 
veteran homelessness:

    1. Kern County might not receive the appropriate allocation of 
future vouchers .

    2. HUD might decide to recapture the vouchers already issued due to 
underutilization.

    3. Veterans are utilizing community resources that could be 
provided to non-veteran homeless,

    4. Because the VASH team has such high caseloads, they are not able 
to fully participate in the community's work to end veteran 
homelessness.

    Thank you for taking the time to review the status of the VASH 
program in Kern County. If you have any other questions please feel 
free to contact me.

    Sincerely,

    Heather Kimmel
    Assistant Executive Director

                            ATTACHMENT THREE

    SAN FRANCISCO VA HEALTH CARE SYSTEM
    4150 Clement Street
    San Francisco, CA 94121

    Barbara Smith
    Actiiig Executive Director
    San Francisco Public Housing Authority
    1815 Egbert Avenue
    San Francisco, CA 94124

    Dear Ms. Smith,

    The Ending Veteran Homelessness Initiative remains a priority of 
the San Francisco VA Health Care System, and the Housing and Urban 
Development -Department of Veterans Affairs Supportive Housing (HDD-
VASH) program is an important part of our ongoing effort to reach 
functional zero.
    Based on our internal deliberations, the San Franeisco VA Health 
Care System affirms with this letter our commitment to support a new 
allocation of HUD-VASH vouchers to:

    San Francisco -up to 50 vouchers

    Support for this allocation includes sufficient clinical staff of 
an appropriate discipline to provide case management as mandated in VHA 
Directive 1162.05 "Housing and Urban Development Department of Veterans 
Affairs Supportive Housing Program." Material support shall include 
office space and furniture, IT equipment, government owned vehicles or 
compensation for use of privately owned vehicles, and adequate clinical 
supervision and oversight.
    This allocation of vouchers is predicated upon receiving the 
anticipated support of additional funding for clinical staff to provide 
the necessary clinical supervision and oversight of the HUD- VASH 
Veterans.

    Sincerely,

    Bonnie S. Graham, MBA
    Health Care System Director
    San Francisco VA Healt Care System

                                 <F-dash>
                  Prepared Statement of John W. Martin
    First and foremost, we thank the members of the U.S. House of 
Representatives, and more specifically the Committee on Veteran's 
Affairs Subcommittee on Health and the Subcommittee on Economic 
Opportunity for the invitation to the Opportunity Center for the 
Homeless to testify at the hearing scheduled for Thursday, January 18, 
2018. In presenting our testimony, we would like to preface our 
comments as those of a provider, with a ``boots on the ground'' 
mentality. We further represent that our comments, both within this 
written statement and in our testimony, represent those of an 
organization that has been `in operation for 24 contiguous years - an 
organization that was founded on and continues to operate on the 
principle of ``Recovery through Service''. A majority of our staff has 
a lived experience with homelessness and thereby understands the 
realities that those that are homeless face.
    In preparation for this hearing, we met with several community 
service providers to ensure that the comments noted herein are 
reflective of the community, and not that of a single organization. In 
so doing it is important to first understand the context in which these 
statements are being made through a brief introduction of the 
community, its primary source of funding, and a picture of veteran 
homelessness in El Paso.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Background
    El Paso County is home to over 837,000 \1\ residents. It occupies 
over 1,000 square miles at the farthest west tip of Texas, bordering 
both New Mexico and Ciudad Juarez, Chihuahua, Mexico. The City of El 
Paso is the sixth largest in Texas, and the largest Texas border 
community.
---------------------------------------------------------------------------
    \1\ United States Census Bureau, Quick Facts, El Paso County, Texas 
- Population Estimates 07/01/2017
---------------------------------------------------------------------------
    Income in El Paso County is significantly lower than the rest of 
the state. A little over 22% of El Paso County residents live below 
100% of the Federal Poverty Level (FPL). A little over half of El Paso 
County residents live below 200% of FPL. \2\
---------------------------------------------------------------------------
    \2\ United States Census Bureau, Community Facts, El Paso County, 
Texas
---------------------------------------------------------------------------
    There are a total of 40 programs/agencies that provide housing 
(emergency shelter, transitional, and permanent housing) to the 
homeless within our community--that based on the most recent point-in-
time count (conducted January 26, 2017) provided housing to 1,242 
individuals \3\. The Opportunity Center is the primary provider of 
services to the homeless as illustrated through the point-in-time 
results that reflect that the Opportunity Center housed 30% of the 
total homeless population, within our community, on that evening and 
53% of the single adult homeless population. The Opportunity Center is 
a no-barrier shelter, allowing all to access services.
---------------------------------------------------------------------------
    \3\ Adjusted Point in Time based on reported occupancy within the 
Opportunity Center for the Homeless.
---------------------------------------------------------------------------
    The City of El Paso is solely reliant on funding received through 
the Department of Housing and Urban Development (HUD) through Continuum 
of Care Funds (primary), Emergency Shelter Grant (secondary), and the 
Community Development Block Grant (tertiary). The primary and secondary 
funding streams have been and continue to be aligned with the federal 
objectives, as delineated within Opening Doors: Federal Strategic Plan 
to Prevent and End Homelessness (amended 2015), generally referred to 
as Housing First. The City and County of El Paso currently provides no 
funding to supplement the referenced sources.
    The re-alignment of public funding in line with the federal 
strategic plan has significantly curtailed and/or eliminated resources 
within El Paso for the homeless. This directly impacts the efficacy of 
the Continuum of Care as it relates to those that are homeless, to 
include the veteran homeless population.

Organizational Summary

    The Opportunity Center for the Homeless (OC), coming to the close 
of its 24th year of operation, consists of: two homeless resource 
centers - one for single adult men, one for single adult women; one 
emergency shelter for families; and eight residential programs for the 
chronically homeless, elderly, disabled, single women, mentally ill, 
veterans, and men and women in school/work programs. The veterans 
program is a transitional living center, the balance is permanent 
housing.

Community Funding

    Funding received through HUD, and more specifically the Continuum 
of Care (CoC) is the primary funding stream for our community. The 
chart on the following page tracks community CoC funding from 2005 
forward.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Key points include:

    <bullet>  The community, overall, has lost funding in the amount of 
$552,971 or 20.1% from 2014 forward. All funding through the CoC is now 
directed toward housing, increased inventory.
    <bullet>  The community has lost funding, and associated services, 
under CoC, associated with support services, equal to $1,211,158 per 
year. The support services include; mental health care, youth services, 
transportation, day care, legal, support services (case management), 
substance abuse, and relapse. All services focused on the homeless 
population in general.
    <bullet>  This has resulted in an increased inventory of permanent 
beds, but absent of support services -the efficacy of the system is 
jeopardized as it relates to sustainability and recidivism with a 
specific emphasis on the individual (i.e. return to homelessness).

Veteran Homelessness in El Paso

    In recent years, there has been a strong focus through cross-agency 
initiatives to end veteran homelessness, chronic homelessness, and 
homelessness as it relates to families and youth.
    For purposes of this discussion, our comments will now be focused 
on the veteran homeless initiative. As stated previously, the 
Opportunity Center provides the only no-barrier shelter in El Paso for 
both men and women (separate facilities). We also operate the Veteran's 
Transitional Living Center (VTLC).
    Provided on the following page, are charts which depict the number 
of veterans served (unique), and shelter nights, for those that access 
our program(s) with an emphasis on the two 24-hour resource centers 
(male and female) under the Opportunity Center.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In 2017, the veteran population within our shelters comprised 14% 
of the total population served, and utilized 19% of the total shelter 
nights (services).
    The figures for 2017 as it relates to individuals served are level 
with 2016. There is an increase in veteran shelter nights by 30% in 
2017 from the prior year. In digging into the data further, a majority 
(67.4%) are over the age of 50. Additionally, it is the older homeless 
veteran that consumes a majority of the shelter nights at 81% over the 
total veteran homeless population.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    We, as with many providers who work with the homeless, observe that 
the hard living conditions of homelessness cause the aging process to 
speed up and that people living in homelessness are less likely to 
survive into old age. The National Coalition for the Homeless 
references in their Fact Sheet on the homeless elderly that street 
conditions are so severe that ``a fifty year old living on the street 
may possess physical traits resembling a 70 year old.''

Discussion

    Recent initiatives include federal agencies working together with a 
common objective; in this discussion that objective is to end veteran 
homelessness - a goal that we as a community have not yet attained.
    The City and County of El Paso has historically relied exclusively 
on funding received through the Department of Housing and Urban 
Development (HUD) to mitigate and end homelessness. HUD funding (as 
with the VA) has historically provided for sustainable programming 
within communities such as El Paso. A community with stated, limited 
financial resources
    As demonstrated in earlier charts, we have seen an overall 
reduction in HUD (CoC) funding of 20% or approximately $523,000. This 
has resulted from a shift in funding priorities toward housing from 
``safety net'' services. This in and of itself is not reflective of the 
full picture, for in reality we have lost in excess of $1,211,158 per 
year in service related dollars that comprise the ``safety net'' - 
services which are required in support of Housing First initiatives, 
and currently unavailable.
    As a direct result, we have seen an increase in the number of 
permanent beds available to the homeless, both veteran and non-veteran 
but we do not have the ability to provide the appropriate support to 
the individual to ensure sustainability and prevent recidivism, thus 
reinforcing the need to provide extended care through ``safety net'' 
services.
    This is further compounded by the historical, local limitation(s) 
imposed on recipients of permanent housing funds within our community. 
A majority of housing assistance is limited to three months, to include 
SSVF and Rapid Rehousing funds - the principal source of assistance for 
homeless veterans. It is recognized by all, that the two programs as a 
result of veteran eligibility requirements are needed to run in concert 
with one another - thus the need for a single Coordinated Entry 
process. For veterans that don't meet the SSVF eligibility 
requirements, HUD funding through Rapid Rehousing is the remaining 
option. However, with a majority of assistance being limited to three 
months - and with limited support upon housing placement, recidivism is 
occurring which leads to further displacement, trauma, and distrust 
with the system. This is reflective of the increased number of veteran 
shelter nights within our resource centers.
    Sustainability is further complicated through the lack of support 
services for employment - one of the most critical. For one must 
recognize that even though housing is in place the homeless are still 
struggling with their own challenges that placed them within 
homelessness. Such challenges include poverty, high housing costs, and 
personal issues such as struggles with mental health and substance 
abuse. The desire is to integrate these individuals into their 
community.

    Employment is recognized as one of the most critical and effective 
strategies in preventing and ending homelessness \4\. As such, it 
should be noted that:
---------------------------------------------------------------------------
    \4\ Sources Shaheen and Rio (2007) and ABT Associates (2003).

    <bullet>  Given the opportunity, those that are homeless can and 
want to work
    <bullet>  Employment offered at the earliest stages of engagement 
with the homeless helps them develop trust, motivation, and hope.
    <bullet>  Work is a critical recovery tool for people with 
substance abuse and mental health histories, supporting their continued 
stability.
    <bullet>  Employment services offered within a supportive housing 
model result in increased net earnings for tenants and decreased 
reliance on public entitlements.
    <bullet>  Cost-savings and additional tax revenue provided by 
client income offset more than three quarters of funder investment.

    Traditional employment services are based on the premise that 
clients must be ``job ready''. Employment programs need to diverge from 
this premise to one whose underlying philosophy is that anyone is ready 
for work. For in reality, the individuals have varying lengths of 
homelessness - in many cases for several years and they are still 
struggling with their personal challenges as well as having minimal 
work and education histories, along with criminal records. Furthermore, 
an individual's interest in securing employment can motivate them to 
take positive steps in their lives. Additionally, it is recognized that 
entry-level jobs often do not lead to long-term employment or financial 
security.
    As such, this needs to be recognized under a Housing First model 
for individuals to view professional growth potential and career 
ladders as fundamental components of work experience, and thus personal 
security.

Closing

    A successful, holistic strategy to end homelessness requires that 
we incorporate three basic principles in our objectives as it relates 
to ending homelessness; the provision of services must be person-
centered, client-directed, and strengths-based.

    <bullet>  A person-centered approach is based on the idea that an 
individual is ultimately responsible for his or her self-change 
allowing the individual to change for the better.
    <bullet>  A client-directed approach means that the client 
ultimately decides whether to choose services and which services to 
choose.
    <bullet>  A strengths-based approach focuses on each client's 
strengths, skills and abilities enabling them to envision a path around 
obstacles and toward achievement of goals.

    This requires financial, sustainable resources that are currently 
unavailable to our community in the form of support services to support 
the Housing First initiative.

                                 <F-dash>
                  Prepared Statement of Kathryn Monet
    Chairmen Wenstrup and Arrington, Ranking Members Brownley and 
O'Rourke, and distinguished members of the House Committee on Veterans' 
Affairs:
    I am Kathryn Monet, the Chief Executive Officer of the National 
Coalition for Homeless Veterans (NCHV). On behalf of our Board of 
Directors and Members across the country, we thank you for the 
opportunity to share our views with you this morning.
    NCHV is the resource and technical assistance center for a national 
network of community-based service providers and local, state and 
federal agencies that provide emergency, transitional, and supportive 
housing, food, health services, job training and placement assistance, 
legal aid and case management support for hundreds of thousands of 
homeless, at-risk, and formerly homeless veterans each year. We are 
committed to working with our network and partners across the country 
to end homelessness among veterans.
    The good news is that since June of 2014, 60 communities and three 
states have achieved the federal benchmarks and criteria for ending 
veteran homelessness. This is an achievable goal. We have seen the 
annual point in time (PIT) count of veterans experiencing homelessness 
decrease by 45 percent since 2009, largely a testament to the 
dedication and hard work of local service providers, community 
partners, and VAMC staff. While in the abstract this is progress toward 
the goal of ending veteran homelessness, in real terms it is life 
changing for the veterans that were able to access housing and 
assistance as a result.
    The bad news is that our hold on this progress is tenuous at best, 
as evidenced by the slight increase in the PIT count of veterans 
between 2016 and 2017. The increase nationwide was 585, or 1.5%, to 
40,056 veterans. While 36 states and DC saw decreases in their PIT 
count, other communities with particularly high cost rental markets 
were faced with dramatic increases. From NCHV's perspective, an 
increase of even one veteran is one too many.
    The 2017 PIT count is a stark reminder that now is not the time to 
take our foot off the gas pedal, or shift resources for these programs 
elsewhere. We need to double down on efforts to ensure that 
homelessness is rare, brief, and nonrecurring, for veterans and all 
Americans.
    For communities and providers, this means looking at community-
level data to identify acuity and ensure that service providers across 
the community have the resources, expertise, and the will to partner to 
meet these needs. Providers must continue to implement evidence-based 
strategies like Housing First that help homeless veterans quickly 
access permanent housing, employment, and any resources they may need 
for housing stability. We also need to recognize that successful 
implementation of this model also includes access to health and mental 
health care, and wraparound services like benefits assistance and 
employment and training services to ensure that a placement is 
sustainable. This also means partnering with other providers to create 
a system effective at connecting veterans to the most appropriate 
resources to meet their needs. Housing First never means housing only.
    At the national level, the Department of Veterans Affairs must soon 
name a permanent leader for its homeless programs. While there is a 
deep bench of high quality candidates who have acted in this role 
temporarily, the position has been officially vacant since the end of 
2016. Permanent leadership would improve effectiveness and send a 
strong signal that this issue remains a priority at VA.
    Congress must ensure that the key programs that serve veterans 
experiencing homelessness are sufficiently funded. At NCHV, we do not 
advocate for the unqualified growth of resources for the sake of 
expanding programs. The slight uptick in the PIT count, in conjunction 
with rising rents across much of the country, and the series of natural 
disasters that occurred in 2017 leads NCHV to recommend the following 
authorizing and appropriations levels for the key programs below:

    <bullet>  Homeless Veterans Reintegration Program: $50 million
    <bullet>  Grant and Per Diem: $257 million
    <bullet>  Supportive Services for Veteran Families: $400 million
    <bullet>  HUD-VASH: $40 million for new vouchers

    Another priority at the national level is to focus on interagency 
collaboration, as homelessness is a multifaceted and complex problem 
that differs for each veteran experiencing it. One of the best ways we 
can do that is to ensure the authority for United States Interagency 
Council on Homelessness (USICH) does not sunset. The small professional 
staff of policy experts and analysts at USICH is directed by a Council 
comprised of Cabinet Secretaries and agency heads, and their work cuts 
across these agencies and departments. USICH is the body which brings 
together different agencies with different missions, but which all have 
potential impacts in the attempt to end homelessness; USICH is able to 
convene them and set policy priorities and shared objectives to 
actualize the plan to end homelessness. Furthermore, from their unique 
cross-cutting position, USICH is able to identify and prevent 
duplication of services that would otherwise waste effort and 
resources. Finally, USICH is focused on cost-effective solutions to 
ending homelessness which drives them to identify and support policies 
that best economize tax-payer money while still achieving superior 
results in our efforts to end homelessness among veterans and for 
everyone.
    We can also encourage further collaboration between VA, HUD, DOL, 
and their grantees to provide more seamless services to homeless 
veterans. One great example of interagency collaboration is the HUD-
VASH program. HUD-VASH has proven to be a successful interagency 
program, allowing VA to focus resources more efficiently by pairing VA-
funded case management with a HUD-funded Section 8 voucher for the most 
vulnerable veterans. The case management funding historically has been 
distributed to VAMCs through a special purpose designation, as the case 
managers must be located where the vouchers are distributed to ensure 
this program works.
    In late September of 2017, VA sent guidance to VISN Directors 
regarding the immediate conversion of funding for 99 line items, 
including HUD-VASH case management funding, from special purpose funds 
to general purpose funds. NCHV objects, in the strongest terms, to any 
conversion of special purpose homeless program funding for any purpose, 
especially any of the critically important funding available for HUD-
VASH case management. In the 60 communities and three states which have 
effectively ended veteran homelessness, HUD-VASH vouchers are well-
known as game changing resources that increase the availability of 
stable and affordable housing for chronically homeless veterans who 
desperately needed it.
    Per 38 U.S.C. 2003(b), VA has a statutory duty to ensure that 
veterans in receipt of a HUD-VASH voucher have case management as 
needed. Every VA case manager that is currently budgeted for is 
desperately needed; the loss of any of these positions will lead 
directly to veterans not receiving the care they rely on and deserve. 
These case managers are already stretched thin - sometimes caring for 
more veterans than clinically indicated. To remove these positions 
would be catastrophic to the health, well-being, and housing stability 
of the more than 87,000 veterans and their families residing in HUD-
VASH funded housing.
    There is a correlation between homelessness and suicide. The risk 
for suicide among the homeless has been estimated at five times higher 
than that of the general population, and studies have shown the high 
prevalence of suicidal ideation and attempts among older homeless and 
at-risk veterans. Further, there is significant overlap between the 
populations of veterans experiencing homelessness and opioid use 
disorders. VA researchers have found that veterans seeking medication 
assisted treatment for opioid use disorders are ten times more likely 
to be homeless than veterans seeking care at VA. These highly 
vulnerable veterans are not the type of population that should be 
subject to wide variability when it comes to case management. As such, 
NCHV insists these funds must be used for their intended purpose.

In Summation

    Thank you for the opportunity to present this testimony at today's 
hearing. It is a privilege to work with the House Committee on 
Veterans' Affairs to ensure that every veteran facing a housing crisis 
has access to safe, decent, and affordable housing paired with the 
support services needed to remain there.

                                 <F-dash>
                   Prepared Statement of Matt Miller

                              Introduction
    Chairmen Wenstrup and Arrington, Ranking Members Brownley and 
O'Rourke, and distinguished Members of the Subcommittees, thank you for 
the opportunity to provide a statement for today's hearing on veterans' 
homelessness. I thank you all for your tireless efforts to ensure that 
America fulfills its obligations to our current servicemembers, 
veterans, and their families. My name is Matt Miller and I am the 
Deputy Assistant Secretary for Policy at the U.S. Department of Labor's 
(DOL, or Department) Veterans' Employment and Training Service (VETS). 
We work hard every day to ensure all veterans, especially those most in 
need, are prepared to meet their employment objectives.
    Secretary Acosta stands firmly behind our country's servicemembers 
and veterans. He has set several clear goals that will assist our 
veterans in finding and retaining good jobs: (1) creating clear career 
pathways; (2) eliminating barriers to employment; (3) enabling and 
promoting apprenticeship opportunities that lead to meaningful careers; 
and (4) increasing the portability of licensing and credentials for 
military servicemembers and their spouses.
    As the Department of Labor's representative on the United States 
Interagency Council on Homelessness (USICH), I have the opportunity to 
see the federal coordination efforts firsthand. The Council last met on 
December 12th to discuss success to-date, the work ahead, opportunities 
to strengthen the Federal Strategic Plan, and essential strategies 
driving the national progress on ending homelessness. Additionally, 
VETS participates in the Department of Veterans Affairs' (VA) Advisory 
Committee on Homeless Veterans.
    Homelessness among veterans has dropped by 46 percent from January 
2010 to January 2017. Yet, on a single night in January 2017, there 
were still 40,056 homeless veterans. For the Department, one homeless 
veteran is one too many. That is why we look forward to working with 
the Subcommittees in providing these brave men and women who served our 
nation with the employment support, assistance, and opportunities they 
deserve to succeed in the civilian workforce.
    We also note that our partnerships throughout DOL extend VETS' 
ability to achieve its mission, and bring all of DOL's resources to 
bear for America's veterans - including veterans experiencing 
homelessness, separating servicemembers, and their families. VETS' 
mission is focused on four key areas: (1) preparing veterans for 
meaningful careers; (2) providing them with employment resources and 
expertise; (3) protecting their employment rights; and, (4) promoting 
the employment of veterans and related training opportunities to 
employers across the country.
            Homeless Veterans' Reintegration Program (HVRP)
    One important component of the VETS mission is the Homeless 
Veterans' Reintegration Program (HVRP), which helps homeless veterans 
reenter the labor force. HVRP provides grants to state and local 
Workforce Development Boards, tribal governments and organizations, 
public agencies, for-profit/commercial entities, and non-profit and 
faith-based organizations to assist in reintegrating homeless veterans 
into meaningful employment, and to stimulate the development of 
effective service delivery systems to address the complex problems they 
face. This program succeeds not only because of the hard work and local 
connections of our grantees, but also because of the collaborative 
efforts of our Federal and State government partners, including VHA 
medical centers who provide referrals to grantees and supportive 
services to veterans served by HVRP. These efforts help ensure that 
homeless veterans have access to a robust, comprehensive support 
network.
    HVRP's client-centric, hands-on approach has placed thousands of 
previously homeless veterans, some of whom were chronically homeless, 
on a path to self-sufficiency. Historically, the Department also has 
funded two additional types of grants designed to address difficult-to-
serve subpopulations of homeless veterans: the Homeless Female Veterans 
and Veterans with Families Program (HFVVWF) and the Incarcerated 
Veterans' Transition Program (IVTP). In addition, the Department 
supports ``Stand Down'' events (described below) and technical 
assistance grants.
    Each HVRP participant receives customized employment and training 
services to address his or her specific barriers to employment. 
Services may include occupational, classroom, and on-the-job training, 
as well as job search, placement assistance, and post-placement follow-
up services. Earlier this month, I had the pleasure of visiting one of 
our grantees in Los Angeles, CA where I met Mr. Jeremy White. Mr. White 
is an honorably discharged Marine Corps veteran. Prior to enrolling in 
our program, Mr. White had been incarcerated for seven years. He began 
working with our grantee, Volunteers of America in Los Angeles, this 
past October. When he arrived, Mr. White had no job and was 
experiencing homelessness. Jeremy's career developer worked with him to 
develop a career plan. This plan guided Mr. White to housing resources 
through the Department of Veterans Affairs' Supportive Services for 
Veteran Families program, job readiness training through a local 
American Job Center, and ultimately gainful employment at SoCal 
Construction all within four days of program enrollment.
    Since his enrollment, Mr. White has been saving part of his income 
and is now seeking housing with the support of the SSVF program. Since 
beginning employment, his wages have increased from $12 to $14 an hour. 
Mr. White continues to be a role model for other veterans within the 
grant program and his success drives others to commit to their own 
career plans.
                        HVRP Program Performance
    In FY 2016, DOL was appropriated $38.1 million for HVRP. With these 
resources, DOL funded 64 new HVRP grants, 89 option-year HVRP grant 
extensions, 12 HFVVWF grants, IVTP grants, and 64 Stand Down grants. 
These grants enrolled 16,638 participants, placing 65 percent into 
employment, with a cost per participant of $2,007.
    In FY 2017, the HVRP program received an appropriation of $45 
million with which the Department awarded 74 new HVRP grants, 81 option 
year HVRP grants. These grantees will provide services to over 16,230 
homeless veterans, with a placement rate of 67 percent, who earned an 
average hourly wage at placement of $12.88 an hour.
   Providing Services to Homeless Female Veterans and Veterans with 
                                Families
    HVRP funds also target subpopulations of homeless female veterans 
and veterans with families who are experiencing homelessness. As noted 
in HUD's 2017 Annual Homeless Assessment Report to Congress, homeless 
women veterans accounted for 11 percent of the overall homeless veteran 
population. The program provides direct services through a case 
management approach that leverages Federal, state, and local resources. 
Eligible veterans and their families are connected with appropriate 
employment and life skills support to ensure a successful integration 
into the workforce.
              Providing Services to Incarcerated Veterans
    HVRP funds also support incarcerated veterans who are at risk of 
homelessness by providing referral and career counseling services, job 
training, placement assistance and other services. Eligible 
participants include veterans who are incarcerated and are within 18 
months of release, or are less than six months from release of a 
correctional institution or facility.
                  Stand Down and Technical Assistance
    Through HVRP, the Department supports ``Stand Down'' events. These 
events, typically held over one to three days in local communities, 
provide an array of social services to homeless veterans. Stand Down 
organizers partner with Federal and state agencies, local businesses 
and social services providers to offer critical services, including 
temporary shelter, meals, clothing, hygiene care, medical examinations, 
immunizations, state identification cards, veteran benefit counseling, 
training program information, employment services, and referral to 
other support services.
    Additionally, to assist with the Hurricane Harvey relief effort, 
VETS awarded $50,000 for three Stand Down events in Houston, Texas, 
which served a total of 756 local homeless veterans.
    The HVRP grant also provides funding to the National Veterans 
Technical Assistance Center (NVTAC). The NVTAC provides a broad range 
of technical assistance on veterans' homelessness programs and grant 
applications to existing and potential grantees, interested employers, 
Veterans Service Organizations, and, Federal, state, and local agency 
partners.
                     Jobs for Veterans State Grants
    VETS awards Jobs for Veterans State Grants (JVSG) to each state and 
territory to support two types of staff positions in the American Job 
Center (AJC) network: Disabled Veterans' Outreach Program (DVOP) 
specialists and Local Veterans' Employment Representatives (LVER) 
staff. DVOP specialists and LVER staff support HVRP participants by 
helping veterans achieve employment through case management, direct 
employer contact, job development, and follow-up services.
    DVOP specialists provide individualized career services targeted 
for meeting the employment needs of disabled veterans and other 
veterans with significant barriers to employment, including homeless 
veterans. In addition, DVOP specialists often refer veterans who 
experience homelessness to other AJC services, such as the Workforce 
Innovation and Opportunity Act (WIOA) Adult and Dislocated Workers 
services and training. AJCs also engage in advocacy efforts with local 
businesses to increase employment opportunities for veterans, and 
encourage the hiring of veterans, including homeless veterans.
    The transition from the Workforce Investment Act (WIA) to WIOA has 
provided an extraordinary opportunity to improve job and career options 
for our nation's jobseekers and workers, including veterans, through an 
integrated, job driven public workforce system that links diverse 
talent to businesses. While retaining the network of DVOP specialists 
at AJCs, WIOA strengthens accountability and transparency of outcomes 
for core programs, including establishing common performance indicators 
across these programs. The Department has adopted these new common 
performance indicators for JVSG and other VETS-administered programs to 
track the outcomes of veterans participating in employment and related 
programs. However, due to the WIOA metrics requiring several quarters 
to track and compute, VETS will continue to also measure the 
traditional HVRP measures in a more real-time environment.
        Transition Assistance Program (TAP) Employment Workshop
    VETS also administers a mandatory three-day TAP Employment Workshop 
and optional Career Technical Training Track courses to help prepare 
transitioning servicemembers for a successful transition out of the 
military. All transitioning servicemembers are evaluated throughout the 
transition process and if an individual is evaluated as not meeting one 
or more Career Readiness Standards that are applicable to the 
Department of Labor during their transition, the individual's 
commander/designee facilitates a ``warm handover'' of the servicemember 
to the public workforce system for a review of the employment services 
available through AJCs and to facilitate access to individualized 
career services. A warm handover is also provided to Service members 
transitioning with an Other Than Honorable Discharge or without a 
viable post-transition housing plan or transportation plan. Such warm 
handovers can be accomplished by introducing the servicemember to a 
local AJC staff member (on or near the military base), connecting them 
to the AJC nearest their eventual destination, or through a facilitated 
call from the servicemember to the DOL Toll-Free Help Line (1-877-US2-
JOBS or 1-877-872-5627), and/or to services provided by the Department 
of Veterans Affairs. Programs such as TAP have been instrumental in 
working to ensure transitioning servicemembers are in the best possible 
position to avoid the issues that the vulnerable population may face 
prior to their transition.
                      HIRE Vets Medallion Program
    This past November, the Department announced the HIRE Vets 
Medallion Program to recognize organizations that have invested in 
employing and retaining veterans. The HIRE Vets Medallion Program is a 
powerful way that companies can signal their investment in veterans' 
careers. The Department believes encouraging employers to hire 
veterans-including veterans who are experiencing or who have recently 
exited homelessness-is essential for national success in preventing and 
ending homelessness among veterans. Secretary Acosta states, ``through 
their military service, America's veterans have leadership skills, 
technical expertise, and proven problem-solving capabilities. These are 
attributes that any employer would want.'' All organizations with at 
least one employee are eligible to apply for a HIRE Vets Medallion. The 
Secretary of Labor will recognize applicants with an award and a 
virtual HIRE Vets Medallion that can be placed on websites, used in 
social media, and in printed materials.
    Later this year, DOL will launch a demonstration for the HIRE Vets 
Medallion program to prepare for the full implementation of the 
program. This coming Veterans Day, the Department will recognize up to 
300 organizations for their contributions to veteran recruitment, 
employment, and retention.
                    Studies and Legislative Proposal
    DOL's Chief Evaluation Office recently sponsored two independent 
studies of the HVRP program. In 2016, a Formative Evaluation of HVRP 
was completed. This study documented the types of services and support 
offered by HVRP grantees. It identified potentially promising practices 
or models and provided recommendations for future program development 
and evaluation. Study findings were based on a combination of site 
visits, literature reviews, and statistical analysis of HVRP 
administrative data. VETS has already acted on many recommendations and 
is using the results of the study to improve program operations. \1\
---------------------------------------------------------------------------
    \1\ Department of Labor. (2017, December 21) Formative Evaluation 
of the HVRP Report. Retrieved from https://www.dol.gov/ asp/evaluation/ 
completed-studies/ Formative--Evaluation--of--the--Homeless-- 
Veterans--Reintegration-- Program--Report.pdf.
---------------------------------------------------------------------------
    Building on the learnings from the formative study, in September of 
2017, DOL funded a long term Impact Evaluation Study of HVRP. \2\ The 
goals for this study are to evaluate the effectiveness of HVRP on 
participants' employment outcomes, using the most rigorous design 
feasible (experimental or quasi-experimental methods); and to conduct 
an implementation evaluation to understand program models and 
variations, partnerships, and the homeless veterans served. For all of 
these individuals, the study design is expected to incorporate an 
extensive array of descriptive and outcome information. This project is 
expected to conclude in the fall of 2022 and will include detailed data 
on the long-term employment outcomes for HVRP program participants. 
VETS looks forward to sharing the findings of this study with the 
members of the Subcommittees.
---------------------------------------------------------------------------
    \2\ Department of Labor. (2018, January 4) Chief Evaluation Office 
Current Study Homeless Veterans Reintegration Program Impact Evaluation 
Description. Retrieved from: https://www.dol.gov/ asp/evaluation/ 
currentstudies/ Homeless-Veterans-Reintegration- Program-Impact-
Evaluation.htm
---------------------------------------------------------------------------
    In our most recent Annual Report to Congress, DOL recommended a 
technical amendment to the definition of homeless veteran at 38 U.S.C 
2002(a)(1) so as to include persons who are considered ``recently 
housed,'' defined as an individual who now has stable living 
conditions, but was considered to meet the definition of ``homeless 
veteran'' within the previous 60 days of requesting services. Studies 
have shown that barriers to employment still exist after immediate 
housing needs are met, and individuals still run a risk of becoming 
homeless again. \3\ This recommendation is especially critical now; as 
communities have become more successful at helping veterans to exit 
homelessness more quickly, the current definition creates an unintended 
barrier for those veterans to be able to access the employment services 
and opportunities that will help ensure that they do not experience 
homelessness again.
---------------------------------------------------------------------------
    \3\ Department of Labor. (2017, December 21) VETS 2016 Annual 
Report to Congress. Retrieved from https://www.dol.gov/ vets/media/
VETS--FY16-- Annual--Report--to-- Congress.pdf.
---------------------------------------------------------------------------
                               Conclusion
    We at the Department of Labor are committed to working with our 
federal, state, and local partners to achieve the goal of ending 
veteran homelessness, and we look forward to working with the Committee 
to ensure the continued success of our efforts. Chairmen Wenstrup and 
Arrington, Ranking Members Brownley and O'Rourke, and distinguished 
Members of the Subcommittees, this concludes my statement. Thank you 
again for the opportunity to testify today. I am happy to answer any 
questions that you may have at this time.

                                 <F-dash>
                  Prepared Statement of Dominique Blom
Introduction

    Good afternoon Chairman Wenstrup, Chairman Arrington, Ranking 
Member Brownley, Ranking Member O'Rourke and members of the 
subcommittees. Thank you for this important opportunity to discuss the 
efforts of the Department of Housing and Urban Development (HUD) and 
our federal partners to end veteran homelessness in the United States.
    HUD is committed to ending veteran homelessness by working 
collaboratively with our partners and maximizing the effectiveness of 
all existing resources. Thanks to funding from Congress and close 
collaboration among federal and local partners, the nation has 
continued to make progress in addressing veteran homelessness and 
creating sustainable federal and local systems that quickly respond to 
homelessness.

General HUD Homeless Assistance Programs

    HUD's Office of Community Planning and Development (CPD) provides 
about $2.4 billion annually to communities to help end homelessness. 
Funding is primarily used for permanent supportive housing, which 
successfully houses people with long histories of homelessness and 
significant disabilities. Permanent supportive housing has proven to 
reduce hospitalization and emergency room utilization while 
dramatically improving the well-being of the people it serves. HUD also 
provides funding for rapid re-housing, a cost-effective strategy that 
helps people move quickly into housing, provides short-term financial 
assistance, and provides supportive services to help the formerly 
homeless stabilize in their housing, increase their employment and 
income, and connect them to community supports. HUD also supports 
emergency shelter, transitional housing, and many other types of 
assistance dedicated to ending homelessness.
    In 2017, approximately 17,000 veterans were served using $97 
million through HUD's Continuum of Care (CoC) program. Most of that 
funding is for permanent supportive housing that houses approximately 
10,000 veterans with disabilities. Thousands more veterans are served 
with rapid re-housing, emergency shelter, and other assistance.

Housing and Urban Development - Veterans' Affairs Supportive Housing 
    (HUD-VASH)

    HUD-VASH is part of the Housing Choice Voucher (HCV) program in the 
Office of Public and Indian Housing (PIH). The HCV program currently 
houses over 2.2 million families and had an annual budget of over $20 
billion in 2017. HUD-VASH is the only PIH program dedicated to homeless 
veterans; however, many formerly homeless families, including veteran 
families, are assisted in the regular HCV program.
    The HUD-VASH program has been very successful in its approach to 
addressing veteran homelessness. The program provides long-term housing 
assistance to the most vulnerable veterans experiencing homelessness by 
combining HCV rental assistance for homeless veterans with case 
management and clinical services provided by the Department of Veterans 
Affairs (VA). VA provides these services for participating veterans at 
VA medical centers (VAMCs) and community-based outreach clinics.
    In the HUD-VASH program, the local VA case managers screen and 
determine veteran eligibility for the program. These HUD-VASH eligible 
veterans are then referred to the partnering Public Housing Authority 
(PHA) to receive their housing voucher assistance. By agreeing to 
administer the HUD-VASH program, the PHA is relinquishing its authority 
to determine the eligibility of families in accordance with regular HCV 
program rules and PHA policies with one exception: PHAs are required to 
prohibit admission of any member of the household subject to a lifetime 
registration requirement under a state sex offender registration 
program.
    A total of $675 million has been appropriated in new HUD-VASH 
funding to date. HUD-VASH vouchers are renewed based on actual leasing, 
as is the case for the HCV program generally. When a household leaves 
the program, their voucher is typically reissued to another eligible 
household. Since 2008, over 131,000 veterans and their families have 
moved into housing with a HUD-VASH voucher. As of the last day of 
FY2017, more than 77,000 veterans and their families were housed with a 
HUD-VASH voucher.
    HUD-VASH vouchers are specifically targeted to communities based on 
geographic need, meaning the size of the eligible population. Every 
year since 2008, HUD and VA have collaboratively awarded new HUD-VASH 
vouchers based on geographic need and administrative capacity. A total 
of 87,864 HUD-VASH vouchers have been awarded to PHAs between 2008 and 
2016. Of these, about 4,700 were awarded through a competitive set-
aside as project-based vouchers (PBV), in which the rental subsidy is 
assigned to a specific housing unit rather than provided to a veteran 
to find a unit in the private market to rent. PBV have proven to be an 
effective tool to help address the need for HUD-VASH in high-cost 
rental markets or where there is a lack of affordable housing stock. In 
addition to the HUD-VASH vouchers specifically awarded as PBV, PHAs, 
with the support of their local VA partners, have the ability to 
convert any of their existing HUD-VASH vouchers to PBV. The Housing 
Opportunity Through Modernization Act of 2016 (HOTMA) made this process 
even easier for PHAs. PHAs can now convert any of their existing HUD-
VASH portfolio without additional approval by HUD. HUD will be awarding 
approximately 5,500 new HUD-VASH vouchers with the additional $40 
million in HUD-VASH funding that was appropriated in FY2017 and has 
worked with VA and United States Interagency Council on Homelessness 
(USICH) to determine the processes and priorities for this award 
process, as has been the case in past years as well.
    We realize the distribution of homeless veterans across the country 
has changed since 2008. For this reason, HUD and VA are working 
collaboratively to develop a process for recapturing unused HUD-VASH 
vouchers from communities that no longer need them. We will then 
reallocate these vouchers to current high-need communities.
    To fulfill our commitment to ending veteran homelessness, it is 
important to remember that we must serve all veterans experiencing 
homelessness, including those not eligible for VA services. To achieve 
this, HUD has been working with VA and CoC-funded local supportive 
service providers to test a process that allows PHAs to partner with 
local, VA-designated service-providers and use a portion of their 
existing HUD-VASH vouchers to assist those homeless veterans with an 
other-than-dishonorable discharge who do not qualify for VA health 
care.
    These efforts around HUD-VASH demonstrate HUD's commitment to 
optimize the effectiveness of the HUD-VASH program and allow for local 
flexibility in addressing the homeless veteran population.

Tribal HUD-VASH

    The Tribal HUD-Veterans Affairs Supportive Housing, or ``Tribal 
HUD-VASH,'' pilot program provides rental assistance and supportive 
services to veterans who are Native American and experiencing 
homelessness, or at risk of homelessness, while living on or near a 
reservation or other Indian areas. Veterans participating in this 
program are provided housing assistance through HUD and supportive 
services through VA to foster long-term stability and prevent a return 
to homelessness.
    The pilot was first authorized in the Consolidated and Further 
Continuing Appropriations Act, 2015-Public Law 113-235, approved 
December 16, 2014-and Congress has continued its support in subsequent 
years by enacting funds for renewal grants and modest expansion. Thirty 
tribes or tribally designated housing entities were invited to 
participate in the program based on their level of need and 
administrative capacity; ultimately, 26 of those invited submitted 
applications and were awarded grants totaling $5.9 million to fund 
approximately 500 units of rental assistance for veterans and their 
families, and to fund associated administrative costs. HUD will renew 
those grants, and potentially fund additional grants or units of 
assistance, using funding provided in the Consolidated Appropriations 
Act of 2017.
    Implementation of the program is overseen by HUD's Office of Native 
American Programs (ONAP) within the Office of Public and Indian 
Housing; and VA is responsible for providing case management services 
and referring eligible veterans for housing assistance. As of November 
2017, 281 total veterans were receiving case management services, and 
of those, 214 veterans had been housed under the Tribal HUD-VASH 
program. The program is producing tangible results, housing Native 
American veterans and their families who were living in severely 
inadequate units-without running water, heat or electricity-or in 
overcrowded living conditions.
    In FY2017, HUD worked with VA to produce three regional joint 
trainings for tribal grantees and key stakeholders, VA Case Managers, 
and HUD Grants Management staff. The trainings provided an opportunity 
for the respective staffs to share ideas and enhance the cross agency 
and local working relationships that are key to this program's success.

Continued Collaboration with VA and USICH

    HUD has worked closely with VA for many years administering HUD-
VASH. Together, HUD, VA, and the USICH have implemented a joint 
decision-making structure known as ``Solving Veterans Homelessness as 
One'' (SVHO) where the agencies jointly administer the programs and 
policies related to veteran homelessness and develop and implement a 
range of strategies for preventing and ending veteran homelessness. 
This structure allows us to jointly review data on HUD-VASH and other 
programs and to coordinate policymaking to ensure our assistance is 
integrated and impactful.
    This collaboration has also helped us improve utilization in the 
HUD-VASH program, coordinate the implementation of the Tribal HUD-VASH 
program, better target available assistance to those with the highest 
needs, and ensure resources are prioritized for communities with 
greater numbers of veterans experiencing homelessness.
    HUD, VA, and USICH have also used the structure of SVHO to work 
together to create a set of standards to evaluate whether communities 
have ended veteran homelessness. Since 2014, more than 880 mayors, city 
and county officials, and governors have set a goal of ending veteran 
homelessness in their communities. As of January 11, 2018, 60 
communities across 30 states have achieved the goal.
    The agencies also collaborate on the implementation of Coordinated 
Entry Systems, meaning a system that is easy for veterans and other 
persons experiencing homelessness to access. Coordinated Entry ensures 
that a person experiencing homelessness has simple access to housing 
and other homelessness resources. The collaboration between HUD and VA 
ensures that veterans have access to all the resources in a community, 
including VA dedicated resources, no matter where and how they access 
assistance.

Technical Assistance for Communities

    Since the ability of any community to meet the goal of ending 
veteran homelessness depends on the strength of each community's 
leadership and successful implementation of proven strategies, HUD and 
its federal partners are committed to helping communities get there. In 
addition to providing funding for homeless assistance, HUD supports 
several technical assistance initiatives that have helped reduce 
veteran homelessness. The Built for Zero and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3660534245767e595b53">[email&#160;protected]</a> initiatives help 
communities implement best practices and learn from the success of 
other communities. Both initiatives were designed with the explicit 
goal of helping communities reach the goal of ending veteran 
homelessness.
    In 2012, HUD and VA partnered with the 100K Homes Campaign and 
Rapid Results Institute to hold ``bootcamps'' for 13 HUD-VASH 
communities. The events brought together PHA, VA, CoC, and HUD staff as 
community-centered groups to map their processes and come up with ways 
to improve them in creative and collaborative ways. These bootcamps 
were extremely successful and helped to get the HUD-VASH program 
utilization to where it is today. This bootcamp model has since been 
used to inform the continuing collaborative process for HUD-VASH and 
the roll out of Tribal HUD-VASH.
    Some best practices have included incorporating HUD-VASH in a 
larger coordinated entry system to ensure there are multiple access 
points for veterans seeking help, coordinated outreach efforts to 
locate all veterans in need of assistance, and better data sharing 
across systems to ensure veterans do not fall through the cracks.
    HUD has worked with our partners to identify specific strategies 
for utilizing HUD-VASH vouchers in high-cost, low-vacancy communities. 
These are often the same communities with the greatest need. In 
addition to converting HUD-VASH to PBV, PHAs have used their 
flexibility to increase their payment standard, including the adoption 
of exception payment standards, to be competitive in the private 
market. Another strategy has been intensive landlord outreach and 
maintaining landlord relationships. PHAs have also been able to connect 
with local service providers that are able to assist veterans in their 
housing search.
    In the coming year, HUD will continue to help communities with 
targeted assistance. We will be launching a technical assistance 
initiative focused on helping communities with high numbers of 
unsheltered people experiencing homelessness, including high numbers of 
unsheltered veterans. The initiative will focus on helping those 
communities implement best practices that have helped end veteran 
homelessness in cities such as Houston, New Orleans, and Las Vegas. HUD 
is also providing assistance to rural communities to help increase 
their capacity and address uniquely rural challenges for veterans such 
as transportation.

Results

    Each year, communities across the country conduct point in time 
counts of people experiencing homelessness. The count, held at the end 
of January 2017, includes people living in shelters as well as people 
sleeping on sidewalks, in parks, in cars, or in other places not meant 
for human habitation. Based on that count, veteran homelessness 
increased by 1.5 percent (585 veterans) between 2016 and 2017, but has 
declined by 46 percent (a decrease of 34,031 veterans) since 2010. This 
kind of reduction is historic, and HUD-VASH has been a primary reason 
for this progress. Most communities across the country actually showed 
a decline in veteran homelessness. However, sharp increases in several 
communities with extremely high housing costs led to an overall 
increase.
    A robust body of evidence shows that the combination of permanent 
supportive housing, rapid re-housing, and other targeted interventions 
can indeed end homelessness. Although there was a small increase last 
year, the long-term national trend and the results in the many 
communities that have ended veteran homelessness show the positive 
results of a coordinated effort.

Conclusions

    Despite this slight increase in national veteran homelessness in 
2017, a great deal of progress has been made in the way we work 
together to address veteran homelessness. However, we acknowledge that 
there is still a lot of work to be done. The HUD-VASH program continues 
to be a model for interagency collaboration and one of the best tools 
we have for ending veteran homelessness. We must continue to find ways 
to maximize the effectiveness of the HUD-VASH program, while also 
assisting communities in utilizing all available homeless assistance 
resources.
    Thank you again for this opportunity to describe HUD's efforts to 
end veteran homelessness.

                                 <F-dash>
                Prepared Statement of Thomas Lynch, M.D
    Good afternoon Chairman Wenstrup, Chairman Arrington, Ranking 
Member Brownley, Ranking Member O'Rourke and Members of the 
Subcommittees. I appreciate the opportunity to discuss the Department 
of Veterans Affairs' (VA) commitment to ending homelessness among 
Veterans. I am accompanied today by
    Dr. Keith Harris, Director of Clinical Operations, VHA Homeless 
Programs Office.

Introduction

    VA remains committed to the objective of ending Veteran 
homelessness, and pursues that objective in close collaboration with 
our Federal agency partners, leading national organizations, State and 
local government agencies, Veteran Service Organizations, and other 
nonprofit partners in communities across the country. The ultimate goal 
is to make sure that Veterans have permanent, sustainable housing with 
access to high-quality health care and other supportive services, and 
that Veteran homelessness in the future is prevented whenever possible 
or is otherwise rare, brief, and nonrecurring. VA and our partners are 
striving to implement a systemic end to Veteran homelessness. VA, the 
Department of Housing and Urban Development (HUD) and the U.S. 
Interagency Council on Homelessness (USICH), have developed criteria 
for that systemic end of Veteran homelessness, including that 
communities across the country that have identified all Veterans 
experiencing homelessness, are able to provide shelter immediately to 
any Veteran experiencing unsheltered homelessness, provide service-
intensive transitional housing in limited instances, have the capacity 
to help Veterans swiftly move into permanent housing, and have 
resources, plans, and systems in place should any Veteran become 
homeless or be at risk of homelessness in the future. VA also continues 
to integrate resources in the homeless program to address mental health 
concerns and/or substance use disorders (SUD) of homeless Veterans and 
those at risk of becoming homeless, with an emphasis on evidence-based 
treatment and suicide prevention. Efforts in support of this include 
mandatory suicide prevention training for all homeless program 
employees, and the inclusion of SUD specialists in homeless programs.

Current Progress

    The number of Veterans experiencing homelessness in the United 
States declined by nearly half since 2010. To date, 60 communities, 
across 30 States, have been confirmed by VA, HUD, and USICH as having 
achieved the goal of effectively ending Veteran homelessness. 
Nationally, the total number of homeless Veterans, including those in 
sheltered and unsheltered locations on a single night in January 2017, 
was just over 40,000. While this represents a slight increase in 
Veteran homelessness over 2016, decreases in Veteran homelessness in 
the majority of HUD Continuums of Care in 2017, coupled with the 
overall decline in Veteran homelessness since 2010, demonstrate that 
the evidence-based strategies employed by VA and its partners to help 
Veterans become and remain permanently housed are working. In addition, 
over 600,000 Veterans and their family members have been permanently 
housed, rapidly rehoused, or prevented from falling into homelessness 
through HUD's targeted housing vouchers and VA's homelessness programs.
    Ending Veteran homelessness is not a single event in time; rather, 
it is a deliberate effort made to achieve the goal, and continued 
follow-up efforts to make sure that progress toward achieving the goal 
is maintained. We continue to identify innovative local solutions, 
especially in areas where higher rents have contributed to an increase 
in Veteran homelessness.
    VA dramatically increased the number of services available to 
Veterans who are at risk for or currently facing homelessness. These 
programs and initiatives focus on identifying, interceding, and rapidly 
engaging homeless and at-risk Veterans on matters concerning housing, 
clinical care, and social services, as well as resources aimed at 
preventing homelessness. These programs include:

    Housing and Urban Development - Veterans Affairs Supportive Housing 
(HUD-VASH): Through this collaborative program between HUD and VA, HUD 
provides eligible homeless Veterans with a Housing Choice rental 
voucher, and VA provides case management and supportive services so 
Veterans can gain housing stability and recover from physical and 
mental health problems, substance use disorders, and other issues 
contributing to or resulting from homelessness. The program goals are 
to help Veterans and their families gain stable housing while promoting 
full recovery and independence in their communities. As of the last day 
of Fiscal Year (FY) 2017, 83,459 total HUD-VASH vouchers were in use 
and 77,850 Veterans were housed and are no longer homeless. 
Understanding that there are homeless Veterans who are not eligible for 
VA health care, and to further progress toward the goal of ending 
Veteran homelessness, HUD and VA are jointly piloting efforts to 
provide a small number of HUD-VASH vouchers to those who are ineligible 
for VA health care because of a disqualifying ``other than honorable'' 
discharge. This program allows communities that are able to demonstrate 
they have served and continue to prioritize eligible Veterans to 
provide a portion of their vouchers to former Servicemembers who do not 
qualify for VA benefits. As of the last day of FY 2017, 83,459 total 
HUD-VASH vouchers were in use and 77,850 Veterans were housed and are 
no longer homeless.

    Homeless Providers Grant and Per Diem (GPD): The GPD program allows 
VA to award grants to community-based agencies to operate transitional 
housing programs and offer per-diem payments to such agencies that 
furnish authorized services to qualifying Veterans. The purpose of the 
program is to promote the development and provision of temporary 
housing and/or related services with the goal of helping homeless 
Veterans access permanent housing, achieve residential stability, 
increase their skill levels and/or income, and obtain greater self-
determination. GPD-funded projects offer communities a way to help 
homeless Veterans by providing housing and other services, and at the 
same time assist VA medical centers (VAMC) by augmenting or 
supplementing care. As a result of section 712 of Public Law 114-315 
(codified at 38 United States Code (U.S.C.) Sec.  2013), the GPD 
program is able to offer a new case management grant to improve 
retention of permanent housing for formerly homeless Veterans exiting 
transitional housing programs. In FY 2017, over 600 GPD-funded projects 
participated in the program, which temporarily housed 23,737 Veterans - 
14,530 of whom exited GPD into permanent housing.

    Supportive Services for Veteran Families (SSVF): This program is 
designed to rapidly rehouse homeless Veteran families and prevent 
homelessness for those at imminent risk of becoming homeless due to a 
housing crisis. Funds are granted to private nonprofit organizations 
and consumer cooperatives, which then provide very low-income Veteran 
families with a range of supportive services designed to promote 
housing stability. SSVF is the only VA homeless program that can 
provide direct services to family members. In FY 2017, 21 percent of 
all those served by SSVF were dependent children. SSVF's ability to 
serve Veterans and their children helps keep families together. In FY 
2017, SSVF assisted 129,458 individuals; 83,916 were Veterans, and 
27,535 were children.

    Veterans Justice Outreach (VJO): The purpose of the VJO program is 
to prevent homelessness and avoid the criminalization of mental illness 
and extended incarceration among Veterans. This is accomplished by 
ensuring that eligible justice-involved Veterans encountered by police, 
in jails, or in courts have timely access to VA mental health, 
substance use treatment, and homeless services when clinically 
indicated, and other VA services and benefits as appropriate. In FY 
2017, VJO provided services to over 46,000 justice involved Veterans.

    Health Care for Reentry Veterans (HCRV): The HCRV program is 
designed to address the needs of incarcerated Veterans when it comes to 
re-entering their communities. The goals of HCRV are to prevent 
homelessness; reduce the impact of medical, psychiatric, and substance 
use problems on community readjustment; and decrease the likelihood of 
re-incarceration for those leaving prison. In FY 2017, the program 
served 9,732 Veterans and provided services to 890 Federal and State 
prisons.

    National Call Center for Homeless Veterans (NCCHV): The NCCHV, 
which can be reached at 1-877-4AID VET (1-877-424-3838), was founded to 
ensure that homeless and at-risk Veterans have free, 24/7 access to VA 
staff. The hotline is intended to assist homeless and at-risk Veterans 
and their families; VAMCs; Federal, State, and local partners; 
community agencies; service providers; and others in the community. In 
FY 2017, NCCHV received more than 131,310 total calls, 80,777 from 
Veterans. More than 59,000 Veterans were referred to the homeless 
programs at their local VAMCs.

    Health Care for Homeless Veterans (HCHV): The central goal of the 
HCHV program is to reduce homelessness among Veterans by connecting 
homeless Veterans with health care and other needed services. This 
program provides per diem payments to community-based facilities that 
provide housing; outreach services; case management services; 
rehabilitative services, and care or treatment to all eligible homeless 
Veterans. The program also provides HCHV Contract Residential Services, 
ensuring that chronically homeless Veterans, especially those with 
serious mental health diagnoses and/or substance use disorders, can be 
placed in VA or community-based programs that provide quality housing 
and services that meet their specialized needs. In FY 2017, over 6,300 
Veterans exited the HCHV program, and entered independent housing. HCHV 
is also responsible for the Coordinated Entry Initiative, providing 
guidance to VAMCs on their participation in their partner Continuums of 
Care coordinated entry systems.

    Homeless Veterans Community Employment Services (HVCES): To help 
improve employment outcomes and connect with homeless Veterans who are 
the most difficult to reach, VA continues to support Vocational 
Development Specialists, who serve as Employment Specialists and 
Community Employment Coordinators within HVCES. HVCES staff members are 
embedded in homeless program teams within the medical center, 
complement existing medical center-based employment services, and are a 
bridge to employment opportunities and resources in the local 
community. In FY 2017, roughly 7000 Veterans existed homeless 
residential programs with employment. VA staffmembers work very closely 
with their colleagues at the Department of Labor (DOL), especially 
through the Homeless Veterans Reintegration Program (HVRP) and Jobs for 
Veterans State Grants (JVSG), which are two programs that address the 
employment needs of homeless Veterans.

    Homeless Patient Aligned Care Teams (H-PACT): H-PACTs provide a 
coordinated ``medical home'' tailored to homeless Veterans' needs. H-
PACTs are open-access, provide wrap-around care and case management, 
and are performance-based and accountable. At selected VA facilities, 
Veterans are assigned to an H-PACT that includes a primary care 
provider, nurse, social worker, homeless program staff, and others who 
offer medical care, case management, housing assistance, and social 
services. The H-PACT provides and coordinates the health care that 
Veterans may need while helping them obtain and stay in permanent 
housing. Patients engaged in an H-PACT were permanently housed 81 days 
faster than a non-H-PACT enrolled homeless patient. In FY 2017, H-PACTs 
provided care for almost 20,000 Veterans at 63 locations.

    The National Center on Homelessness among Veterans (the Center): 
Authorized by section 713 of Public Law 114-315 (38 U.S.C. Sec.  2067), 
the Center promotes recovery-oriented care for Veterans who are 
homeless or at-risk for homelessness by carrying out and promoting 
research; assessing the effectiveness of VA programs; identifying and 
disseminating best practices; integrating evidence-based and best 
practices into polices, programs, and services for homeless or at-risk 
Veterans; and serving as a resource for research and training 
activities carried out by VA and by other Federal and non-Federal 
entities with respect to Veteran homelessness.

    Community Resource and Referral Centers (CRRC): CRRCs are a 
collaborative effort of VA, communities, service providers, and agency 
partners. Centers are located in strategically selected areas to 
provide both a refuge from the streets and a central location to engage 
homeless Veterans in services. The goals of CRRCs include: (1) to 
provide Veterans with more efficient and better-coordinated access to 
the range of VA and community-based services and programs that can best 
address their needs; and (2) to support a more efficient and cost-
effective delivery of that support to Veterans. When Veterans enter 
these centers, they are referred to physical and mental health care 
resources, job development programs, housing options, and other VA and 
non-VA benefits. In FY 2017, over 29,000 Veterans received services 
through VA's 31 CRRCs.

    Domiciliary Care for Homeless Veterans (DCHV): The DCHV program 
provides time-limited residential treatment to homeless Veterans with 
mental health and substance use disorders, co-occurring medical 
concerns, and psychosocial needs such as homelessness and unemployment. 
In FY 2017, over 7,000 Veterans received services through the DCHV 
program.

    Homeless Veterans Dental Program (HVDP): HVDP helps increase the 
accessibility of quality dental care to homeless and certain other 
Veteran patients enrolled in VA-sponsored and VA partnered homeless 
rehabilitation programs. In FY 2017, over 15,430 Veterans were provided 
dental care through HVPD.

Future State

    Maintaining strong support for Federal housing and homelessness 
programs is essential for preventing and reducing Veteran homelessness 
Overall, the message is positive: communities, in partnership with VA, 
are preventing and reducing Veteran homelessness.
    Recently, in an attempt to give VAMC facilities more control over 
homeless funds that directly impact the Veterans they serve, VA 
proposed a conversion of Specific Purpose funding to General Purpose 
funding, including funding in support of HUD-VASH. We received feedback 
from some of our valued internal and external partners that they need 
additional information from us about this conversion, and that we need 
to have more discussions with them before proceeding. As a result, VA 
will continue to pause plans to reallocate funds from specific purpose 
funds to general funds in FY 2018 to allow time to evaluate the 
feedback we are receiving from our stakeholders and partners. Over the 
next several months, VA will engage in a formal interagency process to 
solicit further input to ensure that any realignment of funds best 
supports our Nation's Veterans.
    VA's way forward is to work with Federal partners to implement the 
elements of our interagency strategic plan to end Veteran homelessness. 
Important strategic objectives include enhancing integrated services 
for homeless Veterans struggling with suicide risk and SUD, addressing 
high need communities by recapturing and reallocating available 
resources, emphasizing efforts to improve employment outcomes, 
addressing prevention of new episodes of homelessness as well as 
recidivism, and fully committing to coordinated entry efforts in local 
communities. VA's strategy for addressing the needs of homeless and at-
risk Veterans will be improved by integrating suicide prevention, 
mental health, and substance use disorder resources with the programs 
that are currently available through VA's Homeless Program.
    Of the Veterans assessed by VA homeless programs in FY 2017, 57 
percent who are at risk of homelessness, or currently homeless, have a 
mental health diagnosis and 46 percent have a substance use disorder. 
Additionally, VA research shows that nearly a third of Veterans 
receiving care for suicidality showed evidence of homelessness. It is 
critical that VA addresses this aspect of Veteran homelessness in order 
to save their lives. Therefore, our Homeless Program is working with 
our Mental Health and Suicide Prevention offices to identify ways in 
which we can harness our collective resources to respond to this 
clinical priority.
    In order to end Veterans' homelessness, VA's efforts must 
comprehensively be linked with local community efforts. VA's Federal 
partners, including DOL and HUD, require that all communities develop 
and operate a coordinated entry system (CES) for all homeless 
individuals, including Veterans. CES is a critical element in our 
continued effort to end Veteran homelessness because it ensures 
coordination of community-wide services for Veterans experiencing 
homelessness, system-wide awareness of the availability of housing and 
services, and easy access to and appropriate prioritization for these 
resources for Veterans who are in need. VA is committed to 
participating in this national effort.
    VA's plan is to expand prevention and diversion efforts. We must 
reduce the flow of Veterans into homelessness if we are to continue the 
decline nationally, as tracked by HUD's Point-in-Time (PIT) count. 
After six years of consistent progress, the 2017 PIT Count data shows a 
mix of continued declines in Veteran homelessness in most communities, 
but stalled progress in others due largely to high rent and low vacancy 
rates. We are continuing to promote development of affordable and 
permanent supportive housing. We are also working with all partners to 
encourage efforts aimed at financing and developing additional housing 
stock in order to address the market factors that contributed to 
increases in 2017.

Conclusion

    When Veterans become homeless or even at-risk for homelessness, VA 
and its Federal, State, and community partners must work together to 
rapidly connect them with appropriate assistance to provide housing 
stability. Sustaining the momentum and preserving the gains made so far 
requires continued attention and investments of financial resources. 
Failure to provide such resources will severely jeopardize our ability 
to sustain our progress and will put at risk thousands of Veterans and 
their families in the future. It is critical that we do not allow 
Veterans to slip into homelessness in the future.
    Mr. Chairman, this concludes my testimony. My colleague and I are 
prepared to answer any questions.

                                 <F-dash>
                       Statements For The Record

                    Disabled American Veterans (DAV)
    Statement of Shurhonda Y. Love, Assistant National Legislative 
Director

    Thank you for inviting DAV to submit testimony for the record for 
today's hearing to examine the effect of federal agencies' efforts 
[including those of the Department of Veterans Affairs (VA), Housing 
and Urban Development (HUD) and Department of Labor (DOL)] to reduce 
homelessness among our nation's veterans. DAV was also asked to assess 
the impact of VA's decision to realign specific purpose funds for 
homeless programs.
    Any veteran can experience homelessness and we recognize that many 
veterans are at higher risk for becoming homeless due to service-
incurred and war-related disabilities and/or reintegration challenges 
following military deployments. This is particularly true of women 
veterans. DAV Resolution 239 directs DAV to support sustained 
sufficient funding to improve services for homeless veterans. For this 
reason, DAV urges Congress to give homeless veterans programs priority 
consideration within the federal government's planning and budgeting 
activities.
    As you know, homelessness is a complex problem often stemming from 
mental illness, substance use disorders, unemployment, lack of basic 
independent life skills and disabilities. Homeless individuals often 
struggle with several of these issues concurrently. For veterans, 
homelessness can be further complicated by unsuccessful attempts to 
reintegrate into families, careers, and communities after deployments. 
Service-incurred or exacerbated disabilities, such as post-traumatic 
stress disorder, depression, anxiety, substance use disorders, 
traumatic brain injury or other physical disabilities can further 
complicate these issues.
    For the most part the federal government's enhanced efforts to 
assist homeless veterans in recent years has been a good news story. 
Since 2009, homelessness among veterans has decreased by almost half 
(46 percent); between 2015 and 2016 the number of homeless veterans 
decreased by 17 percent. Some states and communities have declared that 
their homeless veterans' populations have been virtually eliminated. VA 
and advocates often credit VA's ``Housing First'' policy with its 
success. Securing stable housing with aggressive case management is 
often the linchpin to obtaining the services and benefits veterans need 
to launch their recovery.
    The bad news is that there are now indicators that some of the 
remarkable progress made on reducing homelessness among veterans may be 
eroding, particularly in high-cost metropolitan areas such as New York 
City and Los Angeles where affordable housing is scarce. Los Angeles 
City and County alone identified a 26 percent increase in homelessness 
between 2016 and 2017. This led to a slight increase in homelessness 
among veterans overall (1.4 percent between 2016 and 2017). According 
to HUD, individuals with long-term disabling conditions were the most 
likely to be affected by homelessness during this past year.
    The National Coalition on Homeless Veterans (NCHV) also indicates 
that flat funding for many of the VA's pillar programs in fiscal year 
(FY) 2018 will not be sufficient to ensure the federal government 
continues to make progress reducing the number of homeless veterans. In 
particular it is concerned about the VETS HVRP programs in DOL (flat 
funded for more than a decade) and that funding for Supportive Services 
for Veterans Families-a program that assists veterans and families at 
risk for homelessness to remain in permanent housing-are not sufficient 
to support demand for veterans' needs. They are also concerned that 
there are no new requests for HUD-Vouchers. HUD-VASH is credited as the 
program most responsible for the reduction of veterans living on the 
street. As a top priority of the previous administration the HUD-VASH 
program grew from $5 million to almost $500 million. In 2016, VA 
reports it used almost 80,000 vouchers and housed 72,481 veterans. 
According to HUD, since 2010, the HUD/VASH program has helped almost 
480,000 veterans and their families with housing, re-housing or 
preventing homelessness.
    The decision by VA Secretary Shulkin to realign specific purpose 
funds to give hospital directors more control over veterans' needs 
specific to location within the Veterans Health Administration posed a 
significant concern for sufficient funding for homeless programs. In 
December 2017, in response to Senate appropriators and veterans' 
advocates, the Secretary temporarily overturned his initial decision, 
but the initiative took a toll.
    The partnership between VA and HUD requires VA to provide intensive 
case management for use of housing vouchers. Diminished dedicated 
funding available for case management would significantly compromise 
the success of the subsidized housing vouchers program. VA case 
managers serve to ensure veterans maintain sobriety and treatment 
regimens and obtain necessary medical care. They can assure that 
benefits are secured and job training or education goals are being met. 
They assist in identifying community resources to meet veterans 
frequently cited unmet needs-such as legal assistance for a variety of 
issues, child care, family reconciliation assistance, financial 
guardianship, credit counseling, discharge upgrades, and family and 
marital counseling. They also help entice reluctant landlords to lease 
properties to veterans because the case manager serves as a reliable 
intermediary. Case management is essential to veterans achieving long-
term housing stability and makes the HUD-VASH program optimally 
effective.
    We are pleased that the Secretary reconsidered his decision to pull 
funds out of earmarked accounts, but the effect on VA's ability to 
support case management for HUD-VASH vouchers has already impacted 
programming. For example, NCHV reports that the VA facility in San 
Francisco indicated it will only support half of the slots it has been 
allotted leaving 50 of the 100 vouchers on the table. As the Secretary 
proceeds to determine how best to fund HUD-VASH case management in the 
future, DAV hopes he will carefully consider the potential negative 
impact of releasing these funds on the programming for some of VHA's 
most vulnerable veterans.
    Specific purpose (or centralized) funds are designated as such to 
assure that resources are used for certain programs-particularly for 
those programs with high costs that may make them vulnerable to 
``raiding'' for other purposes. This status is generally reserved for 
high visibility programs-usually those of great interest to Congress or 
the Administration (prosthetics and sensory aids, post-deployment 
mental health services for war veterans, women veterans, and 
polytrauma, for example).
    Veterans organizations co-authoring the Independent Budget have 
long supported a centralized fund for prosthetics. Previously when 
funding for prosthetics was allocated through general purpose funds, 
these resources were used for other purposes. Once funds were 
centralized, delivery of prosthetics was more timely and predictable 
and veterans' complaints diminished. Having one account to fund 
purchases also eases tracking of expenditures to ensure funds are used 
for the allocated purpose.
    While DAV has no resolution regarding the centralization of funding 
for homeless programs, we know from experience that unfencing funding 
is highly likely to reduce funding for that purpose. Re-categorizing 
funds as general purpose allows other local priorities to be funded, 
which appears to be the reason to ``release'' funding to the field. 
Secretary Shulkin indicated that medical centers would be able to use 
released funding from homeless programs as networks and medical centers 
saw fit, so long as there was demonstration of ``some'' commitment to 
helping homeless veterans. DAV is concerned that local managers, faced 
with numerous priorities, will use the released funds at a lower rate, 
resulting in insufficient funding to meet the needs of this population 
and continue the improvements in programs for homeless veterans made in 
recent years. For these reasons, we are pleased that the Administration 
will take more time to assess the potential effect of releasing 
dedicated funding for homeless programs and hope the Secretary will 
permanently restore specific purpose funding for these important 
supportive services.
    Homelessness is defined under the McKinney-Vento Act as occupying 
public or private space not generally intended or used for sleeping, 
including living in the streets, cars, or those residing in emergency 
shelters. Some advocates believe this definition actually 
underestimates the population, particularly for women who are more 
likely to stay in unsafe housing situations (such as those with abusive 
domestic partners) in order to remain housed. According to researchers, 
veterans are at greater risk of homelessness than civilian peers. 
Approximately 80 percent of homeless veterans have mental health 
conditions or substance use disorders. PTSD and service in Iraq or 
Afghanistan are modest risk factors for experiencing homelessness, but 
socioeconomic status and behavioral health are more significant risk 
factors. For both women and men, being black and unmarried are 
significant risk factors. Recipients for disability compensation are at 
lower risk of homelessness, possibly because the steady income may 
assist a veteran in obtaining stable housing.
    Women veterans are at especially high risk of homelessness (with 
increased risk of 2.4 percent compared to 1.4 percent of male 
veterans). Loss of employment and dissolution of marriages contributes 
to women being at higher risk for homelessness and living in poverty 
than civilian peers or male veterans. Homeless women veterans tend to 
be younger than male peers, and 21 percent of women veterans have 
dependent children and they are 8 percent more likely to have non-
military related PTSD. They are more likely to seek intensive services 
for treatment of mental health issues than their male peers. 
Additionally, because of their increased likelihood of having 
dependents which gives them priority for housing vouchers, women are 
19-20 percent more likely to be referred to HUD-VASH programs than men. 
For these reasons, policy changes effectuating cuts to homeless 
programs may be particularly perilous for them.
    VA has several evidence-based practices being used to assist 
homeless veterans including Mission-Vet (Maintaining Independence and 
Sobriety through System Integration) and Getting to Outcomes. These 
practices are targeted at veterans with co-occurring morbidities and 
are shown to keep veterans in housing placements more effectively than 
usual practice. About half of the veterans who have used HUD-VASH 
vouchers have accomplished their goals or no longer require services. 
Most leave the program after identifying appropriate benefits or 
securing employment.
    Grant and per diem (GPD) programs, which provide transitional 
housing and supportive services through community agencies, are another 
important stepping stone to stable housing and recovery for disabled 
homeless veterans. In 2016, more than 16,500 veterans exited these 
programs to permanent housing; however, without the support of case 
management for HUD-VASH vouchers many veterans using these programs 
will likely struggle more to achieve stable, independent housing and 
lives.
    In addition to housing programs, VA offers health care services 
specifically for homeless veterans and a range of mental health 
programs that meet their needs. Domiciliary programs offer a 
therapeutic environment for many homeless veterans, allowing them to 
seek intensive treatment for substance use disorders and mental health 
conditions. Psychosocial rehabilitation, often provided through the 
domiciliaries is another program from which it appears that funds are 
being diverted. Some veterans also seek vocational rehabilitation 
through VHA's compensated work therapy programs. Unfortunately, some of 
the centralized funding for many of the supportive mental health and 
mental health research programs administering and improving care for 
homeless and other veterans has also been released to the field. While 
the effect of the releasing centralized funds may not have the same 
dramatic impact on VA's mental health programs it would on the 
supported housing programs, the release of these funds may impact the 
overall quality of the mental health services upon which many veterans 
rely.
    The Department of Labor (DoL) also offers a job-focused, case-
managed approach to assisting homeless veterans with job training, 
search and placement services through the Homeless Veterans 
Reintegration Program (HVRP). As homeless veterans become stable, these 
programs can offer assistance with vocational rehabilitation and even 
remedial academic skills to bolster their ability to live and work 
independently. The HVRP is funded under veterans programs, but 
administered under DoL Veterans Employment Training Services. DAV has 
been a long-term supporter of adequate funding and permanency for 
veterans' employment and/or training programs (Resolution No. 251). 
Since FY 2002, Congress has authorized $50 million for this program 
doing so again for FY 2018. However, over time the value of this 
authorization has eroded. In FY 2015, DoL claims HVRP exceeded its 
target of placing 65 percent of program participants in jobs (it placed 
69 percent of participants). It also exceeded its target of placing 62 
percent of women participants in jobs (it placed 68 percent of women 
participants). It also did so at a significantly lower cost per 
participant than it estimated ($2,007 compared to $2,242). Given the 
long-term success and efficiency of the program, Congress should add 
funds to compensate for inflation and meet veterans' increased demand 
for these services.
    Mr. Chairman, VA can be proud of the comprehensive array of 
services it provides to homeless veterans, but it cannot reduce funding 
levels for the program or leave it to local management to determine 
priorities and expect to see the same results and success rate of 
reducing veterans' homelessness. VA must continue its commitment as 
stated until no veteran has to call the street his or her home.
    This concludes my statement and I am happy to respond to any 
questions you may have.

                                 <F-dash>
                    MILE HIGH BEHAVIORAL HEALTHCARE
    Statement of James Gillespie, Community Impact & Government 
Relations Liaison

    ON: ASSESSING THE VARIOUS PROGRAMS VA, HUD, AND DOL USE TO PROVIDE 
HOMELESS AND AT-RISK VETERANS WITH HOUSING, HEALTHCARE, SUPPORTIVE 
SERVICES, AND JOB TRAINING, SEARCH, AND PLACEMENT ASSISTANCE.

    Chairmen Wenstrup, Arrington, Ranking Members Brownley, O'Rourke, 
and distinguished members of the Subcommittees on Health and Economic 
Opportunity, on behalf of Mile High Behavioral Healthcare and its 
affiliates, thank you for the opportunity to submit this statement 
regarding programs that benefit our nation's homeless and at-risk 
Veterans. It is our firm belief that no individual who fights for our 
homeland should ever be without a safe place to call home.
    Mile High Behavioral Healthcare is one of the leading providers of 
evidence-based substance use disorder and mental health treatment 
services in Colorado and also manages a Veterans' Administration (VA) 
Grant and Per Diem site through its subsidiary, the Comitis Crisis 
Center, in Aurora, Colorado. The VA's Homeless Providers Grant and Per-
Diem (GPD) Program awards grants to community-based agencies that 
provide transitional housing and supportive services to assist homeless 
Veterans in achieving residential stability and self-sufficiency. The 
VA provides per diem payments to non-profit organizations to help 
offset the operational costs of these programs. The following remarks 
are respectfully submitted for your consideration from the viewpoint of 
an experienced, community-based provider that serves homeless Veterans 
and their dependent children.
                               Background
    It is estimated that there are currently 39,471 Veterans 
experiencing homelessness in the United States. In FY 2017 alone, 600 
GPD-funded sites provided services to 23,737 Veterans through the use 
of over 12,500 transitional housing beds. VA data systems only track 
Veteran admission into GPD programs, so data on the number of children 
(and spouses) served in these programs is currently unavailable. 
However, based on an analysis conducted by the Homeless Program Office, 
the VA has identified that approximately 8% of Veterans who entered GPD 
programs and had a full assessment completed within 30 days prior to 
admission, had either full or partial legal custody of children. This 
is estimated to be 2,500 children in FY 2017. Additionally, 3,020 of 
the 23,737 Veterans served in GPD programs in FY 2017 were women, 
accounting for 13% of Veterans served.
  The Grant and Per-Diem Program is an Effective Housing Intervention
    It is our experience as a service provider that the VA's GPD 
program is a viable and effective housing intervention. Our 
organization is a Housing First agency, but also sees the need for 
transitional housing within the continuum of housing services to be 
essential, if not critical. There are distinct advantages to serving 
Veterans and their family members in a care setting through 
transitional housing. After all, homelessness is a symptom and not the 
diagnosis. It is the potential underlying root causes of homelessness 
that must be addressed, such as trauma or possible addiction to 
substances or mental health challenges. Some causes are circumstantial 
or environmental (i.e. the housing market or job loss), but others are 
internal and both should be addressed contemporaneously in order to 
help Veterans become permanently housed.
    Our organization takes a ``whole person'' approach to our care-
integrating primary care and behavioral health care services into a 
shelter setting. Because we get to know our Veterans and their family 
members through intensive case management and clinical care, we can 
accurately assess the risks associated with addiction and/or mental 
health struggles, such as suicidality. While in our care, Veterans and 
their family members not only receive dedicated shelter, but also a 
full suite of behavioral health care services that are customized to 
their individual needs. This ranges from parenting classes to 
certified, evidence-based interventions such as Family Therapy, 
Dialectical Behavioral Therapy, and gender-specific trauma groups.
    Transitional housing also gives our Veterans the opportunity to 
self-resolve. This is critical. You have likely heard the expression 
``I am just one paycheck away from homelessness.'' The converse is also 
true. Many are just one paycheck, one security deposit, one car repair 
away from being housed. The GPD program gives our Veterans the 
opportunity to get back on their feet again and to work hard in doing 
so. If we immediately place our homeless Veterans on housing subsidies 
without the critical support services, what incentive would one have 
for enhancing one's income and quality of life and no longer having 
need of a housing subsidy?
    A key component in our case management is to provide Veterans with 
increased skill and income. Whether through financial literacy classes, 
resume writing classes, computer literacy workshops, or mock 
interviews, we want to prepare our Veterans to be able to put their 
best foot forward in seeking and sustaining gainful employment. Working 
on soft skills and life skills within our care setting better prepares 
our Veterans to compete in the job market. Our agency has one of the 
highest rates of employment among GPD sites in Region 8, primarily due 
to the attention we spend on preparing our Veterans for employment, as 
well as our professional connections with business owners and 
employers. Attached are two articles highlighting our former clients 
``BANKS AND TRUST: Local credit union works with homeless vets to show 
them money matters'' and ``The new domestic war: A veteran's fight for 
basic human needs.''
    Here in the Denver Metropolitan region, housing affordability is a 
key barrier to finding a safe place to call home. Even with a housing 
subsidy, the Housing First approach only works if housing stock is 
readily available. Given that our vacancy rate is between 4%-5% in the 
Denver Metro, having transitional housing available is an important 
safety net program to ensure that Veterans and their family members are 
not left out cold on the streets while waiting for an affordable and 
accessible unit to become available.
    Because of the GDP program, the Comitis Crisis Center is able to 
serve 25 Veterans through eight GPD-funded beds, as well as 65-100 
attached family members in unfunded beds. (The GPD program does not 
reimburse providers for serving Veterans' family members.) The 
opportunity for these families to move through the GPD program, with 
other Veteran families, is a collective life-changing experience for 
them. The program builds a strong sense of community, which is a 
cornerstone principle for those involved in recovery. Well after 
graduating through our programs, our Veteran families stay in touch 
with each other, creating an environment for pro-social activities, as 
well as accountability. Peer Support Services have been shown to be 
effective in improving health, abstinence, quality of life and social 
connectedness. \1\ There is also evidence that peer-facilitated 
interventions improve social connectedness for women, \2\ decrease 
alcohol use for individuals with criminal justice involvement \3\ and 
improve rates of post-discharge treatment adherence. \4\
---------------------------------------------------------------------------
    \1\ Giese-Davis, J., Bliss-Isberg, C., Carson, K., Star, P., 
Donaghy, J., Cordova, M. J., & Spiegel, D. (2006). The effect of peer 
counseling on quality of life following diagnosis of breast cancer: an 
observational study. Psycho-Oncology, 15(11), 1014-1022.
    \2\ Marcenko, M. O., Spence, M., & Rohweder, C. (1994). 
Psychological characteristics of pregnant women with and without a 
history of substance abuse. Health & Social Work, 19, 17-22.
    \3\ Rowe, M., Bellamy, C., Baranoski, M., Wieland, M., O'Connell, 
M. J., Benedict, P. & Sells, D. (2007). A peer-support group 
intervention to reduce substance use and criminality among persons with 
severe mental illness. Psychiatric Service, 58(7), 955-961.
    \4\ Tracy, K., Burton, M., Nich, C., & Rounsaville, B. (2011). 
Utilizing peer mentorship to engage high recidivism substance-abusing 
patients in treatment. The American Journal of Drug and Alcohol Abuse, 
37(6), 525-531.
---------------------------------------------------------------------------
  The Changing Face of our Modern Military: Matching Services to Need
    As noted earlier, 13% of all homeless Veterans served in a GPD 
program in FY 2017 were women. It is estimated that the number of 
Veterans who are women will expand by 16% by 2035. It is important that 
our services continually adapt to the changing face of our modern 
military, including the services offered by the VA's GPD program. 
Currently, if you are a non-Veteran homeless family in the United 
States, federal funds (through HHS/TANF program) will pay a ``head-in-
bed'' per diem for each family member to the service agency housing the 
family. If you are a Veteran homeless family, the VA's Grant and Per 
Diem (GPD) program will only pay for the cost of occupancy for the 
Veteran but not for the attached and dependent children. This issue 
causes a barrier to access shelter services for both male and female 
Veterans with children, but more so for Veteran women who usually have 
children in tow. I have been asked why Veterans do not enroll in the 
TANF program for per diem services for family members when they come to 
our homeless shelter, the Comitis Crisis Center. The shelter is located 
in the seven-county Denver Metro area, but only has the capacity to 
administer TANF contracts with two of the counties through a 
competitive RFP process. If the Veteran happens to originate from one 
of these two counties, then the TANF benefit would apply. A challenge 
is that homeless Veterans are highly mobile and tend to cross state 
lines seeking employment opportunities or originate from counties that 
provider agencies do not have contracts with through their respective 
departments of human services. For these Veterans with family, we 
accept them into our GPD program, but absorb the cost of any associated 
dependents. Though it is the right thing to do, but it comes at a real 
cost to us and serves as a disincentive for serving homeless Veterans 
who have dependents. Below is a sample taken from an actual program 
year at Comitis:


                                           Calculation for Family Gap
----------------------------------------------------------------------------------------------------------------
                                                                                     Total
----------------------------------------------------------------------------------------------------------------
                         No of Veterans served - 2013                                                  25
----------------------------------------------------------------------------------------------------------------
                          No of family members - 2013                                                  61
----------------------------------------------------------------------------------------------------------------
                Average of family member per Veterans                                                2.44
----------------------------------------------------------------------------------------------------------------
                                   Forecasting - 2014
----------------------------------------------------------------------------------------------------------------
                                        Per diem rate                                               38.87
----------------------------------------------------------------------------------------------------------------
                                 8 Veterans - per day                                              310.96
----------------------------------------------------------------------------------------------------------------
          Average family member per Veteran - per day                                              758.74
----------------------------------------------------------------------------------------------------------------
Total expense per month for Veteran and family per day                                           1,069.70
----------------------------------------------------------------------------------------------------------------
for 12 months - 365 days expense for Veteran and family                                        390,441.38
----------------------------------------------------------------------------------------------------------------
            Reimbursable from Per diem - Veteran only                                          113,500.40
----------------------------------------------------------------------------------------------------------------
                                                  GAP                                          276,940.98
----------------------------------------------------------------------------------------------------------------
Reimbursement Gap Due to Serving Veterans With Dependents

    As you can see from the table, the Comitis Crisis Center must find 
alternative funding sources to cover the annual $276,941 gap in 
reimbursement to house Veterans' family members. Strictly speaking from 
a financial and program sustainability standpoint, it would be more 
efficient for us to end the GPD program and utilize our shelter beds to 
serve homeless families through the TANF program, whereby each bed has 
an attached per-diem rate to cover operating costs.
                            Recommendations
    Mile High Behavioral Healthcare appreciates the collective impact 
that the VA and provider agencies across the country have achieved in 
reducing Veteran homelessness. Aligning with the goal to completely 
eliminate homelessness among our Veterans, we recommend that the VA 
provide greater access to services for homeless Veterans with children. 
From operating costs to the reality that these children grow out of 
their shoes every month, we request that we better serve our Veterans 
by serving their greatest treasure-their children. A 2011 GAO study, 
``Homeless Women Veterans: Actions Needed to Ensure Safe and 
Appropriate Housing,'' noted that more than 60% of surveyed GPD 
programs that serve homeless women Veterans did not house children, and 
most programs that did house children had restrictions on the ages or 
numbers of children. I believe that we can and should do better! We 
greatly honor the family members of those engaged in active service 
away from home, and it is time to also honor our homeless Veterans and 
their family members by housing them all together so families do not 
undergo further trauma resulting from being separated from one another.
    Adapting policy to the changing needs of our homeless Veterans, we 
respectfully urge you to support H.R. 4099: To amend title 38, United 
States Code, to ensure that children of homeless veterans are included 
in the calculation of the amounts of certain per diem grants. H.R. 
4099, also known as the ``Homeless Veteran Families Act,'' is a bi-
partisan bill that gets us one step closer to providing better care for 
our Veterans and their family members.
    In addition to Mile High Behavioral Healthcare, the following 
Veteran Service Organizations also support this bill: The American 
Legion, The Wounded Warrior Project, Disabled American Veterans, 
Paralyzed Veterans of America, Got Your 6, National Coalition for 
Homeless Veterans, Veterans of Foreign Wars, Military Order of the 
Purple Heart, and American Veterans (AMVETS). Attached are letters of 
support from Gold Star Wives of America, The American Legion, 
Volunteers of America, and the National Coalition for the Homeless. 
Additionally, attached are letters of support from a sampling of other 
GPD sites, including: Catholic Services of Acadiana, Ohio Valley 
Goodwill Industries, McCall Center for Behavioral Health, Friendship 
Service Center of New Britain, Veterans Village of San Diego, Talbert 
House, Homeless Empowerment Program, Clara White Mission, and Father 
Joe's Villages.
    Thank you for the opportunity to submit this statement. Questions 
concerning this statement can be directed to James Gillespie, Community 
Impact and Government Relations Liaison, Mile High Behavioral 
Healthcare, at (720) 975-0155, extension 13 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4aea3ada8a8a1b7b4ada184a9aca6aca7eaabb6a3ea">[email&#160;protected]</a>

                                 <F-dash>
                  PARALYZED VETERANS OF AMERICA (PVA)
    CONCERNING: EFFORTS TO REDUCE VETERANS HOMELESSNESS

    Chairman Wenstrup, and Chairman Arrington, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to provide our views on the efforts of the 
Department of Veterans Affairs (VA), Department of Housing and Urban 
Development (HUD), and the Department of Labor (DOL) to reduce veteran 
homelessness.
    Every member of PVA, regardless of their injury, faces significant 
challenges when transitioning back into society. As a catastrophically 
disabled veteran it can be difficult to maintain substantial gainful 
employment which could very well result in them becoming homeless.
    In 2009, the White House and Department of Veterans Affairs (VA) 
announced the goal of ending veteran homelessness. This presidential 
mandate resulted in VA leadership adding homelessness programs as a 
metric to all director's dashboards. The Director's dashboard provides 
a list of the priorities for each individual Director.
    In 2014, Mayors Challenge was launched as an initiative among 
mayors to end homelessness in their respective cities. The program used 
vouchers to provide to homeless veterans to utilize for housing. This 
movement has resulted in many cities effectively ending ``functional'' 
homelessness. This program ended homelessness for newly homeless 
veterans, not those who previously received vouchers or were 
chronically homeless.
    Since then, thanks to VA's collaborative efforts with HUD, the U.S. 
Interagency Council on Homelessness, community partner organizations, 
and local and state governments, there was a 17 percent decrease in 
Veteran homelessness between 2015 and 2016 contributing to a 47 percent 
overall reduction in Veteran homelessness across the United States 
between 2010 and 2016. This statistic is quadruple the previous year's 
annual decline, and represents a 47 percent decrease since 2010. More 
specifically, as of August 1, 2016, the number of veterans experiencing 
homelessness in the United States has been cut nearly in half since 
2010. By utilizing a Point in Time count in January 2016, HUD estimated 
that just over 13,000 unsheltered veterans were living on the streets, 
a 56 percent decrease since 2010. A Point in Time count is a tool used 
to determine the number of sheltered and unsheltered homeless persons 
on a single night.
    In 2015 VA no longer recognized ending homelessness as a priority; 
therefore, all homeless programs were eliminated. Directors are no 
longer held accountable for the results of their homeless programs. 
Also homelessness is no longer on Director's dashboards. VA Central 
Office has only mandated that directors perform outreach, there is 
nothing specific provided about what must be conducted.
    When ending homelessness became a priority VA deployed a housing 
first strategy that was and currently is very effective. This program 
gets people in housing where they belong. Unfortunately this initiative 
does not address the underlying issue of why the veteran is homeless in 
the first place. Very rarely are financial issues the sole cause of a 
veteran's homelessness. It's no secret mental illness and substance 
abuse play a very important role in a veteran becoming homeless. In 
many cases the money HUD provides is not enough for the veteran to find 
housing in a good neighborhood. The veterans are forced to reside in 
the same areas they were trying to escape. Another problem is there is 
no mandate that veterans must be ``clean'' while participating in the 
program. It has been found that veterans with substance abuse problems 
will sometimes take advantage of this and transform their new residence 
into a drug house. This creates an adversarial relationship with the 
community that is often times very difficult to overcome. Unfortunately 
at this time, VA does not have the staff or the programs to address the 
problems with the voucher system.
    VA did conduct research and found that if a veteran is involved in 
the VA health care system they were less likely to commit suicide, 
become homeless or become incarcerated. The importance of increasing 
the access to VA medical care cannot be overstated. Currently the 
system in place to provide veterans with Mental Health care is broken. 
Many VA Medical Centers do not have the resources to provide the 
necessary psychiatric and therapeutic treatment. Moreover, there is a 
serious lack of providers who will actually work with VA to provide 
``choice care'' outside of the VA leaving veterans with few 
alternatives. For those veterans who are employed and have secondary 
insurance it is possible to find those services in the private sector. 
For veterans who are on the verge of homelessness that do not have the 
access or the ability to seek out these services, they will most likely 
give up, leaving their mental illness untreated and will also leave 
them on the street.
    Just recently Secretary of the Department of Veterans Affairs 
announced that he was going to reduce the amount of HUD/VASH funds and 
redistribute these funds to local VA Medical Centers and let leadership 
determine how the funds are best spent on their individual homelessness 
programs. The problem is, this program is no longer a metric for VAMC 
leadership. There will be no oversite as to how these funds are spent 
and what they are spent on.
    In response to the spotlight on homeless veterans, more 
specifically their disability claims, VA now expedites any claim filed 
by a homeless veteran. Initially a metric was implemented that required 
all claims to be completed within 90 days for homeless veterans. 
Unfortunately this has not been entirely successful since it takes 
longer to adjudicate a homeless claim than it does a claim that has not 
been expedited. As of January 5, 2018, the average amount of time to 
adjudicate a non-homeless expedited claim is 96 days; comparatively, 
the average time to adjudicate an expedited claim is 111 days. Not 
surprisingly, this is no longer a metric either; consequently, the 
staff and resources are no longer available to make this process 
successful.
    PVA certainly applauds VA's dedication to end homelessness and for 
the progress they have made; more progress needs to be made regarding 
the barrier to access to VA programs and services. There is a lack of 
outreach and resources for those who are most in need. Unfortunately, 
with the lack of resources and oversite for these programs which 
disappeared after 2015, the chance of any program being successful is 
minimal. VA has made strides but more work needs to be done for the 
program to be called a success. PVA offers the following 
recommendations to ensure homelessness programs are effective.
    First, there must be oversight. Without homelessness as a priority 
there is no longer any emphasis on ensuring the effectiveness of these 
programs. There should be a metric for Homelessness programs. If HUD/
VASH funds are going to be redistributed to VA Medical Centers those 
directors must be held accountable for how those funds are utilized. It 
should not be left to the respective medical center director's 
discretion as to how those funds are spent.
    Second, the HUD/VASH program must receive continued funding. In 
2015 leaders in Chattanooga, Tennessee joined the national movement to 
end veteran homelessness and were able to return to functional zero by 
January 2017. Unfortunately, due to a funding shortfall announced by 
HUD in June 2017 issuance of new housing vouchers were halted. For 
cities like Chattanooga to continue on their movement to end veteran 
homelessness they must receive the necessary funding to do so.
    Third, the lack of resources to provide adequate mental health care 
within VA medical centers must be addressed. If VA is unable to provide 
the resources needed for veterans to receive adequate care within their 
respective VAMC then the choice program must provide the stop gap so 
any veteran no matter where they reside is able to receive mental 
health care.
    PVA is announcing their support of H.R. 4099 the ``Homeless Veteran 
Families Act.''
    Under current law, a veteran who has dependent children is not 
eligible for services under the Grant Per Diem (GDP) program. VA does 
not have the authority to reimburse the costs associated with housing 
dependent children of homeless veterans. More often than not, providers 
will give preference to non-veteran homeless families due to other 
federal assistance programs being available to provide reimbursement of 
expenses for dependent children. Homeless veterans with children only 
account for three percent of all homeless veterans which has not 
changed in the past two years. The ``Homeless Veteran Families Act'' 
would provide the VA with the authority to pay a partial per diem to 
GDP providers. For each child the provider would receive per diem at a 
50 percent rate for each of the minor dependent(s) accompanying the 
veteran.
    Chairman Wenstrup and Chairman Arrington, PVA thanks you for the 
opportunity to offer our views and concerns on government programs 
aimed at ending veterans' homelessness. PVA is ready to work with the 
committee to support those efforts to help our veterans who have done 
so much for this nation and its people.

                                 <F-dash>
                          THE AMERICAN LEGION
    VA, HUD, AND DOL EFFORTS TO REDUCE VETERAN HOMELESSNESS

    Chairmen Wenstrup and Arrington, Ranking Members Brownley and 
O'Rourke and distinguished Members of the Subcommittees, on behalf of 
National Commander Denise H. Rohan and the 2 million members of The 
American Legion, we thank you and your colleagues for the work you do 
in support of our servicemembers and veterans as well as their 
families. The American Legion is our nation's largest patriotic and 
service organization for veterans, serving every man and woman who has 
worn the uniform for this country.
    We thank you especially for holding this hearing to assess the 
various programs the Department of Veterans Affairs (VA), Housing and 
Urban Development (HUD), and Department of Labor (DOL) use to provide 
homeless and at-risk veterans with housing, health care, supportive 
services, and job training, search, and placement assistance.
                               BACKGROUND
    Generally, the causes of homelessness can be grouped into three 
categories: economic hardships, health issues, and lack of affordable 
housing. Although these issues affect all homeless individuals, 
veterans face additional challenges in overcoming these obstacles, 
including: prolonged separation from traditional support systems such 
as family and close friends; highly stressful training and occupational 
demands, which can affect personality, self-esteem and the ability to 
communicate upon discharge; and non-transferability of some military 
occupational specialties into the civilian workplace. Research 
indicates that those who served in the late Vietnam and post-Vietnam 
eras are at greatest risk of becoming homeless, but that veterans from 
more recent wars and conflicts are also affected. \1\ Veterans 
returning from deployments in Afghanistan and Iraq often face invisible 
wounds of war, including traumatic brain injury and post-traumatic 
stress disorder, both of which correlate with homelessness.
---------------------------------------------------------------------------
    \1\ https://endhomelessness.org/ homelessness-in-america/ who-
experiences-homelessness/ veterans/
---------------------------------------------------------------------------
    VA and HUD reported a little over 40,000 homeless veterans on a 
single night in January 2017 (2017 Annual Homeless Assessment Report to 
Congress). \2\ VA has taken decisive action toward its goal of ending 
homelessness among our nation's veterans. To achieve this goal, VA has 
developed a plan to assist every homeless veteran willing to accept 
services retain or acquire: safe housing; needed treatment services; 
opportunities to retain or return to employment; and benefits 
assistance. Also, VA has implemented a prevention initiative - the 
Supportive Services for Veterans and Families (SSVF), which is VA's 
primary prevention program designed to help veterans and their families 
rapidly exit homelessness, or avoid entering homelessness.
---------------------------------------------------------------------------
    \2\ https://www.hud.gov/ press/press--releases --media--advisories 
/2017/HUDNo--17-109
---------------------------------------------------------------------------
    Since 2014, more than 880 mayors, governors, and other state and 
local officials have answered the call of the Mayors Challenge to End 
Veteran Homelessness, pledging to do all they can to ensure their 
communities succeed. And it's working. A growing list of 57 
communities, including the entire states of Connecticut, Delaware, and 
Virginia, have proven that ending veteran homelessness is possible and 
sustainable. \3\ As documented through federal criteria and benchmarks, 
urban, suburban, and rural communities across 26 different states have 
proven that they can drive down the number of veterans experiencing 
homelessness to as close to zero as possible, while also building and 
sustaining systems that can effectively and efficiently address 
veterans' housing crises in the future. \4\
---------------------------------------------------------------------------
    \3\ https://www.usich.gov /goals/veterans
    \4\ Ibid.
---------------------------------------------------------------------------
    The national data expresses the same picture of remarkable 
progress. Thanks to unwavering commitment and partnership at the 
federal, state and local levels, stakeholders and advocates have seen 
veteran homelessness reduced by 45 percent in this country between 2009 
and 2017. \5\ Progress has been driven by urgent action at all levels 
of government and across all sectors. Federal agencies have engaged in 
unprecedented coordination and shared responsibility. Congress has 
expanded investments into federal programs, such as the HUD-VA 
Supportive Housing (HUD-VASH) program and the Supportive Services for 
Veteran Families (SSVF) program, which provide a range of housing and 
service interventions. State and local entities and the philanthropic 
community have aligned investments with federal resources. Communities 
have formed stronger relationships to deploy those resources through 
best practices, including coordinated entry and Housing First 
approaches. Also, governors, mayors, and other public officials have 
mobilized their communities in support of a clear and ambitious goal to 
prevent and end veteran homelessness.
---------------------------------------------------------------------------
    \5\ https://obamawhitehouse.archives.gov/ blog/2016/11/14/ 
together-we-can-end- veteran-homelessness
---------------------------------------------------------------------------
    Another critical federal program in the fight to eliminate veteran 
homelessness is the Homeless Veterans Reintegration Program (HVRP) 
within the Department of Labor's Veterans' Employment and Training 
Services (DOL-VETS). HVRP is the most effective program available to 
address homeless veterans' financial issues by helping them obtain 
gainful employment. HVRP grantees use a case management approach to 
assist homeless veterans, and provide critical linkages for a variety 
of support services available in their local communities. The program 
is employment focused; veterans receive the employment and training 
services they need in order to re-enter the labor force. Direct 
services include placement in employment, skills training, job 
development, career counseling, and resume writing. Support services 
such as clothing, provision of or referral to temporary, transitional, 
and permanent housing, referral to medical substance abuse treatment, 
and transportation assistance are also available.
    In 2016, VA awarded $300 million via 275 individual SSVF grants to 
non-profit organizations in all 50 states, the District of Columbia, 
Puerto Rico, Guam, and the Virgin Islands. The VA's SSVF grantees cover 
400 of the 416 Continuums of Care across the country. \6\ Through FY 
2015, more than 157,000 homeless and at-risk veterans and their 
families were served with these funds. Additionally, in 2015, 55,669 
veterans served in the SSVF Program exited to permanent housing 
outcomes. Over the course of the program's lifetime, 78 percent of all 
participants have exited to permanent housing. \7\
---------------------------------------------------------------------------
    \6\ HUD's Continuum of Care (CoC) Program is designed to promote 
community-wide commitment to the goal of ending homelessness; provide 
funding for efforts by nonprofit providers, and State and local 
governments to quickly rehouse homeless individuals and families while 
minimizing the trauma and dislocation caused to homeless individuals, 
families, and communities by homelessness; promote access to and effect 
utilization of mainstream programs by homeless individuals and 
families; and optimize self-sufficiency among individuals and families 
experiencing homelessness.
    \7\ http://www.nchv.org/ images/uploads/ NCHV--Policy--Statement--
SSVF--2017.pdf
---------------------------------------------------------------------------
    Lastly, through FY 2017, HUD has awarded approximately 93,000 HUD-
VASH vouchers. \8\ Nationwide, more than 300 Public Housing Authorities 
(PHAs) have participated in the program. Recently, Congress made 
permanent a set-aside program to encourage HUD-VASH vouchers to be used 
on tribal lands, thereby filling an important gap in our service 
delivery system. HUD-VASH, SSVF and HVRP are very vital programs in the 
quest to combat and ultimately end veteran homelessness. Data has 
proven their quality and effectiveness.
---------------------------------------------------------------------------
    \8\ http://www.nchv.org/ images/uploads/ NCHV--Policy--Statement--
HUD-VASH--2017c.pdf
---------------------------------------------------------------------------
    The American Legion urges Congress and the VA to continue to 
adequately fund/prioritize these programs that have been game changers 
to at-risk and homeless veterans. The American Legion will not rest 
until we see continued efforts in getting veterans off the streets and 
into affordable and safe housing as well as support services they need 
in order to sustain their healthy independent living.
                    DEFINITION OF HOMELESS PROGRAMS:
    1. The HUD-VASH program combines Housing Choice Voucher (HCV) 
rental assistance for Veterans experiencing homelessness provided by 
HUD with case management and clinical services provided by VA. At the 
local level, the HUD-VASH program operates as a collaborative effort 
between VA Medical Centers (VAMCs) and local Public Housing Agencies 
(PHAs). The VAMC identifies Veterans who are eligible for the program 
and refers them to the PHA to receive a HUD-VASH voucher. The PHA 
provides the rental subsidy, and the VAMC provides case management and 
clinical services.

    2. The Supportive Services for Veteran Families (SSVF) Program, 
administered by the Department of Veterans Affairs, is the only 
national, veteran-specific program available to help at-risk men and 
women veterans from ever becoming homeless. The program is also the 
most suitable resource for homeless veterans who are able to quickly 
transition out of homelessness into permanent housing. SSVF grantees 
are nonprofit, community-based organizations that provide very low-
income veterans and their families with services in the following 
areas: health, legal, child care, transportation, fiduciary and payee, 
daily living, obtaining benefits, and housing counseling. The program 
also allows for time-limited payments to third parties - e.g. 
landlords, utility companies, moving companies, and licensed child-care 
providers - to ensure housing stability for veteran families. SSVF 
funds are leveraged with local Continuums of Care and other community 
partners at no extra cost to the federal government.

    3. Administered by DOL-VETS for over two decades, HVRP served 
approximately 17,000 veterans in 2016, with a national placement rate 
into employment of 68.4 percent. These men and women find employment at 
an average cost to the program of $2,007 per placement. Both the 
placement rate and the cost per placement represent improvements over 
the last several years. Please note - HVRP is the only nationwide 
program focused on assisting homeless veterans to reintegrate into the 
workforce. This program is a highly successful grant program that needs 
to be fully funded at $50 million. Currently, HVRP is funded at $45 
million.

HOMELESS DATA (2017 Annual Homeless Assessment Report [AHAR] to 
    Congress):

    <bullet>  40,056 veterans are experiencing homelessness in the U.S.
    <bullet>  Three in five homeless veterans (62% or 24,690 veterans) 
were staying in emergency shelters or transitional housing programs, 
while two in five (38% or 15,366 veterans) were found in places not 
suitable for human habitation
    <bullet>  Almost all veterans were experiencing homelessness in 
households without children (98% or 39,101 veterans). About two percent 
(955) were veterans who were homeless as part of a family
    <bullet>  The number of homeless veterans increased by 585 people 
between 2016 and 2017. This increase was driven entirely by an 18 
percent increase in the number of veterans experiencing homelessness in 
unsheltered places (2,299 more veterans). Partly offsetting the 
increase in unsheltered veterans, the number of sheltered veterans 
decreased by 1,714 people (or 7%).
    <bullet>  Increases among veterans experiencing homelessness were 
due entirely to increases among veterans in households without 
children. The number of veterans in families declined overall (by 16%), 
among sheltered veterans (by 11%) and unsheltered veterans (by 29%).
    <bullet>  Since 2009, veteran homelessness has dropped 
considerably, with 45 percent (or 33,311) fewer veterans experiencing 
homelessness in 2017 than in 2009.
    <bullet>  Just under 30 percent of all veterans experiencing 
homelessness were in California (29% or 11,472 veterans).
    <bullet>  In three states, more than half of all veterans 
experiencing homelessness were unsheltered. Those states were: 
California (67%), Hawaii (62%), and Oregon (53%).
    <bullet>  More than 1.4 million American veterans live in poverty 
and are more vulnerable to becoming homeless than their civilian 
counterparts. VA research shows that one in 10 veterans living in 
poverty is likely to experience homelessness.

    PREVENTION: The American Legion assists veterans and their families 
with:

    <bullet>  Disability claims and health care benefits
    <bullet>  Interview & Resume Workshops
    <bullet>  Branding & Networking Sessions
    <bullet>  Job Fairs
    <bullet>  Small Business Development Workshops
    <bullet>  Credentialing Roundtables and Summits
    <bullet>  Advocacy at Local, State and National Levels
                     EXAMPLE OF LEGION'S ASSISTANCE
    During The American Legion's 2017 Washington Conference, we went on 
a site visit and received a briefing from U.S.VETS about their programs 
and services. U.S.VETS is the nation's largest nonprofit provider of 
comprehensive services to at-risk and homeless veterans. In addition, 
we had conversations with several veterans about the program and how 
helpful it has been in assisting them with becoming more independent 
and hopeful for the future. The American Legion's Operation Comfort 
Warriors Program donated $4,800 worth of comfort items and necessities 
to the U.S.VETS facility during the tour. The in-kind donation was well 
received by U.S.VETS.
                               CONCLUSION
    Due to our work with homeless veterans and their families, The 
American Legion understands that homeless veterans need a sustained, 
coordinated effort that provides secure housing and nutritious meals; 
essential physical health care, substance abuse aftercare and mental 
health counseling; as well as personal development and empowerment. 
Veterans also need job assessment, training and placement assistance. 
The American Legion believes all programs to assist homeless veterans 
must focus on helping veterans reach their highest level of self-
management.
    The American Legion will continue to place special priority on the 
issue of veteran homelessness, and we call on Congress and the VA to do 
the same. With veterans making up approximately 10 percent of our 
nation's total adult homeless population, there is plenty of reason to 
give the cause special attention. \9\ Along with various community 
partners, The American Legion remains committed to seeing VA's goal of 
ending veteran homelessness come to fruition. Our goal is to ensure 
that every community across America has programs and services in place 
to get homeless veterans in the housing (along with necessary health 
care/treatment) while connecting those at-risk veterans with the local 
services and resources they need.
---------------------------------------------------------------------------
    \9\ https:// www.legion.org/ homelessveterans/taskforce
---------------------------------------------------------------------------
    The American Legion applauds Congress for its substantial funding 
for homeless programs, while giving major thanks to VA, HUD, and DOL, 
for its implementation of these programs that have literally saved the 
lives of thousands of veterans. We strongly believe that with the path 
VA has taken in eliminating veteran homelessness, and the proper 
utilization of the resources at the state level and in local 
communities, we can continue to make tremendous progress.
    The American Legion thanks the subcommittees for holding this 
important hearing and for the opportunity to explain the views of the 2 
million veteran members of this organization. For additional 
information regarding this testimony, please contact Mr. Jeff Steele, 
Assistant Director of The American Legion's Legislative Division at 
(202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48e979081818881a48881838d8b8aca8b9683ca">[email&#160;protected]</a>

                                 <F-dash>
          VETERANS OF FOREIGN WARS OF THE UNITED STATES (VFW)
    Statement of Kayda Keleher, Associate Director

    NATIONAL LEGISLATIVE SERVICE WITH RESPECT TO

    ``ADDRESSING VETERAN HOMELESSNESS: CURRENT POSITION; FUTURE 
COURSE''

    Chairmen Arrington and Wenstrup, Ranking Members Brownley and 
O'Rourke, members of the Subcommittees, on behalf of the women and men 
of the Veterans of Foreign Wars of the United States (VFW) and its 
Auxiliary, thank you for the opportunity to provide our remarks on the 
oversight for efforts of the Departments of Veterans Affairs (VA), 
Labor (DOL) and Housing and Urban Development (HUD) to reduce veteran 
homelessness, as well as VA's decision to realign specific purpose 
funding for homeless veterans' programs.
    In recent years, these three agencies have made significant 
improvement toward ending veteran homelessness. However, much work 
remains.

HOMELESS VETERAN POPULATION

    A homeless person is federally defined under the McKinney-Vento Act 
as an individual or family lacking fixed, regular and adequate 
nighttime residence. Thanks to efforts by this committee, the 
definition is also expanded to include those fleeing domestic violence 
and other dangerous or life-threatening conditions.
    Immunity to homelessness does not exist for any subset of the 
veteran population. Homelessness does not discriminate against gender 
or race, though it is worth noting that women veterans are an 
exceptionally vulnerable portion of this population. Women veterans are 
at an increased risk of homelessness (2.4 percent), when compared to 
their male veteran counterparts (1.4 percent). This is in part due to 
their increased risk of post-traumatic stress disorder (PTSD), loss of 
employment, dissolution of marriages, and feelings of having a lack of 
gender-specific support. These increased risks may all be amplified if 
the veteran does not self-identify as a veteran--meaning they may be 
less likely to be offered or seek veterans benefits. It is also 
important to note that 21 percent of homeless women veterans have 
dependent children, which often times may add to the anxiety and 
importance of finding permanent housing. In the VFW's survey of women 
veterans, 46 percent of women veterans who were homeless or at risk of 
becoming homeless were currently living in another person's home, of 
that 46 percent, 71 percent have children.

PROGRESS IN ADDRESSING NEEDS

    Since 2009, the rate of veteran homelessness has been nearly sliced 
in half. With an overall decrease of nearly 50 percent of this 
population, and three states and 57 communities having virtually ended 
veteran homelessness within their borders, efforts between VA, DOL, and 
HUD have clearly been successful. However this should not create 
complacency, as major metropolitan areas saw slight increases in their 
homeless veteran populations between 2016 and 2017.
    This impressive rate of progress over recent years is in part due 
to VA using various evidence-based practices such as Housing First, 
Getting to Outcomes and the Maintaining Independence and Sobriety 
Through Systems Integration, Outreach and Networking: Veterans Edition. 
By implementing these programs with case management teams serving 
homeless veterans VA has been able to target veterans who struggle with 
comorbidities that adds to their risk of homelessness, while helping 
them obtain a stable roof over their heads. These practices include, 
but are not limited to, programs such as Department of Housing and 
Urban Development-VA Supportive Housing (HUD-VASH) vouchers, Homeless 
Providers Grant and Per Diem Program (GDP) and Supportive Services for 
Veteran Families (SSVF).
    The HUD-VASH program is a collaborative program between HUD and VA 
which emphasizes the ``Housing First'' model of care. In this program, 
homeless veterans receive a housing choice rental voucher from HUD, 
which is paired with VA case management and supportive services to 
sustain housing stability and recovery from physical and mental health 
programs that may contribute to or result from homelessness. 
Approximately half of the veterans who have used this program have 
accomplished their goals or no longer require services. In 2016, HUD-
VASH housed 72,481 veterans.
    However, veterans fortunate enough to obtain HUD-VASH vouchers also 
face difficulties. The VFW's service officers have reported in various 
cities that their homeless veterans sometimes prefer sleeping under a 
bridge rather than living in the unsafe neighborhoods eligible through 
their vouchers. With a high percentage of homeless veterans suffering 
from poor mental health, the VFW does not believe they should be forced 
to struggle with their PTSD in some of the most unsafe neighborhoods in 
the country. Nor should survivors of sexual trauma be forced to choose 
between homelessness and a neighborhood where their homes have been 
broken into and they are harassed on the streets. The VFW urges 
Congress, VA and HUD to work together with local VA's to find solutions 
best for those cities to ensure HUD-VASH vouchers put veterans in safe 
and secure housing.
    Veteran families transitioning to permanent housing with low income 
may utilize SSVF. This program was designed to rapidly rehouse homeless 
veteran families and prevent homelessness for those at imminent risk. 
In 2016, SSVF assisted nearly 150,000 individuals, all of whom are 
veterans or their families.
    Under the GPD program, grants are awarded by VA to community-based 
agencies to create transitional housing programs and offer per diem 
payments. This is intended to promote the development and provision of 
supportive housing and supportive services with the goal of helping 
homeless veterans achieve residential stability, increase their skill 
levels and/or income and obtain greater self-determination. In 2016, 
more than 16,500 veterans exited these programs for permanent housing. 
It is worth noting that without the case management support that comes 
with HUD-VASH, veterans using the GPD program will most likely struggle 
to maintain a level of stability and housing.
    Aside from Housing First programs, VA also offers a variety of 
health care services specific to the needs of homeless veterans. This 
ranges from the Homeless Veterans Dental Program to Homeless Patient 
Aligned Care Teams. This is absolutely crucial to the holistic needs to 
overcome homelessness.
    To further address the holistic needs of overcoming homelessness, 
VA is partnered with DOL for employment training and searching. The 
Homeless Veterans Reintegration Program (HVRP) provides veterans with 
case management to assist in training, searching and placement. This 
program is the only DOL program wholly dedicated to providing homeless 
assistance to homeless veterans. It is critical in offering assistance 
to homeless veterans as they become more stable and helps prepare them 
to reenter the workforce in a role of meaningful, long-lasting 
employment.
    Through surveys, the VFW is aware homeless veterans are 
significantly more likely to be dissatisfied with VA employment 
benefits and the Transition Assistant Program. Congress and VA 
recognized certain veterans face considerable barriers to employment 
and need more inclusive case management and support services. To 
address this issue, Congress created the Vocational Rehabilitation and 
Employment (VR&E) program. VR&E also provides other support, such as 
counseling and assistance finding meaningful employment. The VFW views 
VR&E as a cornerstone of VA services. That is why we urge Congress to 
expand VR&E eligibility requirements by authorizing VA to classify 
homelessness as a qualifying barrier to employment, without regard to 
service-connection or when a veteran was discharged from military 
service.

HOLISTIC CARE NECESSARY TO IMPROVE

    Treating and eliminating homelessness must be done in a holistic 
manner. This involves taking a deep look and understanding at the 
homeless individual's status of income and employment --whether that 
employment is meaningful or not, if they suffer from mental illness, 
substance abuse disorders, disabilities or a lack of basic independent 
life skills. For veterans, these individual symptoms of homelessness 
are often magnified when trying to transition from military to civilian 
life. They may have unsuccessful attempts at reintegrating into their 
new life and community post-military service. Supportive services such 
as legal assistance or child care help ensure homeless veterans are 
able to successfully transition back to civilian life. The VFW believes 
it is absolutely imperative for Congress, VA, DOL and HUD to 
systematically address the holistic economic, psychological, 
sociological and overall health care needs of veterans asking for 
assistance in overcoming homelessness.
    One particular way this can be done is by meeting the need of child 
care assistance for veterans seeking employment training through VA and 
DOL programs. Through VFW's survey of women veterans, we found that one 
of the top barriers to overcoming homelessness for this population was 
access to child care. If a veteran cannot afford rent, then it is not 
feasible to assume they can afford the cost of child care. This is why 
the VFW urges Congress to pass legislation which would allow for cost-
free access to such services for veterans below state poverty threshold 
limits. Cost-free access to child care for this population would also 
serve as one of the few means for VA and DOL to prevent homelessness. 
Many benefits require veterans to be on the streets before they are 
deemed eligible for benefits.
    There are currently four pilot sites offering free child care 
within VA, which are not limited to low-income veterans, but have been 
vital tools in ensuring veterans are able to attend their scheduled 
appointments or complete treatment regimens without the child care 
pilot program. This important program must be made permanent and 
expanded to include homeless veterans and those at risk of becoming 
homeless.
    The VFW also encourages Congress to work with VA to provide more 
separate living arrangements for veterans with children and veterans 
who have survived sexual trauma. Congress and VA must work together to 
better understand that individuals face homelessness for different 
reasons, and their needs to overcome homelessness are equally unique.

FUNDING

    While the reduction in veteran homelessness has been impressive, 
and the holistic partnerships and approaches taken by VA, HUD and DOL 
are absolutely critical to that success, such success could be 
diminished if funding fails to keep pace with demand. Congress must not 
force the government to manage by the need of budget for this 
population, but by the need of demand.
    The National Coalition on Homeless Veterans (NCHV) found that flat 
funding for VA's pillar programs in fiscal year 2018 will not meet the 
necessary demand to continue reducing the homeless veteran population. 
Of particular concern for the VFW and NCHV are HVRP, HUD-VASH and SSVF. 
The HUD-VASH program alone is credited as being the most responsible 
for the nearly 50 percent decrease in the homeless veteran population 
as this program has helped house nearly half a million veterans and 
their families.
    Specifically, the VFW has great concerns with VA's decision to 
realign specific-purpose funds allocated for homeless programs as a 
means to provide VA health care facility directors with more individual 
control over their location's general funding needs. In theory, this 
could be a successful idea. But this theory will undoubtingly be a 
failure without the transparency and desire to work with Veteran 
Service Organizations (VSOs) and Congress, and that cost should most 
certainly not come at the expense of homeless veterans.
    After receiving negative feedback from VSOs, and a letter from the 
Senate Appropriations Subcommittee on Military Construction, Veterans 
Affairs and Related Agencies, VA chose to put a temporary halt on this 
initiative. We ask that this committee join us in closely monitoring 
VA's attempts to handicap its successful homeless veterans programs.
    Taking away the guaranteed specific-purpose funding for homeless 
veteran programs, such as the massive cut initially suggested by VA to 
HUD-VASH, would result in a guaranteed failure of the program. The 
specific funding for HUD-VASH is crucial to the ability of case 
managers within VA to properly perform their jobs and assist homeless 
veterans in all the ways they are intended to help. These case managers 
are like life coaches for homeless veterans getting their feet back on 
the ground. This program's case management is the embodiment of the 
holistic approach and answer to successfully overcoming homelessness.
    Since VA has reconsidered and postponed the timeline to readjust 
this funding, the VFW has eagerly awaited the opportunity to have a 
transparent and open conversation with VA about the intent and how to 
responsibly move forward. Yet just because the decision was put on hold 
for now does not mean there were no repercussions. The VFW's Department 
of California's Homeless Service Providers have found that VA's 
attempts to reallocate HUD-VASH funding has negatively impacted the 
program.
    The two primary concerns they have found thus far include 
employment rates of HUD-VASH case managers as well as individual state-
funded programs for homeless veterans. In communities across 
California, such as Kerr County, VA has not been able to hire enough 
HUD-VASH case managers even with current funding. This results in case 
managers taking on an average of 50 homeless veterans instead of VA's 
suggestion of 25 homeless veterans per case manager. While managing 
twice as many veterans as suggested, and with the travel requirements 
of case management, locations such as these are not able to utilize all 
the vouchers they receive. With a massive cut in funding, there is a 
major fear that employment rates for case managers will only get worse. 
It has also been rumored that voucher distribution will be halted in 
some communities, out of fear that they will run out.
    Also, various states who have implemented their own programs to 
assist in combating veteran homelessness that rely on HUD-VASH funding. 
For example, California's Proposition 41, Veterans Housing and Homeless 
Prevention Bond, is heavily dependent on VA's Supportive Housing as a 
subsidy for the bonds used to provide for homeless veterans and their 
families. This serves as an example of how cutting HUD-VASH funding 
could have even more worrisome unintended consequences that cut deeper 
than originally thought.

                                 <F-dash>
                  VETERANS VILLAGE OF SAN DIEGO (VVSD)
    Congressional Testimony Written Statement
    From: Kimberly M. Mitchell, President and CEO Veterans Village of 
San Diego
    Veterans Village of San Diego (VVSD) is a nationally recognized 
non-profit that has served veterans since 1981. We are the primary San 
Diego non-profit in providing housing and services for homeless 
veterans and supportive services to veterans and their families. For 
over 3 decades, VVSD has focused on housing and serving veterans in 
need, especially veterans who struggle with homelessness, addiction, 
mental health issues, war trauma, and long-term unemployment.
    VVSD operates over 500 beds for homeless veterans and their 
families throughout San Diego County. In addition, we currently operate 
hundreds of emergency and transitional beds for homeless veterans. 
Later this year, we will open a brand new permanent supportive housing 
apartment complex with 54 units of 1, 2, and 3 bedroom apartments where 
low income, homeless veterans and their families will have a place to 
live with access to the comprehensive programs and resources they need.
    In our residential treatment programs, VVSD assists veterans who 
have substance use and mental health issues, which includes men and 
women of all generations from Vietnam through the current conflicts. 
Working with alcohol and drug case managers and mental health 
professionals, our clients have the opportunity to rebuild their lives, 
repair relationships and return to the community as productive 
citizens.
         HOW VVSD VIEWS OUR PARTNERSHIPS WITH THE VA, HUD & DOL
    With excellent financial and moral support from DOL, VA, and HUD, 
VVSD programs have turned around and even saved the lives of thousands 
of homeless veterans. In 2017 VVSD's Veteran Employment Programs funded 
by DOL/HVRP, the California Employment Development Department, Walmart, 
and USAA placed over 300 homeless veterans into a variety of full-time 
meaningful employment positions with an average starting wage exceeding 
$14 per hour. Another example of VVSD's success is that our VA Rapid 
Re-housing program. Known as the VA Supportive Services to Veterans 
Families (SSVF) Program, Rapid Rehousing has placed and served over 
1544 veterans (250 households with children) since 2013, and has 
prevented homelessness to over 135 households with children. Our SSVF 
Program not only placed these veterans into permanent supportive 
housing but also assisted them secure income from a job or benefits 
programs. We continue to work with many of these veterans on the issues 
most important to them ranging from family budgeting, to trauma 
assistance, to securing a job or obtaining Veterans' Benefits. Without 
these excellent programs, hundreds, perhaps thousands, more homeless 
veterans would live on the streets of San Diego, in their vehicles, 
under bridges, or in canyons.
    As valuable as these federal programs are to San Diego's homeless 
veterans and to VVSD, San Diego continues to have major homeless 
challenges. Even though San Diego County is the 17th largest region in 
the U.S., we have the third highest number of homeless veterans; over 
2,000 in the course of a year. Veterans are not the only people who are 
homeless in San Diego, but last January, the annual count discovered 
over 9000 homeless people in San Diego County, of which over 5,600 are 
unsheltered homeless. Some of the reasons why our region has a high 
population of homeless people and homeless veterans include the 
following:

    1) San Diego has an enormous shortage of affordable housing. As a 
result, many landlords are reluctant to accept veterans and other low 
income people subsidized by SSVF, HUD-VASH, Section 8 and similar 
programs. Our public housing has a waiting list of many years. Locally, 
the City of San Diego pays double security deposits to landlords to 
accept rapid re-housing veterans. We believe this is a great idea that 
could be followed by the federal government.

    2) Many federal housing programs minimize the scourge of drug use 
and how much it directly contributes to homelessness and deaths in San 
Diego and across the country. San Diego continues to be the 
methamphetamine capital of America. In 2016, 377 San Diego deaths were 
linked to Methamphetamine, 66 more than the prior year. Last year 47% 
of all meth seizures on the U.S. border were in San Diego County 
according to the DEA and U.S. Customs and Border Protection. 56% of 
adults booked into county jails tested positive for the drug last year 
compared to 49% in 2015.

    VVSD recognizes that there are many homeless veterans who do not 
have substance use or mental health problems. The ``Housing First'' 
model, which has assisted in placing many of our clients into much 
needed permanent supportive housing, may overlook the direct connection 
between homelessness, drug use, war trauma or mental health issues. 
VVSD believes that the ``Housing First'' model is a great solution for 
some, but not the only solution for all of our homeless veterans. 
VVSD's experience and third party data indicate to us that over 50% of 
all homeless veterans struggle with substance use. Similarly, a 
comprehensive Army study of nearly 500,000 soldiers and veterans from 
the Iraq and Afghanistan Wars concluded that repeated deployments and 
the effects of combat were the top reasons why 47% of these combat 
veterans suffered from Post-Traumatic Stress (PTS). At VVSD's 
residential treatment center for homeless veterans, our Mental Health 
Clinicians work with over 2/3 of these homeless veterans who struggle 
with both substance use disorder and PTS or other traumatic conditions. 
These challenges have multiple causes but are often based on a 
combination of living on the street, prior physical, sexual or 
emotional abuse in the family or the military, and the effects of 
military combat. In our view, it's critically important for government 
programs to be allowed and continue to fund these underlying causes of 
veteran homelessness.
    VVSD believes the HUD-VASH Program is a valuable service for many 
homeless veterans. However, the VA Case Management ratio is often too 
high with 35-40 veterans for each VA Social Worker. Since these 
veterans usually live in different areas of a sprawling San Diego 
region, we think a better and more effective case management ratio for 
VASH would be 1:20.
    Finally, San Diego needs more homeless prevention services. If the 
VA, DOL, and HUD were to fund outpatient veteran service clinics that 
prevent homelessness, it would be a wonderful use of government funds 
and would be far less costly than treating veterans after they become 
homeless or end up in prison. These veteran service centers ideally 
would have a variety of services including mental health and substance 
use treatment, providing individual, group and family therapy, and 
recovery support groups, similar to the Alcoholics Anonymous 12-step 
model. These centers would also provide job search assistance and a 
social support system where veterans have the opportunity to socialize 
and support each other as they face the challenges of reintegrating 
into the civilian world, post-military. Veterans have a special 
connection to other veterans and once discharged from the service, they 
strive to reestablish that connection, and these veteran service 
centers would be a great resource for them.

    Respectfully,

    Kimberly M. Mitchell
    President & CEO

                                 <F-dash>
                             VETS ADVOCACY
    January 18, 2018

    Chairman Phil Roe, M.D.
    House Committee on Veterans Affairs
    335 Cannon House Office Building
    Washington, D.C. 20515

    Ranking Member Tim Walz
    House Committee on Veterans' Affairs
    333 Cannon House Office Building
    Washington, D.C. 20515

    Re: HVAC ``Addressing Veteran Homelessness: Current Position; 
Future Course'' Statement for the Record

    Dear Chairman Roe and Ranking Member Walz,

    We write to thank you for your leadership in addressing the veteran 
homelessness crisis in Los Angeles. Vets Advocacy is a nonprofit formed 
out of the landmark settlement of the class action brought on behalf of 
homeless and disabled veterans, Valentini v. Shinseki, to partner with 
the U.S. Department of Veterans Affairs (VA) to end veteran 
homelessness. We represent the interests of our former clients in that 
lawsuit, homeless and disabled veterans in Los Angeles. The settlement 
agreement that created us not only settled the litigation, but also 
created a long-term partnership between us, as representatives of the 
Valentini plaintiff class, and the VA. The single biggest project at 
the heart of our partnership with the VA is the revitalization and 
reactivation of the 388-acre West LA VA campus. Together with the VA, 
we helped deliver a Draft Master Plan that called for the development 
of 1,200 supportive housing units for homeless veterans, including all 
the essential life-enhancing services to support the future residents 
on the campus. In January 2016, the Secretary of the VA took a historic 
step by adopting the Draft Master Plan as official policy for the 
campus. Following VA's adoption of the Draft Master Plan, Congress 
proudly fulfilled its obligation, without any opposition, to LA's 
homeless veterans by enacting the West Los Angeles Leasing Act of 2016. 
That law authorized the implementation of the Draft Master Plan and 
expressly gave the Secretary broad authority to develop homeless 
veteran housing on the 388-acre West LA VA campus.
    The veteran homelessness crisis in Los Angeles has substantially 
deteriorated. According to the most recent homeless count, there were 
over 40,000 veterans experiencing homelessness nationwide in 2017, a 
1.5% increase from 2016. Los Angeles County accounted for much of the 
increase, with the number of veterans experiencing homelessness rising 
57% from 3,071 in 2016 to 4,828 in 2017. This was even sharper than the 
overall increase in homelessness in the county, which saw a 23% rise to 
a new high of 57,794 in 2017. Veterans experiencing homelessness in Los 
Angeles County were also especially vulnerable as the majority were 
unsheltered; in 2017, 73% of veterans were unsheltered, up from 53% of 
veterans being unsheltered the prior year. If veterans experiencing 
homelessness in Los Angeles and Seattle were excluded from national 
figures, veteran homelessness would have declined by 5% in 2017; as 
such, addressing veteran homelessness in these regions should continue 
to be a priority.
    The role of the West LA VA campus in halting veteran homelessness 
in Los Angeles will be hugely significant. The Draft Master Plan's 
1,200 supportive housing units will add significant and critical supply 
to LA's housing market for homeless veterans, which has been plagued by 
unprecedented scarcity.
    A key element of the Draft Master Plan is the provision of 
supportive services to ensure homeless veterans stay housed and receive 
the support they need to live independently and with purpose and to 
have meaningful social connections to community. Much of that funding 
will come from the special purpose funding for the HUD-VASH program, 
which a memorandum dated September 22,2017 put at dire risk. Currently, 
given the disproportionate number of homeless veterans in Los Angeles, 
the VA Greater Los Angeles Healthcare System receives a substantial 
amount of specially-allocated HUD-VASH funding.
    Last year, the amount of that funding going to Los Angeles was 
roughly $90 million. It funded the Welcome Center on the West LA VA 
campus, as well as supportive services, including outreach workers, 
peer-to-peer support, and case management, for up to 6,000 homeless 
veterans living in community-based supportive housing. Abandoning the 
agency's long-standing policy of special funding for homeless veterans, 
all these services that are essential to helping those who fought for 
this country, including the roughly 60 emergency beds in the Welcome 
Center, are in serious jeopardy. Given the undisputed need for those 
services in Los Angeles, we unequivocally oppose the directive set 
forth in that memorandum.
    While it is our understanding that the VA has subsequently modified 
the position articulated in the September 22 memorandum, we remain 
extremely concerned about the underlying administrative approach 
embodied in that document. Any compromise or diminution in the 
itemization of funds for these critical support services deprives 
veterans of the wide of services they need and deserve. It would be our 
hope that should the VA return to policies as outlined in that 
memorandum, that Congress would take appropriate and immediate action 
to repeal such efforts.
    We are grateful for your leadership and hope you can continue to 
ensure our homeless veterans have the resources and policies they need 
to have affordable, decent, and safe housing. In addition, I am happy 
to make myself available to you or committee staff for any questions or 
clarification regarding Vets Advocacy's statement for the record.

    Sincerely,

    Jesse Creed
    Executive Director
    Vets Advocacy
    10250 Constellation Blvd, Suite 100
    Los Angeles, CA 90067
    424-348-0086

                                 <F-dash>
                        Questions For The Record

Question from Representative Beto O'Rourke:

During the hearing, HUD stated that it had started a pilot program that 
    allows a certain number of veterans with other than honorable 
    discharges to access the HUD-VASH program. Please provide a 
    detailed description of this pilot program, including the number of 
    veterans currently participating in the pilot program, the number 
    of total veterans expected to participate over the course of the 
    pilot program, the start and end dates of the pilot program, the 
    cost of the pilot program, and the metrics that will be used to 
    measure the results of this pilot program.

HUD Response:
    One of the requirements to date for admission to the HUD-Veterans 
Affairs Supportive Housing (HUD-VASH) program has been that 
participants must be eligible to receive Department of Veterans Affairs 
(VA) health care benefits. VA's determination of eligibility is 
dependent on the participant's discharge status and length of service. 
Nationally, HUD and VA estimate that 15 percent of veterans 
experiencing homelessness are ineligible for VA health care services; 
many of these veterans are chronically homeless individuals and 
families with a history of recurring bouts of homelessness. 
Additionally, many communities are reporting that while they are able 
to serve most eligible veterans who require permanent supportive 
housing, there's a large need for resources to serve the veterans who 
are not eligible for VA health care.
    To address this need, HUD, VA, and the United States Interagency 
Council on Homelessness (USICH) have implemented flexibilities under 
the existing HUD-VASH program to allow Public Housing Authorities (PHA) 
to partner with VA-designated supportive service providers to 
administer the HUD-VASH program. These non-VA service providers will be 
able to serve the veterans, except those with dishonorable discharge 
status on their DD-214, that were determined ineligible for VA health 
care benefits.
    For a PHA to adopt this flexibility, the local VA facility must 
first demonstrate they have sufficient HUD-VASH resources to meet the 
needs of the existing VA-eligible chronically homeless veteran 
population. If the resources are sufficient, VA may consent to the 
partnering PHA's designation of up to 15 percent of its HUD-VASH 
vouchers for use by other homeless veterans, with services provided by 
the VA-designated supportive service providers. Service providers must 
enter into a formal agreement with the PHA that ensures the program 
will be administered in accordance with all applicable HUD-VASH 
requirements, including prioritizing participants, participant 
referrals, case management and services. An interagency review 
committee must approve the supportive service provider agreement, and 
VA will issue a formal approval letter.
    Many supportive service providers who receive funds through HUD's 
Continuum of Care (CoC) program currently provide case management 
services to this under-served veteran population. Designated service 
providers do not receive any additional funding for their participation 
in the HUD-VASH program. There is no change to the way PHAs administer 
the HUD-VASH program. There is no additional cost to the PHAs or to 
HUD. PHAs would continue issuing HUD-VASH vouchers upon referral.
    At present, only New York City, New York and Northampton, 
Massachusetts have been approved to use this flexibility.
    In New York City, the two local VA facilities, the Bronx VA Medical 
Center and the VA New York Harbor Health Care System, and the local 
public housing authority, New York City Housing Authority (NYCHA), 
jointly agreed to allocate up to 5 percent of their total HUD-VASH 
voucher allocation, or 147 vouchers, to serve this expanded veteran 
population. NYCHA will administer the expanded HUD-VASH vouchers in 
partnership with the designated service provider, the New York State 
Division of Veterans Services.
    In Northampton, the VA Central Western Massachusetts Healthcare 
System and Northampton Housing Authority agreed to allocate up to 25 
HUD-VASH vouchers to serve this population. The designated supportive 
service provider is Soldier On, a private nonprofit organization.
    In both cases, these numbers were determined after careful review 
of CoC homelessness data. HUD does not have leasing data on these 
vouchers at this time.
    The interagency group has limited the initial number of approved 
communities to a maximum of nine. There is no set time frame or set 
number of communities that will be considered for future expansion. 
Expansion will be done deliberately to ensure newly selected agencies 
can learn from the experiences of the previously approved communities.
    The metrics used to measure success of the participating PHAs will 
be the same as the traditional HUD-VASH vouchers. PHAs will be held 
accountable for maintaining high levels of voucher utilization and 
issuance of available vouchers in a timely manner.
    HUD and its partners at VA and USICH will have more information to 
report after communities that have been approved begin implementing 
this flexibility.

                                 <F-dash>
                   MIAMI VA HEALTHCARE SYSTEM LETTER
    In Reply Refer To: 546/00/122

    Teresa Patterson
    Broward County Housing Authority
    4780 North State Road 7
    Lauderdale Lakes, FL 33319

    Dear Ms. Patterson:

    Thank you for your interest in providing Homeless Services to 
Homeless Veterans. The Miami VA Healthcare System is committed to 
providing HUD VASH services to eligible Veterans. Tremendous progress 
has been made in reducing Veteran Homelessness in Broward and Miami-
Dade counties.
    Historically, requests for additional HUD VASH vouchers have been 
supported with additional resources to provide case management to the 
high-risk chronic homeless individuals. However, due to a shift in the 
allocation of resources for HUD VASH VA Central Office, this is no 
longer the case. This has resulted in a reorganization and 
consolidation of the program. As a result, the Miami VA Healthcare 
System is unable to support the request for additional HUD VASH 
Vouchers at this time, but the request can be revisited in 6-9 months. 
We continue to be committed to providing the highest quality services 
to those Veterans who are currently receiving HUD VASH services at this 
time.
    If you have any further questions, you may contact Beth Wolfsohn, 
Homeless Program manager at (305) 575-7000 extension 2511.

    Sincerely,

    Paul M. Russo, MHSA, FACHE, RD
    Medical Center Director

                                 <F-dash>
    FROM CONGRESSWOMAN ANN KUSTER TO DEPARTMENT OF VETERANS AFFAIRS
    Congresswoman Ann Kuster:

    1.New Hampshire-based housing organizations have experienced a 
shortage of caseworkers to work VA's supportive housing initiatives 
under the HUD-VASH program. These hiring challenges across the nation 
have presented significant impediments to achieving ``functional 
zero''.
    a.Please describe in detail what VA has done and is currently doing 
to address these hiring challenges, in New Hampshire and also 
nationwide.
    Department of Veterans Affairs (VA) Response: VA currently provides 
specific purpose funding to support positions providing care and 
services related to the Department of Housing and Urban Development-VA 
Supportive Housing (HUD-VASH). There are approximately 3,700 positions 
funded nationally to support HUD-VASH, with almost 3,300 (88.6 percent) 
of them filled at the end of December 2017. Positions are expected to 
be filled within 90 days of receipt of funding. In the event of vacant 
positions, it is expected that staff will be detailed into HUD-VASH 
positions as needed to ensure that there is continuity of care and that 
access to HUD-VASH services is not reduced.
    New Hampshire is primarily served by two VA medical centers (VAMC), 
Manchester, New Hampshire and White River Junction, Vermont. The 
Manchester VAMC has 13 HUD-VASH positions, all of which are currently 
filled. The White River Junction VAMC has 11 HUD-VASH positions, 10 of 
which are currently filled. The use of HUD-VASH vouchers across the New 
Hampshire public housing authorities (PHA) remains high with 92.17 
percent of all New Hampshire vouchers leased up.


 
----------------------------------------------------------------------------------------------------------------
                                                   Veterans with     Veterans
                                     Veterans      a Voucher and    Awaiting a       Vouchers
      PHA        Vouchers Issued      Leased        Looking for    Voucher from      Available    Percent Housed
                                                      Housing         the PHA
----------------------------------------------------------------------------------------------------------------
        NH001              138             133               4               2              -1          96.37%
----------------------------------------------------------------------------------------------------------------
        NH901              143             126               7               4               6          88.11%
----------------------------------------------------------------------------------------------------------------
        Total              281             259              11               6               5          92.17%
----------------------------------------------------------------------------------------------------------------

    b.Please describe in detail what VA has done and is currently doing 
to ensure that veteran services are not impacted by these caseworker 
shortages while the hiring challenges remain.
    VA Response: The Homeless Program Office has a goal of 90 percent 
of all funded positions being filled, including HUD-VASH. Currently the 
HUD-VASH office reviews positions that have been vacant for more than 
90 days, and where warranted will intervene with the Veterans 
Integrated Service Network (VISN) and VAMC leadership; VISN Homeless 
Coordinators; and VAMC staff to ensure that HUD-VASH positions are 
filled and care is not compromised. VAMCs are required to continually 
reassess the need for staff and different disciplines to ensure an 
optimal mix of staff for the HUD-VASH Veterans on their caseloads.
    2.Please state whether VA has considered a systemic and robust 
process to hire non-VA caseworkers to manage the HUD-VASH program.
    a.If the answer is no, please explain why not.
    b.If the answer is yes, please describe in detail the training that 
these non-VA caseworkers receive, including training about utilizing VA 
resources and any military cultural competency training.
    VA Response: Yes, the HUD-VASH program has considered and adopted 
processes that promote contracting for non-VA caseworkers. The decision 
to contract is done on a local level, either by the VISN or the VAMC. 
While using contracted positions can enhance services, the Federal 
procurement process can often prove lengthy, with the potential for 
additional cost per voucher. Federal procurement laws and regulations 
ensure fairness, equal opportunity, capacity, and appropriate fiscal 
stewardship. However, valuable time is consumed in the contract 
procurement package preparation and the solicitation, evaluation, and 
award process. Upon the award of a HUD-VASH services contract, the 
vendor must hire the appropriate staff. Each new hire in a contracted 
HUD-VASH position must be vetted for clearance and oriented to their 
respective HUD-VASH program and facility. VAMCs are encouraged to 
contract for HUD-VASH case management services when doing so is 
operationally, clinically, and financially beneficial and feasible.
    Beginning on June 1, 2011, and in response to the fiscal year (FY) 
2011 HUD-VASH voucher allocation, VA issued a memorandum instructing 
each VISN to immediately hire staff or begin the process to contract 
for HUD-VASH case management services. To assist in the contracting 
process, VA attached sample contracting documents to the memorandum, 
including: a blanket Statement of Work (SOW), a Quality Assurance 
Surveillance Plan, and a Source Selection Evaluation Plan. The HUD-VASH 
Program Office updated the SOW and produced a templated Independent 
Government Cost Estimate in 2017.
    3.Please state whether the September 2017 memorandum signed by 
then-Acting Under Secretary of Health Dr. Alaigh is the only VA 
communication that proposed funding changes to Special Purpose funds 
and HUD-VASH funding.
    a.If the answer is no, please provide the Committee with copies of 
any other communications from the past 12 months that related to 
changes in HUD-VASH funding.
    VA Response: No, the September 2017, memorandum signed by then-
Acting Under Secretary of Health, Dr. Alaigh, is not the only VA 
communication that proposed funding changes to Specific Purpose funds 
and HUD-VASH funding. There were memoranda issued on January 8, and 
February 6, 2018, by the Deputy Under Secretary of Health Operations 
Management, to clarify that funding was not being repurposed. Both 
memoranda are attached for your review: (1) FY18 10N Budget Guidelines 
- January 8, 2018 and (2) Memo on HUD-VASH Specific Purpose Funding - 
February 6, 2018.
    4.U.S. Vet's testimony at the hearing included a letter (enclosed), 
dated November 6, 2017, from the Miami VA Healthcare System. This 
letter stated that due to a shift in the allocation of resources for 
HUD-VASH VA Central Office, the Miami VA Healthcare System needed to 
limit the number of veterans it can serve via HUD-VASH. Please state 
whether there were similar letters sent by other VA Healthcare Systems 
after September 1, 2017.
    a. If so, please provide the Committee with copies of these 
letters.
    b.Please describe actions that VA took, after it made the decision 
to not make changes to HUD-VASH funding to ensure letters like the one 
from the Miami VA Healthcare System were corrected, including any 
actions that VA took to ensure that veterans did not lose housing due 
to any confusion regarding funding.
    VA Response: To VA's knowledge, the Miami VA Healthcare System was 
the only facility that limited the number of Veterans that could be 
served with new HUD-VASH vouchers related specifically to funding. All 
VAMCs had to write letters of support for PHAs to submit a Registration 
of Interest to HUD for the allocation of vouchers that are currently 
being prepared for issuance. All VAMCs were provided the opportunity to 
indicate a desired number of new HUD-VASH vouchers in the letter of 
support that would be preferred; however, that number was not binding.
    VA spoke with HUD after the decision was made to not have HUD-VASH 
funding removed from specific purpose funding to see if the Miami VAMC 
would be able to revise their letter of support. This occurred after 
the December 1, 2017, deadline for PHAs to register for HUD-VASH 
vouchers with HUD. As a result, HUD was unable to make an exception as 
they had already extended the deadline by one month to allow for 
clarification around HUD-VASH funding in VA.

                                 <F-dash>
  LETTER FROM TIM WALZ, RANKING MEMBER TO BEN CARSON, SECRETARY, U.S. 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
    January 31, 2018

    The Honorable Ben Carson
    Secretary
    U.S. Department of Housing and Urban Development
    451 7th Street S.W.
    Washington, DC 20410

    Dear Mr. Secretary:

    In reference to the Committee on Veterans' Affairs Subcommittee on 
Health and Subcommittee on Economic Opportunity's hearing titled, 
``Addressing Veteran Homelessness: Current Position; Future Course'' on 
January 18, 2018, I submit the enclosed questions for the record. I 
request that you provide your responses to the questions by the close 
of business on February 28, 2018.
    In preparing your responses to these questions, please list your 
responses consecutively and include the full text of the question you 
are responding to in bold font. To facilitate the printing of the 
hearing record, please e-mail your response as a Microsoft Word 
document to Chris Bennett at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8dcee1f8e4fef9e2fde5e8ffa3cfe8bce0e8f9f9cde0ece4e1a3e5e2f8fee8">[email&#160;protected]</a> .gov by the 
close of business on February 28, 2018. If you have any questions 
please contact him by email or phone at 202-225-9756.

    Sincerely,

    Tim Walz
    Ranking Member
    House Veterans' Affairs Committee
                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES
                         SUBCOMMITTEE on HEALTH
              SUBCOMMITTEE on ECONOMIC OPPORTUNITY HEARING

  ``Addressing Veteran Homelessness: Current Position; Future Course''

                               QUESTIONS

U.S. Department of Housing and Urban Development

From Representative Beto O'Rourke:

    1. During the hearing, HUD stated that it had started a pilot 
program that allows a certain number of veterans with other than 
honorable discharges to access the HUD-VASH program. Please provide a 
detailed description of this pilot program, including the number of 
veterans currently participating in the pilot program, the number of 
total veterans expected to participate over the course of the pilot 
program, the start and end dates of the pilot program, the cost of the 
pilot program, and the metrics that will be used to measure the results 
of this pilot program.

                                 <F-dash>
  LETTER FROM TIM WALZ, RANKING MEMBER TO HONORABLE DAVID J. SHULKIN, 
               M.D., U.S. DEPARTMENT OF VETERANS AFFAIRS
January 31, 2018

The Honorable David J. Shulkin M.D.
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

In reference to the Committee on Veterans' Affairs Subcommittee on 
    Health and Subcommittee on Economic Opportunity's hearing titled, 
    ``Addressing Veteran Homelessness: Current Position; Future 
    Course'' on January 18, 2018, I submit the enclosed questions for 
    the record. I request that you provide your responses to the 
    questions by the close of business on February 28, 2018.

In preparing your responses to these questions, please list your 
    responses consecutively and include the full text of the question 
    you are responding to in bold font. To facilitate the printing of 
    the hearing record, please e-mail your response as a Microsoft Word 
    document to Chris Bennett at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e5d766c776d6a716e767b6c305c7b70707b6a6a5e737f77723076716b6d7b30797168">[email&#160;protected]</a> by 
    the close of business on February 28, 2018. If you have any 
    questions please contact him by email or phone at 202-225-9756.

Sincerely,

Tim Walz
Ranking Member
House Veterans' Affairs Committee

Enclosures:
Letter from U.S. Vets's Hearing Testimony

                               QUESTIONS

U.S. Department of Veterans Affairs

From Representative Ann Kuster:

    1. New Hampshire-based housing organizations have experienced a 
shortage of caseworkers to work VA's supportive housing initiatives 
under the HUD-VASH program. These hiring challenges across the nation 
have presented significant impediments to achieving ``functional 
zero''.

    a. Please describe in detail what VA has done and is currently 
doing to address these hiring challenges, in New Hampshire and also 
nationwide.
    b.Please describe in detail what VA has done and is currently doing 
to ensure that veteran services are not impacted by these caseworker 
shortages while the hiring challenges remain.

    2.Please state whether VA has considered a systematic and robust 
process to hire non- VA caseworkers to manage the HUD-VASH program .

    a.Ifthe answer is no, please explain why not.
    b.Ifthe answer is yes, please describe in detail the training that 
these non-VA caseworkers receive, including training about utilizing VA 
resources and any military cultural competency training.

    3.Please state whether the September 2017 memorandum signed by 
then-Acting Under Secretary of Health Dr. Alaigh is the only VA 
communication that proposed funding changes to Special Purpose funds 
and HUD-VASH funding.

    a.Ifthe answer is no, please provide the Committee with copies of 
any other communications from the past 12 months that relate to changes 
in HUD-VASH funding.

    4.U.S. Vets's testimony at the hearing included a letter 
(enclosed), dated November 6, 2017, from the Miami VA Healthcare 
System. This letter stated that due to a shift in the allocation of 
resources for HUD-VASH VA Central Office, the Miami VA Healthcare 
System needed to limit the number of veterans it can serve via HUD- 
YASH. Please state whether there were similar letters sent by other VA 
Healthcare Systems after September 1, 2017.

    a.Ifso, please provide the Committee with copies of these letters.
    b.Please describe the actions that VA took, after it made the 
decision to not make changes to HUD-VASH funding, to ensure that 
letters like the one from the Miami VA Healthcare System were 
corrected, including any actions that VA took to ensure that veterans 
did not lose housing due to any confusion regarding funding.

                                 <F-dash>
                  LETTER FROM MARK TAKANO TO NCHV Q&A
    Mr. Takano. Last year--okay, well, the VA proposed moving money 
from specific funds to a general purpose fund, and how would that have 
impacted the services you provide the veterans and the numbers of 
veterans you serve?

NCHV Response:

    In the 60 communities, including three states, which have 
effectively ended veteran homelessness, HUD-VASH vouchers are well-
known as game changing resources that increase the availability of 
stable and affordable housing for chronically homeless veterans who 
desperately needed it.
    Switching the way these funds are allocated could have resulted in 
decreases in funding available for case management at some VAMCs, 
meaning fewer case managers available or VAMC Directors moving funds 
from other critical VA programs to serve homeless veterans. Case 
managers work with veterans on an ongoing basis to prevent crises from 
developing where possible. To lower staffing levels would raise client-
to-case manager ratios, which in many cases will in turn mean that 
preventative care will suffer. In real terms, this means veterans would 
only see case managers when they were in crisis. For many, that would 
be far too late.
    These case managers are already stretched thin - sometimes caring 
for more veterans than clinically indicated. To remove these positions 
would be catastrophic to the health, well-being, and housing stability 
of the more than 87,000 veterans and their families residing in HUD-
VASH funded housing. Of course, the health, well-being, and safety of 
the veterans is the primary concern - but, the veteran homelessness 
response system is complex and contains many moving parts, all built 
around a properly functioning HUD-VASH program. Decreasing the 
effectiveness of this program sends shockwaves through all of it.
    For instance, this shift provoked a great deal of uncertainty 
across the country. Because of this uncertainty, as HUD and VA were 
implementing new procedures for public housing authorities (PHAs) and 
VAMCs to request additional new vouchers, several PHAs were unable to 
request the number they felt was needed because their local VAMC would 
not commit to case managing them. Many of these instances will be very 
familiar to some members of the committee and others in Congress. If 
additional vouchers are allocated in the upcoming fiscal year, the 
process may benefit from modifications to account for interest from 
PHAs where local VAMCs may not be as supportive as they could be.
    Furthermore, many developers of affordable housing rely on 
vouchers, particularly project-based vouchers, as proof of operating 
funds in order to obtain funding to develop housing at sufficient 
levels of affordability. Uncertainty has a very real impact on the 
ability of developers t o convince financial institutions to lend them 
the required capital to build these structures. As we erode confidence 
in the HUD-VASH system (to include delays in funding as well as the 
basic inter-departmental relationship on which the program is built) we 
chip away at our ability to create the needed infrastructure to house 
veterans. This effect will be felt for years.
    Finally, there would be an impact on the programs that operate the 
buildings in which veterans who hold project-based vouchers live. With 
less case management - perhaps with the crisis-only case management I 
discussed earlier - comes less stability. These veterans were 
clinically indicated to receive HUD-VASH vouchers because they need the 
highest level of care. Without it, they are at greater risk of relapse, 
dangerous drug use, suicide, isolation, behavioral issues, and 
ultimately homelessness. For those programs that work every day to 
operate a building to house formerly homeless veterans, these outcomes 
would be disastrous.
    NCHV asks for the Committee's commitment to continued oversight of 
this issue to ensure veterans using a HUD-VASH voucher are able to 
access case management.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
